<html>
<title> - THE CURRENT STATE OF READINESS OF U.S. FORCES IN REVIEW OF THE DEFENSE AUTHOR- IZATION REQUEST FOR FISCAL YEAR 2016 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 114-63]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 114-63
 
                 THE CURRENT STATE OF READINESS OF U.S. 
                  FORCES IN REVIEW OF THE DEFENSE AUTHOR-
                  IZATION REQUEST FOR FISCAL YEAR 2016 
                  AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 25, 2015

                               __________

         Printed for the use of the Committee on Armed Services
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         



        Available via the World Wide Web: http://www.fdsys.gov/

                               __________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
96-067 PDF                  WASHINGTON : 2015                        

_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deb9aeb19ebdabadaab6bbb2aef0bdb1b3f0">[email&#160;protected]</a>  








  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)

  

                            C O N T E N T S

                               __________

                             march 25, 2015

                                                                   Page

The Current State of Readiness of U.S. Forces in Review of the 
  Defense Authorization Request for Fiscal Year 2016 and the 
  Future Years Defense Program...................................     1

Allyn, General Daniel B., USA, Vice Chief of Staff of the Army...     5
Howard, Admiral Michelle J., USN, Vice Chief of Naval Operations.    14
Paxton, General John M., JR., USMC, Assistant Commandant of the 
  Marine Corps...................................................    20
Spencer, General Larry O., USAF, Vice Chief of Staff of the Air 
  Force..........................................................    28
Questions for the Record.........................................    58

                                 (iii)


THE CURRENT STATE OF READINESS OF U.S. FORCES IN REVIEW OF THE DEFENSE 
AUTHORIZATION REQUEST FOR FISCAL YEAR 2016 AND THE FUTURE YEARS DEFENSE 
                                PROGRAM

                              ----------                              


                       WEDNESDAY, MARCH 25, 2015

                                U.S. Senate
                      Subcommittee on Readiness and
                                Management Support,
                                Committee on Armed Services
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Kelly 
Ayotte (chairman of the subcommittee) presiding.
    Committee members present: Senators Ayotte, Rounds, Kaine 
and Shaheen.

      OPENING STATEMENT OF SENATOR KELLY AYOTTE, CHAIRMAN

    Senator Ayotte. I'm going to call this hearing to order.
    Very much want to thank our distinguished witnesses who are 
here before us today who have so admirably served our Nation.
    This hearing of the Subcommittee on Readiness and 
Management Support will be the second hearing of the year to 
receive testimony on the current readiness of our military 
forces.
    I want to thank my Ranking Member, Senator Kaine, for his 
continued leadership on defense issues and his eagerness to 
work together in a bipartisan manner for the sake of our 
national security.
    We are joined this afternoon with a very distinguished 
panel. We are here with General Daniel Allyn, Vice Chief of 
Staff of the Army; Admiral Michelle Howard, Vice Chief of Staff 
of Naval Operations; General John Paxton, Vice Commandant of 
the Marine Corps; and General Larry Spencer, Vice Chief of 
Staff for the Air Force.
    Again, I don't think we can say enough about what a 
tremendous group of leaders that we have testifying before this 
committee today. I cannot think of a more important hearing 
topic for this committee than the readiness of our Armed 
Forces.
    The preeminent responsibility of the Federal Government is 
to provide for the common defense. In order to fulfill this 
foundational responsibility of our Government, Congress has 
been explicitly charged, in Article 1, Section 8, of the 
Constitution, with the authority and responsibility to raise 
and support armies, and provide and maintain the Navy. We have 
to begin with an objective assessment of our national security 
interests and the threats that we're facing around the world. 
We then should determine what defense capabilities and 
capacities we need in order to protect our interests against 
likely threats. That is how you develop a defense budget that 
keeps America safe.
    Unfortunately, that's not what we have been seeing with the 
impact of sequester in Washington. Rather than a reality-based, 
strategy-based defense budgets, we are seeing that the impact 
of sequester is deeply disconnected from the many threats that 
we face around the world right now. In fact, in testimony 
before the Armed Services Committee earlier this year, the 
Director of National Intelligence (DNI), James Clapper, I think 
summed up the current situation very well. He said, ``In my 50-
plus years in the intelligence business, I don't know of a time 
that has been more beset by challenges and crises around the 
world. As these threats have grown in complexity and severity, 
the defense budget cuts have created a growing and troubling 
gap between the military we need and the military our national 
security interests require. The consequences of failing to 
address this are grave.''
    It's easy for us in Washington to lose sight of the real-
world consequences of our decisions. We all know that the 
readiness of our forces is something that we don't often see, 
but we'll know right away if it's not there, given what we ask 
of our men and women of uniform.
    When we send our fellow citizens into harm's way, they rely 
on us to provide them with the best possible training and 
equipment so that they can accomplish their missions and return 
home safely. I think not only do we have a constitutional 
obligation to do so, we have a moral obligation to do so. I 
know the witnesses before me appreciate that better than 
anyone.
    That's why I look forward to continuing to work across the 
aisle with people like my Ranking Member to address the 
sequestration, because we do need to come up with a bipartisan 
solution to this in the long term so that we can make the right 
decisions today by our men and women in uniform and to ensure 
that we are prepared to face the grave threats that, 
unfortunately, are unfolding around the world.
    Before I go to my Ranking Member, you know, I know that 
many of my colleagues right now are having a meeting with 
President Ghani, the President of Afghanistan, who just 
finished a joint address to the Congress. Having been present 
for that address, I think that he, the President, first of all, 
made very clear the gratitude that the leader of Afghanistan 
has for the sacrifices that our men and women in uniform have 
made to help ensure the security of Afghanistan. But, what we 
also heard is what a difference our men and women in uniform 
have made in Afghanistan, and appreciate the difference we have 
made throughout the world, and particularly when he talked 
about the freedom with which he believes women should have in 
Afghanistan and the fact that, before our presence in 
Afghanistan, not one girl went to school.
    So, I want to bring this up, because we need to understand 
there is no other leader in the world like the United States of 
America. If we do not continue to invest in the best military 
in the world, then we will not be prepared for the challenges 
we face, but also the world will be a much worse place and a 
much more dangerous place without our assistance.
    I want to--in that regard, I wanted to mention, since we 
have the President of Afghanistan here, that there has been a 
report, unfortunately, that today there were 6 people killed 
and more than 30 wounded in a suicide bombing in Kabul, right 
near the presidential palace. So, I think it reminds us that 
dangers still remain there, and that they remain many places 
around the world. So, your testimony today is so important.
    I would like to turn this over to my Ranking Member.

                 STATEMENT OF SENATOR TIM KAINE

    Senator Kaine. Great. Thank you, Madam Chair.
    I echo your comments. It's good to work together on these 
issues. We have a bipartisan working relationship and, I think, 
a common understanding of the dangers of sequester.
    Could they just give us the budget for 15 minutes, just the 
two of us, and--we can hammer this out.
    Senator Ayotte. We could do it.
    [Laughter.]
    Senator Ayotte. We really could work this out.
    Senator Kaine. Let me start with the thank you that 
Chairman Ayotte was talking about with respect to the speech 
from the Afghan President this morning. If you were--I wish you 
were there. I hope you watched it. It should make you feel 
really proud. You know, it made me feel proud on your behalf, 
but you should feel proud, and you should feel proud for your 
folks, because the notion of a country--I'll just pick one 
statistic--that's gone from a 44-year-old life expectancy to a 
61- or 62-year-old life expectancy in 15 years, I mean, it--
there's just no precedent in human history for that. I have 
been doing my back-of-the-envelope calculation. Seventeen years 
of human life multiplied by 30 million Afghans is 510 million 
years of human life. That's what the U.S. has enabled them to 
achieve, because they didn't have a functioning health system, 
and it was a whole lot of non-governmental organizations (NGOs) 
who came in and helped set it up, but they couldn't set it up 
if the security situation didn't enable them to. So, the U.S. 
and partners, working together with the Afghan people, have 
created a situation where, violence notwithstanding, challenges 
notwithstanding, kids are in school, there's a new sense of 
optimism and hope, people are living longer. As the President 
said, for the kids that are in school, their parents thank you. 
For the people who are living longer, their children thank you. 
He did that in a very poetic way that was really special.
    So, look, but it also means that the work doesn't end. You 
can't stop the investment. We've got to continue the 
partnership. That partnership demands a military that's ready.
    We've had a series of hearings--this is the second one of 
this subcommittee, but others--where we've talked about 
sequester. Madam Chair, we had one this morning in the Seapower 
Subcommittee, where this was the testimony. The Seapower 
hearing this morning, chaired by Senator Wicker and Ranking 
Member Hirono, dealt with the naval and marine aviation 
platforms. That was the hearing. But, they were talking about 
the triple whammy of sequester. So, here's the triple whammy of 
sequester on this kind of component of readiness. Sequester and 
budget caps slows down the ability to purchase new platforms. 
So, since we can't purchase the new platforms we need, let's 
extend the life of existing platforms, let's take planes that 
were meant to fly 6,000 hours and make them fly 10,000 hours. 
Well, to do that, you've got to do a lot of maintenance. Since 
the planes weren't supposed to fly after 6,000 hours, you find 
a whole lot of challenging maintenance problems with planes 
that have been in saltwater environments, corrosion because of 
saltwater, or have been in desert environments, corrosion 
because of sand--so then there's a whole lot of extra depot and 
maintenance demand that we didn't necessarily plan for. Oh, by 
the way, because we furloughed a whole lot of employees and 
stuff, and great aviation mechanics can get jobs elsewhere, 
we're down about 10 percent of what we need in the workforce.
    So, sequester stopped us on the--slowed us on the new 
purchases. Sequester is imposing significant extra demands on 
the maintenance of these aircraft. Sequester is driving away 
some of our workforce. Yet, we are supposed to, nevertheless, 
do the mission that the Nation demands. Then you add to it the 
Chairwoman's comment from DNI Clapper, ``This is the most 
complex strategic set of challenges we see,'' readiness is not 
happening in a vacuum. Readiness is happening after our 
military has been at Operational Tempo (Ops Tempo) for 15 
years. That, in and of itself--forget about sequester--that has 
a readiness challenge to it.
    So, you combine 15 years of Ops Tempo and a complex 
strategic environment and the budgetary challenges of caps and 
across-the-board cuts and furloughs and then sort of the 
uncertainty, ``Is Congress going to fix it, or not?'' and you 
can see why we have such a huge budgetary challenge that we 
have to resolve.
    Retired General Mattis, at a hearing earlier this year, 
said, ``No foe could wreak such havoc on our security as 
mindless sequestration is achieving.'' No foe could wreak such 
havoc on our security as mindless sequestration is achieving.
    If a large-scale conflict were to occur in the near future, 
Armed Forces would not have enough ready forces to respond to 
the Combatant Command (COCOM) requirements, we'd likely suffer 
additional casualties as a result. We've had that testimony.
    So, this has been like an alarm bell that's just been 
ringing, you know, on our table next to us. Your testimony, 
combined testimony, has been like the alarm bell's been 
ringing, ringing, ringing, ringing, ringing. There just has to 
be a moment where we take a step to turn off the alarm and 
adjust to a better path. In the fiscal year 2014 and 2015 
budget, we were able to find a way to reduce the impact of 
sequester--not eliminate it, cut it in half. It may be pie in 
the sky to think we could eliminate it. But, we ought to be 
finding significant sequester relief, whether it's depot 
maintenance or extra plane hours or the effect on the workforce 
that furloughs create, in terms of morale for people who have 
other opportunities. All these are significant.
    That's what we'll be hearing about during the testimony 
today. I look forward to working with my colleagues trying to 
find, based on your testimony, and based on your--you know, 
giving us the stories and the anecdotes we need to convince our 
colleagues, I look forward to trying to find a better path.
    With that, thank you, Madam Chair.
    Senator Ayotte. Thank you, Senator Kaine.
    I would like to first call on General Allyn, the Vice Chief 
of Staff for the Army.
    Thank you, General.

STATEMENT OF GENERAL DANIEL B. ALLYN, USA, VICE CHIEF OF STAFF, 
                       UNITED STATES ARMY

    General Allyn. Thank you, Chairman Ayotte, Ranking Member 
Kaine, Senator Rounds, distinguished members of the 
subcommittee. Thank you for the opportunity to testify on the 
readiness of your United States Army.
    On behalf of our Secretary, The Honorable John McHugh, and 
our Chief of Staff, General Ray Odierno, I thank you for your 
support and demonstrated commitment to our soldiers, Army 
civilians, families, and veterans.
    There are over 140,000 soldiers committed around the globe, 
partnered with our allies, in response to increasing 
instability across Europe, the Middle East, Africa, and the 
Pacific, continuing the mission in Afghanistan, and reacting to 
humanitarian crises. The velocity of instability is increasing, 
as you have all stated; and now is not the time to drastically 
reduce our capability or capacity. The Army needs Congress to 
provide adequate, consistent, and predictable funding.
    Today, only 33 percent of our brigades are ready, when our 
sustained readiness rate should be closer to 70 percent. The 
fiscal year `15 enacted funding for our Army is $5.1 billion 
less than what we had in fiscal year 2014 and challenges 
commanders and leaders across our Army to sustain hard-fought 
gains in our readiness. We are funded to achieve just enough 
readiness for immediate consumption, but are unable to generate 
the readiness required to respond to an unknown contingency.
    While the fiscal year 2015 budget constrains training, we 
remain committed to our Combat Training Center rotations to 
develop leaders and build unit readiness. We accept risk in 
home-station training to conserve resources for these Combat 
Training Center rotations. The result of this approach is that 
we expect our units to arrive at our Combat Training Centers 
not fully ready for these complex training scenarios and, 
therefore, unable to derive the full benefit of this training.
    Under the President's Budget in fiscal year 2016 (PB-16), 
our goal is to increase regular Army brigade combat team 
readiness closer to 70 percent, allowing us to balance force 
requirements while maintaining surge capability. But, we need 
consistent resources to get there.
    Sequestration will undermine readiness, ultimately putting 
soldiers' lives and our mission success at risk, and it will 
increase significantly the involuntary separation of officer 
and noncommissioned officer leaders who have steadfastly served 
their country through the last 13 years of war. Sequestration 
will also severely impact our ability to maintain our 
installation readiness and protect the industrial base, both 
key components to maintaining a readiness--a ready force. It 
will cut essential funds from military construction, 
sustainment, restoration, and modernization on our 
installations. Sequestration will degrade the industrial base's 
ability to sustain the life-cycle readiness of warfighting 
equipment while also maintaining the capability to surge to 
meet future demands.
    To achieve our required readiness level in fiscal year '16, 
we need Congress to support all the cost-saving measures the 
Army has proposed. These include compensation reform, a new 
round of Base Realignment and Closure, and the Aviation 
Restructure Initiative (ARI). Aviation restructure eliminates 
700 aircraft from the Active component and 111 from the Guard 
and Reserve, but increases our readiness and saves $12 billion. 
If the Army does not execute ARI, we will incur additional 
costs buying aircraft and performing maintenance, at the 
expense of modernizing our systems and maintaining readiness 
for our heroic aviators.
    The Army remains committed to protecting our most important 
resource: our soldiers, civilians, and families. We build 
leaders of character and trusted professionals who provide an 
environment where every member of our great Army is treated 
with dignity and respect, supported by essential soldier and 
family programs. We will protect our most vital programs, but 
sequestration-driven budget cuts affect every facet of our 
Army.
    I thank you again for your steadfast support of the 
outstanding men and women of the United States Army. I look 
forward to your questions.
    Thank you.
    [The prepared statement of General Allyn follows:]
Prepared Statement by General Daniel Allyn, Vice Chief of Staff United 
                              States Army
                              introduction
    Chairman Ayotte, Ranking Member Kaine, distinguished Members of the 
Subcommittee, thank you for the opportunity to testify on the readiness 
of your United States Army. On behalf of our Secretary, the Honorable 
John McHugh, and our Chief of Staff, General Raymond Odierno, I would 
also like to thank you for your support and demonstrated commitment to 
our Soldiers, Army Civilians, Families, and Veterans.
    We live in a dangerous world and the Leadership of the United 
States Army is committed to ensuring our Army is ready. The 
accelerating insecurity and instability across Europe, the Middle East, 
Africa and the Pacific, coupled with the continued threat to the 
homeland and our ongoing operations in Afghanistan, remain a 
significant focus for our Army. The Islamic State in Iraq and the 
Levant's (ISIL) unforeseen expansion and the rapid disintegration of 
order in Iraq and Syria have dramatically escalated conflict in the 
region. In Europe, Russia's intervention in Ukraine violates 
international law and threatens to undermine the post-World War II 
security architecture. Across the Asia-Pacific, China's lack of 
transparency regarding its military modernization efforts raises 
concerns with the United States and our allies, and the continuing 
development of North Korea's nuclear and missile programs contributes 
to instability. The rate of complex-humanitarian requirements and the 
unpredictable nature of disaster relief missions heighten the level of 
uncertainty we face around the world, along with constantly evolving 
threats to the homeland. With the velocity of instability increasing 
around the world and the threat of terrorism growing rather than 
receding, now is not the time to drastically reduce capability and 
capacity that would occur under prolonged sequestration level-funding.
    As the Chief of Staff of the Army stated in his testimony, there is 
a growing divide between the emerging geopolitical realities and the 
Budget Control Act's (BCA) arbitrary funding mechanism. The Army budget 
has decreased in nominal terms every year since 2011. Yet today, the 
Army is as globally engaged as ever, with more than 140,000 Soldiers 
deployed, forward stationed, and committed worldwide. We are training 
alongside our allies and partners to help them develop professional and 
capable armies. At home, we are supporting civil authorities while 
defending our critical networks against cyber attacks. Yet prolonged 
funding at BCA levels prevents us from appropriately balancing 
readiness, modernization and end strength, and threatens to make the 
Army a hollow force. Under sequestration-level funding, the Army will 
be unable to meet its current target for regaining full-spectrum 
readiness by fiscal year 2023.
    Our Nation requires a trained and ready Army prepared to rapidly 
deploy, fight, sustain itself and win decisively against complex state 
and non-state threats in diverse, austere environments, rugged terrain 
and urban megacities. Readiness is measured at both the service and 
unit level. Service readiness incorporates installations and the 
critical ability of the Army to provide requisite capabilities in 
support of the Joint Force in sufficient capacity to execute the 
missions required by combatant commands. Unit readiness is the 
combination of personnel, materiel and supplies, equipment and 
training, that, when properly balanced, enables immediate and effective 
application of military power.
    To ensure readiness now and in the future, the Army needs Congress 
to provide adequate, consistent and predictable funding. The Army 
supports the President's Budget as meeting the required funding and 
needed reforms to fulfill our responsibilities defined in the Defense 
Strategic Guidance. One critical assumption in the President's Budget 
request is that Congress will enact critical cost saving measures we 
have proposed. These include compensation reform, sustainable energy 
and resource initiatives, a new round of Base Realignments and Closure 
(BRAC), and the Aviation Restructure Initiative (ARI). We ask Congress 
to support these initiatives because without the flexibility to manage 
our budgets to achieve the greatest capability possible, we will be 
forced to make even steeper reductions to manpower, modernization, and 
training across the Total Army.
Current State of Readiness
    Thirteen years of sustained counterinsurgency-focused operations 
have degraded the Army's ability to conduct operations across the 
entire spectrum of war. In fiscal year 2011, the Army began a multi-
year transition to rebuild core readiness and build capability to 
conduct Decisive Action for Unified Land Operations. The speed and 
scale of the funding reductions mandated under sequestration in fiscal 
year 2013 curtailed this transition plan by forcing the Army to absorb 
the majority of the cuts within the operations and training accounts. 
This resulted in tiered readiness of units as opposed to broad gains 
across the force.
    Last year the Chief of Staff of the Army testified that only two of 
our Brigade Combat Teams, the Army's basic warfighting unit, were fully 
ready for decisive action operations. Since then, we have trained 13 
BCTs to that standard (other CTC rotations were mission-specific for 
deploying units) thanks to funding provided in the 2013 Bipartisan 
Budget Agreement (BBA). However, of those 13 BCTs, we have consumed the 
readiness of nine to support on-going operations. At prolonged 
sequestration-level funding, the Army will be unable to train units 
quickly enough to outpace, or even meet demand.
    With the support of Congress, the Army executed $126.2 billion for 
base budget purposes in fiscal year 2014 to begin rebuilding readiness 
lost during sequestration in fiscal year 2013. Though known and 
predictable, the fiscal year 2015-enacted level of $121 billion is $5.1 
billion less than fiscal year 2014, and is challenging Commanders 
across the Army to sustain our hard-earned readiness. To operate under 
this budget, we are significantly reducing key installation services, 
individual training events, and modernization to such an extent as to 
jeopardize future readiness and quality of life. For example, Logistics 
Readiness Centers were underfunded by $350 million in fiscal year 2015, 
which covers funding for dining facilities, contract operations at ammo 
supply points, central issue facilities, maintenance, laundry and dry 
cleaning operations. In addition to the effect on Soldier quality of 
life, these cuts force Commanders to divert Soldiers from training to 
perform logistics tasks.
    The President's Budget request for fiscal year 2016 increases 
readiness funding above fiscal year 2015 levels, which is critical to 
sustain and improve the readiness of the force. While the reduced 
fiscal year 2015 budget will reduce overall training, we remain 
committed to CTC rotations to develop leaders and build unit readiness. 
fiscal year 2015 plans fund 19 CTC rotations: two for deploying BCTs 
and 17 decisive action rotations (15 Active Army and two Army National 
Guard). fiscal year 2016 will continue this level of CTC exercises.
    We are improving Training Support Systems to enable more realistic 
home station training, increase collective training proficiency and 
enhance operational readiness for contingencies across the globe; 
however, funding constraints in fiscal year 2015 impede our ability to 
maximize home station training goals. We accepted risk in home station 
training to conserve resources for units to continue to conduct 
training at the CTCs. This resulted in units arriving at the CTCs not 
yet ``fully ready'' for these complex training scenarios, and therefore 
unable to derive the full benefit of the training. Although the Army 
attempts to mitigate the impacts on training readiness, we must 
continue to implement the Contingency Force model of fiscal year 2015 
in order to maintain readiness for the 24 of 60 BCTs that will receive 
sufficient funding to conduct training at CTCs and home station. The 
remaining 36 BCTs will train only to Individual/Crew/Squad resourcing 
levels. The President's Budget request for fiscal year 2016 allows the 
Army to increase training readiness to battalion-level across the 
active Component force and to platoon-level in the Reserves. Lower 
funding levels will not allow us to achieve this balanced readiness.
    Our aim is to provide tough, realistic multi-echelon home-station 
training using a mix of live, virtual and constructive methods that 
efficiently and effectively build Soldier, leader and unit competence 
over time. Training will integrate the unique capabilities of the 
Light, Medium and Heavy forces, as well as the capabilities of 
Conventional and Special Operations Forces. Training centers including 
the Joint Multinational Readiness Center in Germany will increase our 
interoperability with Allies. Our goal is to achieve a high level of 
readiness for 70 percent of our Active Component BCTs compared to the 
current 33 percent, allowing the Army to balance Combatant Command 
force requirements while maintaining surge capability - but we need 
consistent resources to get there.
    We are also increasing funding for our individual and institutional 
training. Funding increases focus on leader development, entry-level 
training and flight training. The unpredictable nature of human 
conflict requires leaders ready to lead in close combat and to 
understand the operational and strategic environment, including its 
socio-economic, cultural and religious underpinnings. Junior leaders 
will frequently confront ethical dilemmas, with resultant decisions 
that have strategic impacts. Our leaders must demonstrate the 
competence and professional values necessary to achieve operational and 
strategic mission success.
    However, sequestration in fiscal year 2016 would mortgage the 
functional skills and training of individual Soldiers. Sequestration 
will force the Army to further reduce Specialized Skill Training by 
over 85,000 seats (65 percent drop) and fund only the most critical 
courses. This will reduce readiness as Soldiers will lose proficiency 
on their individual tasks. These reductions include 900 fewer graduate 
flight school seats, resulting in unfilled and unqualified pilot 
positions throughout the force. We would continue to emphasize leader 
development by protecting Professional Military Education, minimizing 
cuts to about 10 percent.
    The Army continues to make progress at integrating the unique 
capabilities of each of its components to support the needs of the 
Combatant Commanders. As part of the Army's Total Force Policy, the 
U.S. Army Forces Command is leading the way by partnering Guard and 
Reserve divisions and brigades with Active Army peer units. The Army is 
also piloting a program to assign Guard and Reserve personnel directly 
to Active Army corps and division headquarters. For example, the 
Reserve Component rapidly provided support capabilities to Operation 
United Assistance in Liberia to augment and replace elements of the 
initial Active Component response. We fight as a Total Army, and each 
component has a unique role. We must also draw down as a Total Army--
Active, Guard, and Reserve--in order to maintain the correct balance 
between capacity and readiness.
    As we transition from combat operations in Afghanistan, our Army is 
focused on the ability to rapidly deploy forces around the world in 
order to meet the needs of our Combatant Commanders. To do this, we 
enhanced prepositioned equipment sets and created activity sets to 
support operations in Europe, the Pacific and around the world. 
Activity sets are prepositioned arrays of equipment that enable U.S. 
regionally-aligned forces and multinational partners in Europe to train 
and operate. We have also reinvigorated our Emergency Deployment 
Readiness Exercise program and enhanced the en route mission command 
capability of our Global Response Force. The President's Budget request 
provides sufficient capability to respond in each Geographical 
Combatant Command's area of responsibility.
    The Army continues to be a good steward of the resources returning 
from operations in Afghanistan. In 2014, the Army efficiently 
synchronized equipment retrograde out of theater. Redeployment and 
retrograde operations remain on schedule; however, the Army continues 
to forecast a need for reset funding for three years after redeployment 
of the last piece of equipment from theater. In addition, we identified 
almost $2 billion of potential requirement reductions in Contractor 
Logistics and Training Support. These and other changes allowed the 
Army to increase the capability of its prepositioned stocks program 
without an increase in associated costs.
    Finally, during this period of drawdown, the Army is reorganizing, 
realigning and restructuring forces. The Brigade Combat Team 
reorganization enhances brigade combat power by adding a third maneuver 
battalion to 38 BCTs by the end of fiscal year 2015 and reducing the 
total number of BCTs to 60 (32 Active Army and 28 Army National Guard) 
in the Total Force. This effort decreases the number of headquarters 
units and personnel without negatively affecting the number of 
operational battalions.
    Since May 2014, we have been developing a sustainable force 
generation and readiness model to account for the new, volatile, 
strategic operating environment and the need to remain regionally-
engaged under budgetary and force-sizing realities. The Sustainable 
Readiness Model (SRM) will provide force generation policies and 
processes that optimize the readiness of the force and balance the 
Army's steady state missions, contingency response capability, and 
available resources. We cannot predict the specific events that will 
cause the next surge in demand for Army forces, but history suggests it 
will come sooner than we expect. The SRM will better enable the future 
smaller force to sustain readiness at optimal levels over time.
    One critical assumption in the President's Budget request is that 
Congress will enact necessary compensation reform and force structure 
initiatives. We fully support the modest reforms to pay raises, health 
care and other benefits that have been proposed. Without these reforms, 
savings assumptions we have included in our planning will not be 
realized, placing increasing pressure on further end strength 
reductions and reducing funding needed to sustain readiness.
Future Readiness: The Army Operating Concept
    While we are most concerned about the BCT's short-term effects on 
readiness, we are keenly focused on the long-term readiness of the 
Total Force to meet future demands. As such, we developed a new Army 
Operating Concept (AOC), ``Win in a Complex World.'' The AOC provides 
an intellectual framework for learning and for applying what we learn 
to future force development under Force 2025 and Beyond. The foundation 
of the Army Operating Concept is our ability to conduct joint combined 
arms maneuver. The Army Operating Concept endeavors to build a force 
capable of operating alongside multiple partners, able to create 
multiple dilemmas for our adversaries, while giving our Senior Leaders 
multiple options and synchronizing and integrating effects from 
multiple domains onto and from land. Recognizing the changing world 
around us, the Army Operating Concept envisions an Army that is 
expeditionary, tailorable, scalable and prepared to meet the challenges 
of the global environment. The Army Operating Concept sets the 
foundation upon which our leaders can focus our efforts and resources 
to maintain strategic and operational flexibility to deter and operate 
in multiple regions simultaneously - in all phases of military 
operations - to prevent conflict, shape the security environment, and 
win wars now and in the future.
    It is imperative that our Army adapts to the future joint operating 
environment, one that consists of diverse enemies that employ 
traditional, irregular and hybrid strategies which threaten U.S. 
security and vital interests. Through a dedicated ``Campaign of 
Learning'' under Force 2025 Maneuvers, we will assess new capabilities, 
force designs, and doctrine to ensure the readiness of our future 
force. We are focusing our innovation efforts in this Campaign of 
Learning to address the 20 Army Warfighting Challenges identified in 
the Army Operating Concept. The Army Warfighting Challenges are 
enduring first-order problems, and solving them will improve combat 
effectiveness. They range from shaping the Security Environment, to 
countering Weapons of Mass Destruction, to conducting Space and Cyber 
Operations, to Integrating and Delivering Fires, to Exercising Mission 
Command. The Army Operating Concept represents a long-term, cost-
effective way to enhance readiness, improve interoperability and 
modernize the force.
Installation Readiness
    In order to partially mitigate the severe impacts of sequestration-
level funding on training readiness, the Army will be forced to take 
significant risk with installation readiness. Installation maintenance 
has been underfunded since 2011 which impacts efficiency and readiness. 
Sequestration in fiscal year 16 would cut essential funds for military 
construction, sustainment, restoration and modernization on our posts, 
camps and stations. The President's fiscal year 2016 budget funds 79 
percent of the OSD Facility Sustainment Model requirement. Under 
sequestration the Army would only be able to fund 62 percent of needed 
repairs, limiting repairs to those needed for life, health, and safety. 
Restoration and modernization accounts would be underfunded as well. 
Without relief from sequestration 20 percent of the Army's 
infrastructure will remain in substandard condition and approximately 
100,000 maintenance orders will be deferred each month. Recovery from 
unfilled maintenance requests will take at least 2-3 years if fully 
funded and ultimately will affect morale, retention, and readiness.
    A return to sequestration-level funding will result in a $1 billion 
decrease to base operations support, requiring installations to 
eliminate jobs and scale back or cancel service contracts that employ 
people in local communities. We will have to increase further our 
reliance on Soldiers to support basic installation functions in order 
to provide a safe training environment and adequate quality of life. 
These include access control point manning by MTOE units, manning ammo 
and fuel handling points, and conducting essential range maintenance. 
These requirements pull Soldiers away from important training and 
ultimately detract from readiness. We will also reduce contract funding 
for a number of quality-of-life services such as custodial services, 
waste collection, and grounds maintenance.
    It is important to highlight the need for another round of Base 
Realignment and Closure (BRAC). We simply have too much surplus 
infrastructure and will have even more as we continue to downsize. We 
are already in the process of separating nearly 152,000 Soldiers from 
the Total Army by fiscal year 2018, and sequestration would force us to 
separate another 60,000 by fiscal year 2020--for a total reduction of 
212,000. In addition, we have reduced over 50,000 Civilians from these 
same installations. Without a BRAC and the realized cost savings, the 
only alternative is to make additional cuts in training, manpower and 
modernization to make up for shortages in installation funding. We have 
reduced all that we can from our overseas bases, and are now reducing 
personnel at U.S. installations. We expect excess facility capacity 
will be about 18 percent Army-wide by late fiscal year 2015.
Industrial Base
    The Industrial Base consists of Government-owned (organic) and 
commercial industry and is designed to be readily available to 
manufacture and repair items during both peacetime and national 
emergencies. The current financial uncertainty of sequestration, 
combined with the cuts in Army force structure, is driving workload 
down. Over 4,500 employees within the organic industrial base (OIB) 
have already lost their jobs due to budget uncertainty and declining 
workloads since fiscal year 2013, and the Army has deferred $323 
million of depot maintenance from fiscal year 2013 into fiscal year 
2015. The highly skilled industrial base workforce serves an enduring 
mission, and provides critical capabilities in support of our National 
defense today, while also preparing for the threats of tomorrow. 
Sequestration will result in insufficient resources to complete 
critical depot maintenance and will continue to degrade the industrial 
base's ability to sustain the life-cycle readiness of war-fighting 
equipment while also maintaining the capability to surge to meet the 
demands of future contingency operations.
    Should sequestration-level funding return in fiscal year 2016, 
furloughs, overtime restrictions and hiring freezes will again 
negatively impact the OIB productivity, workforce availability and 
capability. In order to mitigate the loss of critical skill sets and 
ensure the OIB is ready for the next contingency, the Army requires 
consistent and predictable funding. We also need to carryover workload 
to keep production lines functioning between fiscal years.
    The Army is taking several actions to reshape the OIB to support 
the Army of 2025 and beyond, to include assessing OIB capabilities and 
capacities and effectively aligning them to planned workloads. We are 
not sustaining aging systems that are planned for divesture within the 
next five years, and we are continuing reset and sustainment of our 
modernized platforms. This strategy will enable the Army to sustain and 
modernize our most capable fleets, while accomplishing our Title 10 
requirements to sustain the core depot and critical manufacturing 
capabilities necessary to fight and win the Nation's wars.
Aviation Restructure Initiative
    One of our most important reforms is the Aviation Restructuring 
Initiative (ARI), which we continued in fiscal year 2015. Our current 
aviation structure is unaffordable, so the Army's plan will avoid $12 
billion in costs and saves an additional $1 billion annually if we 
fully implement ARI. We simply cannot afford to maintain our current 
aviation structure and sustain modernization while providing trained 
and ready aviation units across all three components. Our comprehensive 
approach through ARI will ultimately allow us to eliminate obsolete 
airframes, sustain a modernized fleet, and reduce sustainment costs.
    Through ARI, we will eliminate nearly 700 aircraft from the active 
Component, while removing only 111 airframes in the Reserve Component. 
A byproduct of ARI is the reduction in the number of Active Duty Combat 
Aviation Brigades from 13 to 10. ARI eliminates and reorganizes 
structure, while increasing capabilities in order to minimize risk to 
meeting operational requirements within the capacity of remaining 
aviation units across all components. If the Army does not execute ARI, 
we will incur additional costs associated with buying aircraft and 
structure at the expense of modernizing current and future aviation 
systems in the Total Force.
    The Army notes the establishment by Congress of a National 
Commission on the Future of the Army and ARI specifically, and is fully 
committed to working with the Commission as it fulfills its charter.
Army Cyber
    Network dominance and defense is an integral part of our National 
security, and the Army is focused on providing increased capability to 
the Joint Force. Investment in cyber capability and readiness is a top 
priority, and we are working to improve requirements and resourcing 
processes to ensure that they are agile enough to rapidly translate 
innovative concepts into realized capabilities. Army readiness includes 
cyber readiness.
    We are aggressively manning, training and equipping cyber mission 
teams and established a new cyber branch to help recruit, train and 
retain cyber Soldiers. The Army has grown from zero Cyber teams in 
fiscal year 2013 to 24 Army Cyber Mission Teams today at Initial 
Operating Capability (IOC). By the end of fiscal year 2016, we will 
have 41 Cyber Mission Teams. The Army has established the Cyber Center 
of Excellence at Fort Gordon, GA, to serve as our focal point to drive 
change across the Army. This is a Total Force effort--Active, National 
Guard, and Reserve--and through our Reserve Components we will leverage 
the professional expertise within the civilian population to build 
greater capacity, expertise, and flexibility across DOD, Federal, 
state, and private sector activities. We recently established a full-
time Army National Guard Cyber Protection Team (CPT) that is training 
to conduct network defense. We will create three more Army National 
Guard CPTs in fiscal year 2016.
    We must make prudent investments in our cyber infrastructure, 
including facilities, networks and equipment to ensure a capable force. 
Network modernization is critical to the success of Army operations 
across all domains, and the Army is fully integrated into the build-out 
of the Joint Information Environment (JIE). JIE efforts will enhance 
the defensibility of our networks while providing global access for the 
joint force. However, sequestration-level funding in fiscal year 2016 
will reduce network funding by almost $400 million and defer critical 
scheduled IT infrastructure upgrades at three major installations, 
reducing the Army's warfighting capability and its ability to protect 
itself against cyber attacks.
Essential Investments: People and Equipment
    Soldiers, Families and Army Civilians
    Army Professionalism and the resilience of those who serve--
Soldiers, their Families and Army Civilians--are directly linked to the 
Readiness of our Force. That is why we must develop and sustain a 
system of capabilities and services that are designed to mitigate the 
unique challenges of military life, foster life skills, strengthen 
resilience, and promote a strong and ready Army. As Army leaders, we 
continue to express our enduring commitment to those who serve, 
recognizing that attracting and retaining highly-qualified individuals 
in all three components is critical to readiness. Two of our key 
efforts, the Army's Ready and Resilient Campaign (R2C) and Soldier for 
Life, exist to ensure we are taking care of our most precious resource: 
our people, throughout Army life and beyond.
Ready and Resilient Campaign
    We will make every effort to protect our most important Soldier and 
Family programs, but budget cuts are ultimately affecting every facet 
of the Army. To ensure we maintain our focus on our most invaluable 
resource: our people, we continue to develop a Ready and Resilient 
Army. A Ready and Resilient Army is composed of resilient individuals, 
adaptive leaders and cohesive teams that are committed to the Army 
professional ethic and capable of accomplishing a range of operations 
in environments of uncertainty and persistent danger. We are developing 
a comprehensive system that empowers Army Commanders and Leaders to 
improve Leader engagement and early Leader intervention. We are taking 
a more holistic look at negative behaviors and their correlation in 
order to better target training, tools and resources with more emphasis 
placed on resilience and prevention skills to reduce incidents of 
escalated negative behavioral outcomes.
    We continue to provide resilience and performance enhancement 
training to Soldiers, Families and Army Civilians through Comprehensive 
Soldier and Family Fitness. To date, we have trained more than 26,000 
Master Resilience Trainers Army-wide who are taking these skills back 
to their formations. We have established an online assessment and self-
development platform where Soldiers, their Families and Army Civilians 
can, in their own time, confidentially take action to improve their 
overall health and resilience.
    We are also emphasizing the importance of sleep, physical activity, 
and nutrition. The Performance Triad is a comprehensive plan to improve 
readiness and increase resilience through health initiatives and 
leadership engagement. Sleep, activity and nutrition are key actions 
that influence overall health.
    Personal Readiness is critical to mission readiness. Those who 
serve must have the physical, psychological, social, emotional and 
spiritual preparedness to achieve and sustain optimal performance in 
supporting the Army mission.
Soldier for Life
    Soldier for Life (SFL) is a program that drives a change in 
mindset. We encourage the SFL mindset through senior leader and 
installation engagements, and focused training curriculum. We want 
individuals to understand from their entry day in the Army that they 
will receive the tools to succeed throughout their service lifecycle - 
``Once a Soldier, always a Soldier . . . a Soldier for Life!'' As they 
return to civilian life, Soldiers will continue to influence young 
people to join the Army and, along with retired Soldiers, will connect 
communities across the Nation with its Army.
    As we reduce the Army's end strength, we owe it to our Soldiers and 
their Families to facilitate their transition to civilian life. The 
Army supports continuum of service initiatives to help in this effort 
by communicating the benefits of continued service in the Reserve 
Components. Additionally, the ``Soldier for Life'' Program connects 
Army, governmental and community efforts to facilitate the successful 
reintegration of our Soldiers and Families back into communities across 
the Nation through networks in employment, education and health. Our 
pre- and post-retirement services ensure those who served become and 
remain leaders in their community. For example, we have developed 
strong relationships with government, non-government and private sector 
entities to include direct collaboration with the Departments of 
Veterans Affairs, Labor, and the Chamber of Commerce to bring 
employment summits to installations worldwide.
Sexual Harassment / Assault Response and Prevention (SHARP) Program
    Trust between Soldiers, between Soldiers and Leaders, between 
Soldiers, their Families and the Army, and between the Army and the 
American people is fundamental to readiness. Sexual assault and sexual 
harassment undermine that trust.
    Across the Army, we are committed to maintaining momentum in Army 
SHARP and making further advances along our five lines of efforts: 
Prevention, Investigation, Accountability, Advocacy and Assessment. In 
the last year, our efforts along the Prevention Line of Effort resulted 
in actions such as consolidating SHARP training under TRADOC and 
Initial Entry Training and Professional Military Education to increase 
the quality and accessibility of our prevention tools. Our 
Investigation Line of Effort showed advances in Special Victim 
capabilities and Trial Counsel Assistance Programs. The Accountability 
Line of Effort had successes through our Special Victim Investigation 
and Prosecution capability and through tools such as Command Climate 
Surveys and Commander 360 degree assessments. Our Advocacy Line of 
Effort resulted in initial indicators of progress in establishing SHARP 
resource centers for over 12 installations. We continue to see interim 
progress along our Assessment Line of Effort as noted in the 2014 
``Department of Defense Report to the President of the United States on 
Sexual Assault Prevention and Response.''
    Recent statistics outlined in the 2014 ``DOD Report to the 
President'' indicate a decrease in unwanted sexual contact in fiscal 
year 2014 compared to fiscal year 2012. Within the Army, survey-
estimated rates of unwanted sexual contact for the past year decreased 
significantly for active duty women (4.6 percent), compared to fiscal 
year 2012 (7.1 percent). In addition, reporting data demonstrates more 
victims are coming forward to report sexual harassment and sexual 
assault. In fiscal year 2014, sexual assault reporting in the Army 
increased by 12 percent over the previous year. We view this as a vote 
of confidence and a sign of increased trust. Nevertheless, we must 
continue striving to foster a climate where individuals are not afraid 
of retaliation or stigma for reporting a crime by ensuring individuals, 
units, organizations and specifically commanders and leaders understand 
their responsibilities. Retaliation takes many forms and originates 
from many sources--leaders, family, friends and, most pervasively, peer 
to peer. Retaliation in its simplest form is bullying. It enables 
offenders, threatens survivors, pushes bystanders to shy from action, 
and breeds a culture of complacency. Retaliation has no place in the 
Army and we must stamp it out.
    The chain of command must be at the center of any effort to combat 
sexual assault and harassment, and we must ensure leaders remain fully 
engaged, involved and vigilant. With commanders at the center of our 
efforts, we will continue to decrease the prevalence of sexual assault 
through prevention and encourage greater reporting of the crime.
    Sexual assault and sexual harassment will be eliminated when every 
Soldier, Civilian and Family Member stands up and unequivocally acts to 
stamp it out. Together, we have an obligation to do all we can to 
safeguard America's sons and daughters, and maintain trust between 
Soldiers, Civilians, Families and the Nation. Army leaders, at every 
level of the chain of command, are doing this through prevention, 
investigation, accountability, advocacy and assessments.
Modernization
    It is impossible to discuss readiness without highlighting 
modernization, as systems and equipment play a key role in future force 
readiness. Equipment modernization must address emerging threats in an 
increasingly sophisticated technological environment. The Army must 
maintain its ability to contend with such diverse threats as cyber 
attacks, electronic warfare, unmanned systems, chemical and biological 
agents, and air and missile threats. Decreases to the Army budget over 
the past several years significantly impacted Army modernization. Since 
2011, the Army has ended 20 programs, delayed 125 and restructured 124. 
Between 2011 and 2015, Research and Development and Acquisition 
accounts plunged 35 percent from $31 billion to $20 billion. 
Procurement alone dropped from $21.3 billion to $13.9 billion. We 
estimate that sequestration-level funding will affect over 80 Army 
programs. Major impacts include delays in equipping to support 
expeditionary forces, delays in combat vehicle and aviation 
modernization, unaffordable increases in sustainment costs to repair 
older equipment and increases in capability gaps.
    The centerpiece of the Army's Modernization Strategy continues to 
be the Soldier and the squad. The Army will also develop and field a 
robust, integrated tactical mission command network linking command 
posts, and extending out to the tactical edge and across platforms. The 
Army's objective is to rapidly integrate technologies and applications 
that empower, protect and unburden the Soldier and our formations, thus 
providing the Soldier with the right equipment, at the right time, to 
accomplish the assigned mission.
    The President's Budget request would provide over $2 billion to 
begin to address the growing gaps in our modernization accounts. Even 
with this additional funding, modernization will require several years 
to recover from the effects of recent budget reductions and regain 
balance in the Force. As such, the Army emphasizes early affordability 
reviews, establishing cost caps (funding and procurement objectives), 
synchronizing multiple processes and divesting older equipment.
End Strength
    Readiness includes possessing the capacity to execute the missions 
required by the Defense Strategic Guidance and the Combatant 
Commanders. The minimum end strength the Army requires to fully execute 
the 2012 Defense Strategic Guidance is 980,000 Soldiers--450,000 in the 
active Army, 335,000 in the Army National Guard and 195,000 in the Army 
Reserve. All three components will be smaller than pre-2001 force. If 
prolonged sequestration-level funding occurs, we will need to reduce 
end strength even further--to 420,000 in the AC by fiscal year 2020, 
and 315,000 in the National Guard and 185,000 in the Army Reserve, both 
by fiscal year 2019. At these levels we assess the Army would be unable 
to fulfill all the elements of the Defense Strategic Guidance.
    Although the Army expects to lose combat-seasoned Soldiers and 
leaders, our focus through these processes will be on retaining those 
individuals with the greatest potential for future service in the right 
grades and with the right skills.
Recap: Effects of Sequestration
    At force levels driven by affordability under full sequestration, 
the Army cannot fully implement its role in the defense strategy. 
Sequestration would require the Army to further reduce our Total Army 
end strength to at least 920,000 or 60,000 below the 980,000 currently 
reflected in the President's Budget request and would severely limit 
the Army's investment to equip Soldiers to meet the warfighting 
requirements of tomorrow. Under sequestration-level funding readiness 
will be reduced to a level the Army will be unable to recover from 
until well past the current target of fiscal year 2023. Only 24 of 60 
Brigade Combat Teams will receive sufficient funding to conduct 
required readiness training. An estimated 85,000 seats will be lost in 
specialized skills training, and there will be a $1 billion decrease to 
base operations support, eliminating jobs, contracts, causing barracks 
and furnishings to further deteriorate. While we will protect funding 
for the Combat Training Centers (CTCs), funding for home station 
training will be severely reduced which will undermine many units' 
readiness and inhibit those scheduled for a CTC from adequate 
preparation.
    We are expecting a decline in the overall readiness of our forces 
because of reduced funding in fiscal year 2015, and sequestration in 
fiscal year 2016 will dissipate the gains we achieved from the 
Bipartisan Budget Agreement in fiscal year 2014 and leave the Army in a 
precarious state. Because we cannot draw down end strength in a rapid 
manner, operations and training funding would absorb the majority of 
the budget cuts resulting from sequestration, leaving the Army hollow--
lacking training and modern equipment and vulnerable if needed in a 
crisis. Ultimately, sequestration will put Soldiers' lives at risk.
Closing
    As the velocity of instability increases so does the demand for a 
ready and modern Army, adequately sized and trained to prevent, shape, 
and win. We ask Congress to repeal the harmful cuts arbitrarily imposed 
under sequestration-level funding and provide Soldiers with greater 
predictability in these uncertain times.
    We are committed to working closely with Congress to ensure that we 
are good stewards of our Nation's resources. There are critical cost-
saving measures that allow the Army to further reallocate scarce 
resources to ensure we remain ready and resilient. These include 
compensation reform, sustainable energy and resource initiatives, a new 
round of Base Realignment and Closure (BRAC), and the Aviation 
Restructure Initiative (ARI). We also ask Congress to support a Total 
Army solution to end strength reductions. Cuts must come from the Total 
Force - Active, National Guard, and Reserve--to maintain the balance 
among all components to best execute the Army's strategic mission. We 
ask Congress to support these initiatives because without the 
flexibility to manage our budgets to achieve the greatest capability 
possible, we will be forced to make even larger reductions to manpower, 
modernization, and training.
    The United States Army plays a foundational role in the Joint Force 
and is indispensible as we work to reassure our allies, deter our 
enemies, and when necessary, win our Nation's wars. The strength of the 
All Volunteer Force is our Soldiers, Civilians and their Families, and 
we must ensure they always stand Ready. History has taught us that the 
price of improperly managing the readiness of our force will ultimately 
fall on the backs of our fighting Soldiers. With your assistance, we 
will continue to resource the best-trained, best-equipped and best-led 
fighting force in the world. We thank Congress for their steadfast and 
generous support of the outstanding men and women of the United States 
Army, our Army Civilians, Families, and Veterans.

    Senator Ayotte. Thank you, General Allyn.
    We're now going to hear testimony from Admiral Michelle 
Howard, who's the Vice Chief of Staff for Naval Operations.
    Thank you, Admiral Howard.

  STATEMENT OF ADMIRAL MICHELLE J. HOWARD, USN, VICE CHIEF OF 
              NAVAL OPERATIONS, UNITED STATES NAVY

    Admiral Howard. Chairwoman Ayotte, Senator Kaine, and 
Senator Rounds, distinguished members of the committee, thank 
you for the opportunity to testify today.
    It is my honor to represent the Navy's Active and Reserve 
sailors and civilians, and particularly the 41,000 sailors who 
are underway and deployed around the world today. They're 
standing watch right now, and ready to meet today's security 
challenges. The citizens of this Nation can take great pride in 
the daily contributions of their sons and daughters who fulfill 
our Navy's longstanding mandate to be where it matters when it 
matters.
    Recent events exemplify the benefit of forward presence. 
Last August, the George Herbert Walker Bush Carrier Strike 
Group relocated 750 nautical miles from the Arabian Sea to the 
Arabian Gulf in less than 30 hours. They executed 20 to 30 
combat sorties per day. For 54 days, they were the only 
coalition strike option to project power against the Islamic 
State of Iraq and Syria (ISIS). Then there's the U.S.S. 
Truxton, a destroyer that arrived in the Black Sea within a 
week after Russia invaded Crimea, to help reassure our allies 
in the area. Another destroyer, U.S.S. Sampson, and littoral 
combat ship U.S.S. Fort Worth were among the first vessels to 
support the search effort for Air Asia Flight 8501 in the Java 
Sea. Our forward presence truly allows us to be where it 
matters when it matters.
    Effectively operating forward around the globe requires a 
high state of readiness of our people and platforms. We are 
still recovering from a degraded readiness as a result of over 
a decade of combat operations. Sequestration in 2013 
exasperated our circumstances and created maintenance backlogs 
that have prevented us from getting ships back to the fleet on 
time and aircraft back on the flight line. Since 2013, many 
ships have been on deployment for 8 to 10 months or longer, 
negatively impacting the morale of our people and readiness of 
our ships.
    Our Navy fiscal year 2016 budget is designed to continue 
our readiness recovery, restoring our required contingency 
operations capacity by the 2018-to-2020 timeframe, while 
continuing to provide a sustainable forward presence. It also 
includes credible and survivable sea-based strategic 
deterrence. With continued overseas operation funding, our 
fiscal year 2016 budget meets the requirements of the global 
force management allocation plan. This includes at least two 
carrier strike groups and two amphibious ready groups operating 
forward, fully mission capable and certified for deployment.
    Recovery of readiness also requires a commitment to protect 
the time it takes to properly maintain and modernize our 
capital-intensive force and to conduct full-spectrum training. 
Achieving full readiness entails the restoration of shipyard 
capacity and aviation depots primarily through hiring and 
workforce development, and PB-16 puts us on a path to address 
these challenges.
    I want to make it clear. The Navy's fiscal year 2016 budget 
is the minimum funding required to execute the Nation's defense 
strategy. In other words, if we return to a sequestered budget, 
we will not be able to execute the defense strategic guidance. 
Past budget shortfalls have forced us to accept significant 
risks in two important mission areas. The first mission at risk 
is ``deter and defeat aggression,'' which means to win a war in 
one theater while deterring another adversary in a different 
theater. Assuming risk in this mission leads to loss of 
credibility and ability to assure our allies of our support. 
The second mission at risk is ``project power despite anti-
access aerial-denial challenges.'' This brings risk in our 
ability to win a war. Some of our people and platforms will 
arrive late to the fight and inadequately prepared. They will 
arrive with insufficient ordnance and without the modern combat 
systems and sensors and networks required to win. Ultimately, 
this means more ships and aircraft out of action, more sailors, 
marines, and merchant marines killed.
    As we look to the future, the Navy will continue to be 
globally deployed to provide a credible and survivable 
strategic deterrent and to support the mission requirements of 
the regional combatant commanders. The Navy is fundamentally 
multi-mission and will rapidly adjust to meet new challenges 
that might require U.S. presence and the--and projecting power.
    Our Navy will continue to ensure the security of the 
maritime domain by sustaining its forward presence, warfighting 
focus, and readiness preparations. Since there is no 
foreseeable reduction to global maritime requirements, we have 
focused our fiscal year Navy budget to address the challenges 
to achieving the necessary readiness to execute our missions. 
Any funding below this submission requires a revision of the 
defense strategy. To put it simply, sequestration will gravely 
damage the national security of this country. Despite these 
future challenges, we are fortunate to have the highest 
quality, the most diverse force in my Navy's history. These 
outstanding men and women who serve our Nation at sea make us 
the finest navy in the world.
    So, on behalf of all our Active and Reserve sailors, our 
civilians, and their families, I extend our appreciation to 
this committee for your efforts and continued support to keep 
our Navy ready to defend this Nation.
    Thank you.
    [The prepared statement of Admiral Howard follows:]

   Prepared Statement of Admiral Michelle Howard Vice Chief of Naval 
                      Operations on Navy Readiness
    Chairman Ayotte, Senator Kaine, and distinguished members of the 
Senate Armed Services Subcommittee on Readiness and Management Support, 
I appreciate the opportunity to testify on the current state of Navy 
readiness and the resources necessary to provide a ready Navy in the 
future as described in our Fiscal Year 2016 budget request. As we meet, 
the Navy and our sister Services have entered a third year of fiscal 
uncertainty. In addition, new threats to our nation's interests are 
emerging and old tensions are surfacing. Today, it is my honor to 
represent all our active and reserve Sailors, particularly the 41,000 
Sailors who are underway on ships and submarines or deployed in 
expeditionary roles overseas today. They are standing the watch and are 
ready to meet today's security challenges. American citizens can take 
great pride in the daily contributions of their sons and daughters who 
serve in Navy units around the world. We are where it matters, when it 
matters, ensuring the security that underpins the global economy and 
responding to crises.
    Last August, the George H.W. Bush carrier strike group, already 
forward present in the North Arabian Sea quickly relocated to the North 
Arabian Gulf. Flying 20-30 combat sorties per day, this Navy-Marine 
Corps strike fighter team was the only coalition strike option to 
project power against the Islamic State of Iraq and the Levant (ISIL) 
from the skies over Iraq and Syria for 54 days. Similarly, USS Truxton 
(DDG-103) arrived in the Black Sea to establish U.S. presence and to 
reassure allies a week after Russia invaded Crimea. In the Java Sea, 
USS Fort Worth (LCS-3), a littoral combat ship, and USS Sampson (DDG-
102), a destroyer, were among the first to support the Indonesian-led 
search effort for Air Asia Flight 8501. This forward presence is 
possible because Navy planning and budget decisions continue to be 
guided by the three tenets the Chief of Naval Operations (CNO) 
established when he first took office: Warfighting First, Operate 
Forward, and Be Ready. Each of these tenets helps drive a strong focus 
on readiness--both now and in the future.
    Actions of Congress helped stabilize readiness by supporting 
increases over sequestered funding levels through the Bipartisan Budget 
Act of 2013, and the subsequent authorization and appropriations acts 
for fiscal year 2014 and this year. Nonetheless, we have not yet 
recovered from the readiness impact of over a decade of combat 
operations, exacerbated by the imposition of a lengthy Continuing 
Resolution and followed by budget sequestration in fiscal year 2013, 
just as we were beginning to reset the force. These circumstances 
created maintenance backlogs that have prevented us from getting ships 
back to the Fleet on time and aircraft back on the flight line. We 
continue our efforts to rebuild the workforce in our public depots--
both shipyards and aviation readiness centers--and reduce the number of 
lost operational days, but it will take years to dig out of a readiness 
hole.
    The fiscal year 2016 Navy budget submission is designed to continue 
our readiness recovery, restoring our required contingency operations 
capacity by 2018-2020 while continuing to provide a sustainable forward 
presence. PB-16 is the minimum funding required to execute the nation's 
Defense Strategy, though we still carry risks in two important mission 
areas, notably when confronted with a technologically advanced 
adversary or when forced to deny the objective of an opportunistic 
aggressor in a second region while already engaged in a major 
contingency. As the CNO stated in his recent testimony to the full 
committee, risk in our ability to Deter and Defeat Aggression and 
Project Power Despite Anti-Access/Area Denial (A2/AD) Challenges mean 
``longer timelines to win, more ships and aircraft out of action in 
battle, more Sailors, Marines, and Merchant Mariners killed, and less 
credibility to deter adversaries and assure allies in the future.'' 
That level of risk arises from capacity and readiness challenges as 
well as slower delivery of critical capabilities to the Fleet, 
particularly in air and missile defense and overall ordnance capacity.
    My testimony today will focus on the current readiness of the Navy, 
and our plan, supported by our fiscal year 2016 budget submission, to 
meet the challenges to delivering future readiness. If we return to a 
sequestered budget in fiscal year 2016, we will not be able to execute 
the Defense Strategy as it is conveyed in the 2014 Quadrennial Defense 
Review and a revision will be required.
                 current navy operations and readiness
    Employing a combination of Forward Deployed Naval Force ships 
homeported overseas and rotationally deploying units from CONUS, our 
Navy sustains a global presence of about 100 ships and submarines. 
Their combat power and other capabilities include the contributions of 
embarked Carrier Air Wings or other aviation units, Marine 
Expeditionary Units or elements of a Special Purpose Marine Air/Ground 
Task Force, Coast Guard detachments, and Special Operations units, 
among others. These capabilities are further enhanced by land-based or 
expeditionary Navy forces in theater. With additional ships training in 
home waters, approximately half the battle force is underway or 
deployed on any given day.
    Every hour of every day around the globe we are executing missions. 
The sun never sets on the U.S. Navy. Ballistic Missile Submarines 
sustain the most survivable leg of our nation's nuclear triad. Carrier 
Strike Groups (CSGs), Amphibious Ready Groups (ARGs) and attack 
submarines (SSNs) conduct named operations in support of the Combatant 
Commanders (COCOMs) or exercise with other nations to build the 
partnerships essential to the stability of the global system. Ballistic 
Missile Defense-capable Cruisers and Destroyers protect U.S. and allied 
sea and shore-based assets. Our units operate with other nations 
through exercises or through executing theater security cooperation 
plans; activities essential to the stability of the global system. As 
an example, last month, USS Fort Worth (LCS-3) practiced the Code for 
Unplanned Encounters at Sea (CUES) with the Chinese Navy, enhancing the 
professional maritime relationship between the U.S. Seventh Fleet and 
the People's Liberation Army-Navy [PLA(N)]. Our crews and platforms are 
trained and certified to execute their core capabilities across the 
spectrum of military operations and are ready to be re-tasked as 
required to meet the next challenge. This was the case in August 2014 
when the George HW Bush CSG relocated from the Arabian Sea to the North 
Arabian Gulf and was on station, ready for combat operations, in less 
than 30 hours. The Navy is fundamentally multi-mission and rapidly 
adjusts to meet new challenges that might require U.S. presence and 
power projection forces.
    Navy will continue to sustain the readiness of our deployed forces 
under our fiscal year 2016 budget submission, but it will require 
several years to fully recover the capability to rapidly respond to 
COCOM requirements for a major contingency. In addition to our forces 
that are globally deployed today, combined requirements include: three 
extra CSGs and three ARGs to deploy within 30 days to respond to a 
major crisis. However, on average, we have only been able to keep one 
CSG and one ARG in this readiness posture, 1/3 of the requirement. 
Assuming the best case of an on-time, sufficient, and stable budget 
with no major contingencies, we should be able to recover from 
accumulated backlogs by 2018 for CSGs and 2020 for ARGs--five plus 
years after the first round of sequestration.
    Recovery of readiness also requires a commitment to protect the 
time required to properly maintain and modernize our capital-intensive 
force and to conduct full-spectrum training. Our updated force 
generation model--the Optimized Fleet Response Plan (OFRP)--is designed 
to meet this commitment as well as better align all elements that 
support readiness development. Achieving full readiness entails the 
restoration of required capacity to our public shipyards and aviation 
depots-primarily through hiring and workforce development. In addition 
to aviation depots backlogs, we must also overcome the challenges of 
extending the service life of our legacy F/A-18 Hornet aircraft to 
10,000 hours. Underlying our plan is the need to operate the battle 
force at a sustainable level over the long term. With this plan we 
recover our material readiness, keep faith with our Sailors and their 
Families by providing more predictability in the operations schedule, 
and control the pace of deployments.
Meeting Our Readiness Challenges
    The Navy fiscal year 2016 budget request continues to fully support 
the readiness of our deployed forces. The budget request sustains our 
credible and survivable sea-based strategic deterrent and with 
continued overseas contingency operations (OCO) funding meets the 
adjudicated requirements of the fiscal year 2016 Global Force 
Management Allocation Plan (GFMAP). This includes at least two CSGs and 
two ARGs, operating forward, fully mission-capable and certified for 
deployment. We continue to employ innovative approaches, including the 
use of new platforms like the Joint High Speed Vessel and the Mobile 
Landing Platform, to ensure the Navy/Marine Corps team continues to 
meet the security requirements of our nation, while providing the 
opportunity to reset and sustain the material condition of the force. 
Greater use of capable auxiliaries helps relieve pressure on our 
overstretched amphibious fleet.
Generating the Force
    Navy readiness is at its lowest point in many years. Budget 
reductions forced cuts to afloat and ashore operations, generated ship 
and aircraft maintenance backlogs, and compelled us to extend unit 
deployments. Since 2013, many ships have been on deployment for 8-10 
months or longer, exacting a cost on the resiliency of our people, 
sustainability of our equipment, and service life of our ships.
    Navy has managed force generation using the Fleet Response Plan 
(FRP) since it was adopted in 2003 and fully implemented in 2007. This 
cyclic process was designed to support readiness by synchronizing 
periodic deep maintenance and modernization with the Fleet training 
required to achieve GFMAP forward presence objectives and provide 
contingency response capacity. However, the continued employment of our 
contingency response units to generate increased presence over the past 
decade has not only increased maintenance requirements, it has also 
limited their availability to complete required maintenance and 
training. As with previous testimony of the last few years, this 
practice is unsustainable.
    In 2013 and 2014, for example, Naval forces provided six percent 
and five percent more forward presence, respectively, than allocated 
due to emergent operations and unanticipated contingencies. This 
unbudgeted employment amounted to greater than 2,200 days in theater 
over that approved on the global force management plan in 2013 and 
greater than 1,800 days in theater over in 2014. We should operate the 
Fleet at sustainable presence levels in order for the Navy to meet 
requirements, while still maintaining material readiness, giving ships 
time to modernize, and allowing them to reach their expected service 
lives.
    This year, Navy began implementation of the Optimized Fleet 
Response Plan (OFRP) to address these challenges. Designed to stabilize 
maintenance schedules and provide sufficient time to maintain and train 
the force while continuing to meet operational commitments, OFRP aligns 
supporting processes and resources to improve overall readiness. 
Furthermore, it provides a more stable and predictable schedule for our 
Sailors and their Families. We will continue OFRP implementation across 
the FYDP.
Ship Operations
    The baseline Ship Operations request for fiscal year 2016 provides 
an average of 45 underway steaming days per quarter for deployed ships 
and 20 days non-deployed, and would support the highest priority 
presence requirements of the Combatant Commanders to include global 
presence for two CSGs, two ARGs and an acceptable number of deployed 
submarines. With OCO, ship operations are funded at 58 steaming days 
deployed/24 days non-deployed. The requested funding will meet the full 
adjudicated fiscal year 2016 GFMAP ship presence requirement, support 
higher operational tempo for deployed forces and provide full operating 
funding for individual ship level maintenance and training.
Air Operations (Flying Hour Program)
    The Flying Hour Program (FHP) funds operations, intermediate and 
unit-level maintenance, and training for ten Navy carrier air wings, 
three Marine Corps air wings, Fleet Air Support aircraft, training 
squadrons, Reserve forces and various enabling activities. The fiscal 
year 2016 baseline program provides funding to build required levels of 
readiness for deployment and sustain the readiness of units that are 
deployed. Navy and Marine Corps aviation forces are intended to achieve 
an average T-2.5/T-2.0 USN/USMC training readiness requirement with the 
exception of non-deployed F/A-18 (A-D) squadrons. Because of shortfalls 
in available aircraft due to depot throughput issues, these squadrons 
are funded at the maximum executable level while non-deployed, 
resulting in an overall readiness average of T-2.8/2.4. All squadrons 
deploy meeting theT-2.0 readiness requirement and OCO provides for 
additional deployed operating tempo above baseline funding.
Spares
    The replenishment of existing, ``off the shelf'' spares used in 
ship and aircraft maintenance is funded through the Ship Operations and 
Flying Hour Programs. With OCO, those programs are fully funded in 
PB16. The provision of initial and outfitting spares for new platforms, 
systems and modifications is funded through the spares accounts. 
Traditionally, these accounts have been funded below the requirement 
due to limited funding or past execution issues. Due to the ultimate 
impact on readiness, PB16 sustains executable funding levels to reduce 
cross-decking and cannibalization of parts driven by large backlogs. 
This is complemented by Navy-wide efforts to improve execution of these 
accounts, which have shown considerable success in aviation spares over 
the last two years, and continues to be a focus area.
Readiness Investments Required to Sustain the Force--Ship and Aircraft 
        Maintenance
    The Navy maintenance budget requests are built upon proven 
sustainment models. They are focused on continuing our ongoing 
investment to improve material readiness of our surface combatants, and 
support the integration of new capabilities into naval aviation.
    The fiscal year 2016 baseline budget request funds 80 percent of 
the ship maintenance requirement across the force, addressing both 
depot and intermediate level maintenance for carriers, submarines and 
surface ships. OCO funding provides the remaining 20 percent of the 
full baseline requirement to continue reduction of the backlog of life-
cycle maintenance in our surface ships after years of high operational 
tempo and deferred maintenance. This year, the additional OCO for 
maintenance reset ($557M) includes funding for aircraft carriers (CVNs) 
as well to address increased wear and tear outside of the propulsion 
plant as a result of high operational demands. Since much of this work 
can only be accomplished in drydock, maintenance reset must continue 
across the FYDP.
    To address the increased workload in our public shipyards and 
improve on-time delivery of ships and submarines back to the Fleet, the 
fiscal year 2016 budget grows the shipyard workforce, reaching a high 
of 33,500 personnel in fiscal year 2017, with additional investment in 
workforce training and development. One attack submarine (SSN) 
availability is moved to the private sector in fiscal year 2016 with 
plans for two additional SSN availabilities in the private sector in 
fiscal year 2017 to mitigate total workload. The fiscal year 2016 
budget includes $89.5M in MILCON projects and $142M in restoration and 
modernization projects for Naval Shipyards in fiscal year 2016, for a 
total capital investment of 8.7 percent in these important facilities.
    The Fleet Readiness Centers (FRCs), Navy's aviation depots, have 
been challenged to recover full productivity after hiring freezes, 
furlough, and overtime restrictions in fiscal year 2013. They face a 
growing workload, particularly for the additional service life 
extension of our legacy
    F/A-18 Hornets. FRCs are aggressively hiring with a goal of 
reaching full capacity by the end of this year. The hiring of 
additional engineering support to address new repairs required to reach 
10,000 hours of service life, reallocation of some of the workforce, 
and contracting for private sector support have all been undertaken to 
complete existing work-in-process at the FRCs, particularly for legacy 
Hornets. Field teams have been increased to improve flight line 
maintenance and understanding of the material condition of airframes 
coming to the depots. As new repairs and parts are identified and 
approved, kits are developed to ensure long-lead parts are readily 
available.
    As a result of these challenges, the Aviation Depot Maintenance 
program is funded to an executable level of 77 percent in baseline, 83 
percent with OCO for new work to be inducted in fiscal year 2016. This 
funding level supports a total of 564 airframes and 1,834 engines/
engine modules to be repaired.
Navy Expeditionary Combat Forces
    Navy expeditionary combat forces support ongoing combat operations 
and enduring Combatant Commander requirements by deploying maritime 
security, construction, explosive ordnance disposal, logistics and 
intelligence units to execute missions across the full spectrum of 
naval, joint and combined operations. In fiscal year 2016, baseline 
funding is improved significantly over prior years, providing 80 
percent of the enduring requirement, with OCO supporting an additional 
15 percent of the requirement.
Readiness Investments Required to Sustain the Force--Shore 
        Infrastructure
    The Navy's shore infrastructure, both in the United States and 
overseas, provides essential support to our Fleet. In addition to 
supporting operational and combat readiness, it is also a critical 
element in the quality of life and quality of work for our Sailors, 
Navy Civilians, and their Families. As we have done for several years, 
we continue to take risk in the long-term viability of our shore 
infrastructure to sustain Fleet readiness under the current funding 
level. However, in fiscal year 2016 our facilities sustainment is 
improved to 84 percent of the OSD Facilities Sustainment Model versus 
70 percent this year. When restoring and modernizing our 
infrastructure, we intend to prioritize life/safety issues and 
efficiency improvements to existing infrastructure and focus on 
repairing only the key components of our mission critical facilities. 
Lessor critical projects will remain deferred. Overall, the Department 
of the Navy will exceed the mandated capital investment of 6 percent 
across all shipyards and depots described in 10 USC 2476 with a 7.4 
percent total investment in fiscal year 2016. With the support provided 
by the Congress, Navy is on track to exceed the minimum investment in 
fiscal year 2015 as well.
Looking Ahead
    As we look to the future, the Navy will continue to be globally 
deployed to provide a credible and survivable strategic deterrent and 
to support the mission requirements of the regional Combatant 
Commanders. Global operations continue to assume an increasingly 
maritime focus, and our Navy will sustain its forward presence, 
warfighting focus, and readiness preparations to continue operating 
where it matters, when it matters. We see no future reduction of these 
requirements and we have focused the fiscal year 2016 Navy budget 
submission to address the challenges to achieving the necessary 
readiness to execute our missions. Any funding below this submission 
requires a revision of America's defense strategy. Sequestration would 
outright damage the national security of this country.
    In closing, we should recall that our Sailors are the most 
important element of the future readiness of the Navy. Fortunately, 
they are the highest quality, most diverse force in our history and 
continue to make us the finest Navy in the world. As the CNO says, 
``They are our asymmetric advantage.'' On behalf of all our Sailors 
(active and reserve), Civilians and their Families let me reiterate our 
appreciation for the continued support of the members of the committee.

    Senator Ayotte. Thank you, Admiral Howard.
    I would like to now receive testimony from General Paxton, 
the Assistant Commandant of the United States Marine Corps.
    Thank you, General Paxton.

   STATEMENT OF GENERAL JOHN M. PAXTON, JR., USMC, ASSISTANT 
             COMMANDANT, UNITED STATES MARINE CORPS

    General Paxton. Thank you, Chairman Ayotte, Ranking Member 
Kaine, Senator Rounds, and distinguished members of the 
Readiness Subcommittee. I appreciate the opportunity to appear 
before you today and to report on the readiness of your United 
States Marine Corps.
    Today, as always, your Marine Corps is committed to 
remaining our Nation's ready force, a force that's truly 
capable of responding to a crisis anywhere around the globe at 
a moment's notice. I know that this committee and the American 
people have high expectations of your marines. You expect your 
marines to operate forward, to stay engaged with our partners, 
to deter potential adversaries, and to respond to crises. When 
we fight, you expect us to always win. You expect a lot of your 
marines. You should.
    As we gather today, more than 31,000 marines are forward 
deployed and engaged, doing just what you expect and we expect 
them to be doing. Our role as the Nation's ready force 
continues to inform how we man, train, and equip the Marine 
Corps. It also prioritizes the allocation of resources which we 
receive from Congress. I can assure you that your forward-
deployed marines are well trained, well led, and well equipped.
    In fact, our readiness was proven last year, as your Marine 
Corps supported recent evacuations of United States citizens in 
South Sudan and then Libya and then Yemen. Those ready forces 
are also currently engaged in the Middle East, conducting 
strikes against Syria and Iraq, training Iraqi army units, and 
protecting our Embassy in Baghdad. They also routinely deploy 
and exercise across the Asia-Pacific region, where over 21,000 
are west of the International Dateline.
    These events demonstrate the reality and the necessity of 
maintaining a combat-ready force that's capable of handling 
today's crisis today. Such an investment is essential to 
maintaining our Nation's security and the prosperity for the 
future.
    We will work hard with you in order to maintain the 
readiness of our forward-deployed forces. While we do that, we 
have not sufficiently invested in our home-station readiness 
and in our next-to-deploy forces. We have also underfunded or 
delayed the full funding for our modernization, for our 
infrastructure sustainment, and some of our quality-of-life 
programs. As a result, approximately half of our non-deployed 
units are suffering personnel, equipment, or training 
shortfalls. Ultimately, this has created an imbalance in our 
institutional readiness. At the foundation of our readiness, we 
emphasize that all marines and all marine units are physically 
and mentally ready, are fully equipped, and have sufficient 
time to train with quality small-unit leaders at the helm. They 
are, thus, ready to move out whenever they're called.
    As we continue to face the possibility of full 
implementation of the Budget Control Act (BCA), our future 
capacity for crisis response, as well as our capacity for major 
contingency response, is likely to be significantly reduced. 
Quite simply, if our home-station units are not ready due to a 
lack of training, a lack of equipment or manning, it could mean 
a delayed response to resolve a contingency or to execute an 
operational plan, both of which would create unacceptable risk 
for our national defense strategy as well as risk to the limits 
of mission accomplishment or the physical risk to the force, 
itself.
    The readiness challenge we already see today provide 
context for our messages this morning. Your United States 
Marine Corps can, indeed, meet the requirements of the defense 
strategic guidance with the President's Budget, but, 
unfortunately, there is no margin. As our chairman stated, even 
under PB-16, we are already at the ragged lower edge for 
readiness.
    I thank each of you for your faithfulness to our Nation, 
for your support of the Department and all four of our 
services.
    I request that my written testimony be accepted for the 
record.
    I thank you for the opportunity to appear before you this 
afternoon, and I look forward to your questions.
    Thank you.
    [The prepared statement of General Paxton follows:]

 Prepared Statement of General John Paxton Assistant Commandant United 
                          States Marine Corps
    General Paxton was promoted to General and assumed the duties of 
Assistant Commandant of the Marine Corps on December 15, 2012. A native 
of Pennsylvania, he graduated from Cornell University with a Bachelor 
and Master of Science in Civil Engineering and was commissioned through 
Officer Candidate School in 1974.
    General Paxton's assignments in the operating forces include Rifle 
and Weapons Platoon Commander and Company Executive Officer, Co. B, 1st 
Battalion, 3d Marines; Training Officer, 4th Marine Regiment; Executive 
Officer, Co. G, 2d Battalion, 4th Marines; Company Commander, Co. L and 
Operations Officer, 3d Battalion, 5th Marines; GCE Operations Officer, 
II MEF, and Assistant Chief of Staff, G-3, 1st Marine Division. He 
commanded the 1st Battalion, gth Marines in support of operations in 
Bosnia and Somalia and later the 1st Marine Regiment.
    Other assignments include Company Commander, Co. B, Marine Barracks 
Washington and Commanding Officer of Marine Corps Recruiting Station 
New York. He served as a Plans Division Officer, Plans, Policies and 
Operations, HQMC; the Executive Assistant to the Undersecretary of the 
Navy; and Amphibious Operations Officer/Crisis Action Team Executive 
Officer, Combined Forces Command, Republic of Korea.
    As a general officer, he has served as the Director, Programs 
Division,Programs and Resources, HQMC; the Commanding General of Marine 
Corps Recruit Depot San Diego/Western Recruiting Region; Commanding 
General,1st Marine Division; Chief of Staff, Multi-National Forces-- 
Iraq; Director for Operations, J-3, The Joint Staff; and Commanding 
General, II Marine Expeditionary Force and Commander Marine Forces 
Africa. Most recently he served as the Commander, Marine Corps Forces 
Command; Commanding General, Fleet Marine Force Atlantic; and 
Commander, Marine Forces Europe.
    General Paxton is a graduate of the U.S. Army Infantry Officer 
Advanced Course and Marine Corps Command and Staff College. He has also 
served as a Commandant's Fellow at the Brookings Institute as well as 
at the Council on Foreign Relations.
Introduction
    Chairman Ayotte, Ranking Member Kaine, and distinguished members of 
the Senate Armed Services Subcommittee on Readiness: I appreciate the 
opportunity to testify on the current state of readiness in your Marine 
Corps and on our Fiscal Year 2016 budget request. We greatly appreciate 
the continued support of Congress and of this subcommittee in ensuring 
our ability to remain the Nation's ready force.
    Since 1775 the Marine Corps, has been our nation's Crisis Response 
force. This was mandated by our 82nd Congress. Continuing to fulfill 
this role remains our top priority. Balanced air-ground-logistics 
forces that are forward-deployed, forward-engaged, and postured to 
shape events, manage instability, project influence, and immediately 
respond to crises around the globe are what we provide. Marine forces 
remain expeditionary and are partnered with the Navy, coming from the 
sea, operating ashore, and providing the time and decision space 
necessary for our National Command Authority. Ultimately, our role as 
America's 9-1-1 force informs how we man, train, and equip our force 
both for today and into the future.
    This past year has demonstrated that the Marine Corps must be ready 
to respond, fight, and win more than just the last war. In 2014 the 
performance of your Marine Corps underscored the fact that 
responsiveness and versatility are in high demand today and that fact 
can be expected in the future.
                 your marines--operationally responsive
OEF--Afghanistan
    In 2014, Marine Expeditionary Brigade-Afghanistan (MEB-A) concluded 
six years of sustained Marine Air-Ground Task Force (MAGTF) operations 
in Afghanistan. Operations there focused on ensuring the success of the 
Afghanistan presidential elections in the summer of 2014 and 
transitioning security responsibilities to the Afghanistan National 
Defense Security Forces (ANDSF). With Marines serving in an advisory 
capacity, the ANSF in Helmand Province held control of all district 
centers.
    Regional Command (SW) also turned over operational responsibilities 
to the
    International Security Assistance Force Joint Command (IJC). Today, 
a residual Marine presence of several hundred continues to support the 
Resolute Support Mission (NATO)/OPERATION FREEDOM'S SENTINEL (US) in 
Afghanistan.
Special Purpose Marine Air Ground Task Force--Crisis Response (SPMAGTF-
        CR) Operations
    While not as independent, flexible and responsive as our Marine 
Expeditionary Units (MEU) embarked and underway aboard Amphibious Ready 
Groups (ARG), two SPMAGTF-CRs are filling crisis response critical 
capability gaps for the combatant commanders in AFRICOM and CENTCOM. 
This past year SPMAGTF-CR units assigned to AFRICOM positioned forward 
in Moron, Spain and Signonella, Italy safeguarded the lives of our 
diplomatic personnel and conducted military-assisted departures from 
the U.S. Embassy in South Sudan in January and our Embassy in Libya in 
July 14.
    The Marine Corps SPMAGTF-CR unit assigned to CENTCOM (SPMAGTF-CR-
CC) became fully operational on 1 November 2014 and deployed to the 
CENTCOM AOR. Since that time, SPMAGTF-CR-CC conducted embassy 
reinforcement, Theater Security Cooperation (TSC) exercises, and 
provided critical aviation and ground capabilities in the fight against 
ISIL. Most recently, Marines from SPMAGTF-CR-CC supported the 
evacuation of our Embassy in Sana'a, Yemen in February of this year.
Current Operations
    Today, there are over 31,000 Marines forward deployed, conducting a 
full range of theater security and crisis response missions. Marines 
are currently conducting security cooperation activities in 29 
countries around the globe. Over 22,000 Marines are west of the 
international dateline in the Pacific building partnership capacity, 
strengthening alliances, deterring aggression, and preparing for any 
contingency. Your Marines serving today in the operating forces are 
either deployed, getting ready to deploy, or have recently returned 
from deployment. Our operational tempo since September 11, 2001 has 
been high and remains high today. We expect this trend to continue.
                         institutional balance
    The Marine Corps is committed to remaining the Nation's ready 
force, a force truly capable of responding to a crisis anywhere around 
the globe at a moment's notice. Thus, the American people and this 
Congress have rightly come to expect the Marine Corps to do what must 
be done in ``any clime and place'' and under any conditions. As our 
36th Commandant recently published in his Commandant's Planning 
Guidance (CPG), ``you expect us to respond quickly and win always.''
    This obligation requires the Marine Corps to maintain a high state 
of combat readiness at all times. Readiness is the critical measure of 
our Marine Corps' capacity to respond with required capability and 
leadership. We look at readiness through the lens of our five 
institutional pillars of readiness--high quality people, unit 
readiness, capacity to meet the combatant commanders' requirements, 
infrastructure sustainment, and equipment modernization. These pillars 
represent the operational and foundational components of readiness 
across the Marine Corps. We know we are ready when leaders confirm that 
their units are well trained, well led at all levels, and can respond 
quickly to the unforeseen. This capability helps to minimize 
operational risk and provides our national leaders the time and space 
to make reasoned decisions.
    While we will always ensure that our forward deployed Marines and 
Sailors are properly manned, trained, and equipped, we must seek a 
balanced investment across the pillars to simultaneously ensure current 
as well as future (i.e. next to deploy) readiness. At the foundation of 
this readiness, we emphasize that all Marines and all Marine units 
(i.e. from home station) are physically and mentally ready, are fully 
equipped, and have sufficient time with quality small unit leaders in 
place to move and train whenever called upon.
    We also fully appreciate that our readiness and institutional 
balance today, and the ability to maintain it in the future, are 
directly related to today's fiscal realities. During these fiscally 
constrained times, we must remain focused on the allocation of 
resources to ensure the holistic readiness of the institution (i.e. 
training, education, infrastructure and modernization), making every 
dollar count when and where it is needed most.
    As the Marine Corps looks to achieve balance across the five 
pillars of readiness after thirteen years of uninterrupted war, our 
efforts have been frustrated by two clearly tenuous variables. First, 
the continued high operational tempo of, and high demand for, Marine 
forces, and second, the continued budget uncertainty surrounding annual 
appropriations (i.e. sequestration and impacts). Both of these 
variables have been keenly and repeatedly felt throughout the Marine 
Corps all this year as we have protected near-term readiness at the 
expense of our long-term modernization and of our infrastructure 
investments. This reality has forced the Marine Corps' to make the hard 
choice to underfund, reduce or delay funding, which threatens our 
future readiness and responsiveness.
    As America's 9-1-1 force, your Corps is required to maintain an 
institutional capability, an operational balance, and an expeditionary 
mindset that facilitates our ability to deploy ready forces tonight. 
However, as we continue to face the possibility of sequestration-level 
funding for FY 2016, we may well be forced into adopting some short 
term or limited scope and scale variations for future unexpected 
deployments over the next few years. This means quite simply, that we 
will see increased risk in timely response to crises, in properly 
training and equipping our Marines to respond, and in their overall 
readiness to respond. By responding later with less and being less 
trained we may eventually expect to see an increase in casualties.
Readiness and the Capacity to Respond
    With the support of Congress, the Marine Corps is committed to 
remaining ready and continuing the tradition of innovation, adaptation, 
and winning our Nation's battles. The challenges of the future 
operating environment will demand that our Nation maintain a force-in-
readiness that is capable of true global response. America's 
responsibility as a world leader requires an approach to the current 
and future strategic landscape that leverages the forward presence of 
our military forces in support of our diplomatic and economic elements 
of power.
    As stated in the 2012 President's Defense Strategic Guidance, ``The 
United States will continue to lead global efforts with capable allies 
and partners to assure access to and use of the global commons, both by 
strengthening international norms of responsible behavior and by 
maintaining relevant and interoperable military capabilities.'' High-
yield, relatively low-investment Marine Corps capabilities (ready and 
responsive air-ground-logistics forces) uniquely support this strategic 
approach.
                           current readiness
    Maintaining the readiness of our forward deployed forces during a 
period of high operational tempo while amidst fiscal uncertainty; as 
well as fiscal decline, comes with ever increasing operational and 
programmatic risk. Today, approximately half of the Marine Corps' home-
station units are at an unacceptable level ofreadiness in their ability 
to execute wartime missions, respond to unexpected crises, and surge 
for major contingencies. Furthermore, the ability of non-deployed units 
to conduct full spectrum operations continues to degrade as home-
station personnel and equipment are sourced to protect and project the 
readiness of deployed and next-to-deploy units. As the Nation's first 
responders, the Marine Corps' home-stationed units are expected to be 
at or near the same high state of readiness as our deployed units, 
since these non-deployed units will provide the capacity to respond 
with the capability required (leadership and training) in the event of 
unexpected crises and or major contingencies.
    Despite this challenge and imbalance, the Marine Corps continues to 
provide units ready and responsive to meet core and assigned missions 
in support of all directed current operational, crisis, and contingency 
requirements. However, we continue to assume long-term risk 
particularly in supporting major contingencies in order to fund unit 
readiness in the near term. Consequently, the Marine Corps' future 
capacity for crisis response and major contingency response is likely 
to be significantly reduced. Quite simply, if those units are not ready 
due to a lack of training, equipment or manning, it could mean a 
delayed response to resolve a contingency or to execute an operational 
plan, both of which create unacceptable risk for our national defense 
strategy as well as risk to mission accomplishment and to the whole-of-
force itself. The following sections elaborate on some specific 
readiness challenges the Corps is facing today.
      current challenges to readiness and the capacitv to respond
    As the Nation's first responders, we firmly believe that the Marine 
Corps as a service, and in its entirety, is expected to be always in a 
high state of readiness. Today however, there are numerous challenges 
that have created a readiness imbalance, affecting our capacity to 
respond to future challenges with the required capability and 
leadership. For example, our home station unit's ability to train is 
challenged. Time is the essential component required to fix worn 
equipment and to train units to standard. A lower end-strength and 
unwavering and high unit deployment to dwell (D2D) ratios exacerbate 
time at home stations to prepare, train, and maintain. This, coupled 
with temporary shortages of personnel and equipment at the unit level, 
validate operational requirements that exceed resource availability, 
and a growing paucity of amphibious platforms on which to train, all 
contribute to degraded full-spectrum capabilities across the entire 
Service. As an example, a D2D ratio of 1:2 means your Marines are 
deploying for 7 months and home for 14 months before deploying again. 
During that 14-month ``dwell,'' units are affected by personnel changes 
and gaps (duty station rotations, schooling, and maintenance), ship 
availability shortfalls and growing maintenance requirements, equipment 
reset requirements (service life extensions and upgrades), degraded 
supply storages, training schedule challenges (older ranges and 
equipment, and weather) and more. These collective challenges factor 
into every unit's compressed and stressing task to remain constantly 
ready. In some case, the D2D ratio is even lower than 1:2 (MV-22 
squadrons, Combat Engineer units, and F/A-18 squadrons), placing 
considerable stress on high demand, low density units and equipment. 
Also concerning is the inability to assess the long-term health of the 
force at lower D2D ratios and the impact on overall force retention. 
Quite simply, despite OIF and OEF being ``over,'' the unstable world 
and ``New Normal'' is causing your Corps to continue to ``run hot.'' As 
referenced earlier, just over half of Marine Corps home-stationed units 
are at unacceptable levels of readiness. For example, Marine Aviation 
contains some of our most stressed units. As operational commitments 
remain relatively steady, the overall number of Marine aircraft 
available for tasking and or training has decreased since 2003. At that 
time Marine Aviation contained 58 active component squadrons and 12 
reserve component squadrons for a total of 70 squadrons.
    The Marine Corps has 55 active component squadrons today, three of 
which (2 VMM, and lVMFA) are in transition. Of the 52 remaining 
squadrons, 33 percent are deployed and 17 percent are in pre-deployment 
workups to deploy. Our minimum readiness goal to deploy is T-2.0, which 
is simply the cut line between a squadron trained to accomplish its 
core mission and a squadron that is not. To attain a T-2.0 rating, a 
squadron must be qualified to perform at least 70 percent of its 
Mission Essential Tasks (METs) (i.e. tasks required to accomplish the 
multiple missions that are or may be assigned to a unit). Currently, 
our deployed squadrons and detachments remain well trained and properly 
resourced, averaging T-2.17. Next-to-deploy units are often unable to 
achieve the minimum goal of T-2.0 until just prior to deployment. Non-
deployed squadrons experience significant and unhealthy resource 
challenges, which manifest in training and readiness degradation, 
averaging T-2.96.
    The Marine Corps is actively and deliberately applying resources to 
maintain the readiness of deployed and next-to-deploy units. Our focus 
is to continue to meet all current requirements, while addressing the 
personnel, equipment, and training challenges across the remainder of 
the force. We are in the midst of a comprehensive review of our manning 
and readiness reporting systems and will develop a detailed plan to 
enhance our overall readiness during 2015.
    We are also committed to meet the growing expeditionary 
requirements of our combatant commanders (COCOMs). To meet COCOM 
requirements, the Marine Corps will be required to sustain a D2D ratio 
in the active component force of 1:2 vice a more stable, and time 
proven, D2D ratio of 1:3. The Marine Corps also has some high demand/
low density units that maintain a current D2D ratio of less than 1:2, 
such as the (VMGR/KC-130) community. These communities are closely 
monitored for training, maintenance, and deployment readiness as well 
as deployment frequency. The Marine Corps will continue to provide 
ready forces to meet COCOM demands, but we are carefully assessing the 
impact of reduced D2D ratios on our training and quality of life across 
all units and occupational fields. What we do know is that the optimal 
size of your Marine Corps to meet the requirements of the Defense 
Strategic Guidance is 186,800 Marines. This optimal size gives the 
Marine Corps the capacity we need to meet current operational 
requirements demand with a D2D ratio closer to 1:3 which supports time 
for home station units to train and maintain. We continue to validate 
and support this assessment. Today, due to fiscal realities, the Marine 
Corps is adjusting its active duty end-strength to reach 182,000 
Marines by 2017. As we continue to downsize, we must emphasize the 
enduring national mission requirement to provide forces that can always 
meet today's crisis response demands.
    Another significant readiness challenge is the growing gap in the 
numbers of small unit leaders with the right grade, experience, 
technical skills and leadership qualifications associated with their 
billets. Specifically, our current inventory of Non-Commissioned 
Officers (NCOs) and Staff Non-Commissioned Officers (SNCOs) is not 
meeting our force structure requirements. The technical, tactical, and 
leadership demands on our NCOs and SNCOs has grown during 13 years of 
OIF and OEF. These Marine combat leaders have proven their mettle. We 
remain committed to fully and properly training them and their 
successors for the rigors of an unstable world with disaggregated 
operations against an asymmetric enemy in a distant and hostile 
environment. This dynamic directly affects our current and future 
training, maintenance, and discipline. We must train and retain 
adequate numbers of SNCOs and NCOs to preclude degraded crisis response 
readiness and ensure combat effectiveness. The Marine Corps' PB16 
military budget funds a fiscal year 2016 end-strength of 184,000 in our 
base budget and supports right-sizing our NCO ranks to provide our 
Marines the small unit leadership they deserve and which our Corps and 
nation need.
                       naval expeditionary force
    We share a rich heritage and maintain a strong partnership with the 
United States Navy. Sea-based and forward deployed naval forces provide 
the day-to-day engagement, crisis response, and assured access for the 
joint force in a contingency. The availability of amphibious shipping 
is paramount to both our readiness and to our overall ability to 
respond. The Marine Corps' requirement for amphibious warships to 
respond, for war plans, and for contingencies remains at 38 platforms. 
The Navy's inventory today is 31 total amphibious warships. When 
accounting for steady-state demands and for essential maintenance 
requirements we are seeing that far fewer platforms are readily 
available for employment. Simply put we have a serious inventory 
problem and a growing availability challenge.
    This is why the Marine Corps fully supports the Secretary of the 
Navy and Chief of Naval Operations' (CNO) efforts to increase the 
inventory and availability of amphibious platforms and surface 
connectors that facilitate our key concepts of operational maneuver 
from the sea (OMFTS) and ship-to-objective maneuver (STOM). The 
President's budget supports key investments in LPD-28, LX(R), and ship-
to-shore connectors (SSC), and demonstrates our commitment to global 
maritime presence and to our Nation's mandate to sustain an amphibious 
capability that can respond to, deter, deny, and defeat threats on a 
global scale. We appreciate Congress providing a substantial portion of 
funding to procure a 12th LPD, and respectfully request that this 
committee continue to support full funding of that amphibious ship. The 
enhanced mission profiles of these new, improved and much needed 
platforms create operational flexibility, extended geographical reach, 
and surge capabilities for all our COCOMs.
    Naval investments in alternative seabasing platforms expand access 
and reduce dependence on land bases, supporting national global 
strategic objectives and providing operational flexibility in an 
uncertain world. The naval seabasing investments in the Mobile Landing 
Platform (MLP), the Large Medium-Speed Roll-on/Roll-off (LMSR) 
strategic sealift ship, and the (T-AKE) Dry Cargo and Ammunition Ship 
as part of the Maritime Prepositioning Ship Squadrons (MPS), coupled 
with the Joint High Speed Vessel (JHSV), Afloat Forward Staging Base 
(AFSB) and ship-to-shore connectors provide additional lift, speed, and 
maneuver capability to augment, yet not necessarily replace or 
substitute for proven Navy and Marine Corps amphibious combat 
capabilities. Although never a substitute for amphibious warships, 
particularly in a contested environment, these alternative platforms 
will continually complement amphibious ships and can enhance national 
readiness and ability to answer COCOM non-combat demands.
    While the President's Budget moves us in the right direction, it 
will take many years and a sustained effort to address the serious risk 
in the current inventory and availability of amphibious ships. The 
Marine Corps will continue to work closely with the Navy and Congress 
to implement the 30 year ship building plan and to address the current 
amphibious availability and readiness challenges.
Building the Force of the Future
    As challenging as it has been to prepare Marines for the current 
fight, our force must adapt to the ever-changing character and conduct 
of warfare to remain ready, relevant, and responsive. Innovation and 
adaptability will be required to build the force of the future. For the 
last 14 years, the Marine Corps has applied a small but key percentage 
of our resources to providing Marines what tey need for today's fight. 
While individual Marines are our critical weapons system, we must 
outfit him with modem, reliable and useful gear and equipment. Because 
readiness remains our first priority in meeting our national security 
responsibility, our focus on an unrelenting demand for forces coupled 
with a declining budget has forced the Marine Corps to make difficult 
choices and to reduce investment in modernization in order to maintain 
current and near term readiness. We are consciously, by necessity, 
delaying needed modernization.
                         modernization efforts
    Our declining budget has forced the Marine Corps to make difficult 
choices at the expense of modernization to maintain current and near 
term readiness. In the current fiscal environment, the Marine Corps is 
investing only in essential modernization, focusing on those areas that 
underpin our core competencies. Today, we have placed much emphasis on 
new or replacement programs such as our Amphibious Combat Vehicle 
(ACV), a Joint Light Tactical Vehicle (JLTV), our CH-53K Heavy Lift 
Replacement, and the critical fifth generation F-35 Joint Strike 
Fighter (JSF). At the same time, our modernization resources are also 
necessarily focused on improving capabilities and extending the life of 
current systems in order to fill gaps that can be exploited by today's 
threats.
    In order to balance modernization across the capabilities of the 
MAGTF and ensure a ready and responsive force of the future, our two 
top priorities remain the ACV, to include science and technology 
efforts toward high-water speed capabilities, and the JSF, both of 
which provide the technology required to dominate our adversaries in 
the future. Additionally, our investments in Network On-the-Move 
(NOTM), Ground/Air Task Oriented Radar (G/ATOR), and other additional 
aviation platforms such as the MV-22, CH-53K, and UH-lY/AH-l Z programs 
are vital to the overall combat effectiveness and readiness of our 
future MAGTFs. We are also focused on and investing heavily in 
extending the service life and improving the interim capabilities of 
our legacy systems due to the time required to recapitalize needed 
capabilities while ensuring a smooth transition to future requirements.
    For example, the need for recapitalization of our 42-year old AAV 
is critical and the nation cannot afford to gap this capability. Rising 
annual maintenance costs for the AAV and other legacy systems compete 
for resources against modernization efforts that seek to replace them 
with modem combat capabilities (i.e. ACV). This required allocation of 
precious resources works against our other investment and 
recapitalization efforts. Additionally, for our legacy aircraft 
platforms, the focus is on modernization to make them relevant in 
tomorrow's fight while simultaneously providing a bridge to rearrange 
our aviation recapitalization efforts. Rapid procurement of these new 
systems is critical to solving both our serious current and future 
readiness problems.
    If we do not modernize, we will actually move backwards. Our 
adversaries continue to develop new capabilities exploiting any 
technology gaps associated with specific domains and functions. By 
under-resourcing equipment modernization we will ultimately fall 
behind. Increasing threats, the proliferation of A2/AD weapon systems, 
and the aging of key material capabilities present an unacceptable risk 
to forcible entry operations and our overall combat effectiveness if 
modernization continues to be diminished or halted.
    Modernization and innovation are more than just procurement 
programs. We will re-energize our MAGTF experimentation and test new 
tactics, techniques, procedures, equipment and concepts that will allow 
us to meet every challenge. We are maintaining our commitment to 
Science and Technology, and we continue to look for opportunities to 
expand our efforts in this critical area.
                concept development and experimentation
    The current and future operating environment will remain volatile, 
unpredictable, and complex. To continue to deliver order from the 
chaos, we anticipate no lessening in the demand for Marine capabilities 
ranging from Amphibious Ready Groups with enhanced Marine Expeditionary 
Units (ARG/MEUs) and Special Purpose MAGTFs for crisis response as well 
as for more Marine Security Guards at our embassies and consulates 
(MCESG). Trends point to greater security challenges to our vital 
national interests almost everywhere. Therefore, as our Nation meets 
these future challenges, it will rely heavily on the Marine Corps to 
remain the ready, relevant, and responsive force of first resort. While 
there will be a degree of consistency in our missions, there is likely 
to be inconsistency in the operating environment, and we must be 
willing to experiment, take risk, and implement change to overcome 
challenges in those varied operating environments (threat, access, 
communications, etc.). As was the case prior to World War II, the 
quality and focus of our concept development, our expansion of science 
and technology, the :frequency and significance of our exercises, and 
our constant experimentation efforts will remain critical to our 
overall readiness, relevance, and indeed our mission success. The end 
state of our efforts to link concepts and doctrine to exercises and 
experimentation will be to develop and nurture the intellectual energy 
and creativity of individual Marines and of units. This will enable the 
Marine Corps to continue to be a leader in both tactical and 
operational innovation.
    A year ago we published Expeditionary Force 21 (EF-21), our Marine 
Corps capstone concept. EF-21 establishes our vision and goals for the 
next 10 years and provides guidance for the design and development of 
the future force that will fight and win in the future environment. 
Expeditionary Force 21 will also inform decisions regarding how we will 
adjust our organizational structure to exploit the value of regionally 
focused forces and provide the basis for future Navy and Marine Corps 
capability development to meet the challenges of the 21st Century. 
Developed in close coordination with the recent update of our maritime 
strategy (i.e. Cooperative Strategy 21 (CS21)), Expeditionary Force 21 
describes how the Marine Corps will be postured, organized, trained, 
and equipped to fulfill the responsibilities and missions required 
around the world. This comprises four essential lines of effort: 
refining our organization, adjusting our forward posture, increasing 
our naval integration, and enhancing littoral maneuver capability.
                          all volunteer force
    Our Marines and civilians are the foundation of who we are and of 
all that we do. We succeed because of our focus on recruiting, 
training, and retaining quality people. People are the primary means 
through which the Marine Corps remains ready and responsive in 
guaranteeing the defense of our great Nation. The resources we dedicate 
to recruiting, retaining, and developing high quality people directly 
contribute to the success of our institution. Thus, our commitment to 
attract, train, and deploy with the best quality Marines must always 
remain at the forefront.
    Today, the Marine Corps does not have the proper level of personnel 
stability or cohesion in our non-deployed units. Having to move Marines 
between units to meet manning goals for approaching often accelerated 
or extended deployment cycles creates personnel turbulence, inhibits 
cohesion, and is not visible in our current readiness assessment tools. 
This personnel turbulence affects our combat readiness and our ability 
to optimally train, retain, and take care of Marines. Moving forward, 
we will improve cohesion by increasing our individual and unit 
preparedness across the force as well as emphasizing consistency of 
leadership and personnel stability across that same force.
Conclusion
    On behalf of the Marines and Sailors and their families, all of 
whom provide this Nation with its versatile and reliable force-in 
readiness, I thank Congress and this subcommittee for your continued 
interest in and recognition of our operational and fiscal challenges 
and our key contributions to national security. We are proud of our 
reputation for frugality and remaining one of the best values for the 
defense dollar. In these times of budget austerity, the Nation 
continues to hold high expectations of her Marine Corps, and our 
stewardship of taxpayer dollars. The Marine Corps will continue to 
answer the Nation's call to arms, meet the needs of the Combatant 
Commanders and others who depend upon our service, and operate forward 
as a strategically mobile force optimized for forward-presence and 
crisis response. Your continued support is requested to provide a 
balance across all five of our readiness pillars, so we can maintain 
our institutional readiness and our ability to remain responsive . . . 
as your predecessors wisely charged more than 60 years ago, ``to be the 
most ready when the nation is least ready.''

    Senator Ayotte. Thank you, General Paxton.
    We'll now receive testimony from General Spencer, who is 
the Vice Chief of Staff for the United States Air Force.
    Thank you, General Spencer.

  STATEMENT OF GENERAL LARRY O. SPENCER, USAF, VICE CHIEF OF 
                 STAFF, UNITED STATES AIR FORCE

    General Spencer. Thank you, Madam Chair, Ranking Member 
Kaine, and Senator Rounds, and distinguished members of the 
subcommittee. Thank you for your continued support of America's 
airmen and their families, and for the opportunity to share the 
Air Force's current readiness posture.
    The United States Air Force is the most globally engaged 
air force on the planet, and our airmen are defending the 
Nation through a wide spectrum of activities, from dropping 
bombs and flying space assets to delivering humanitarian relief 
and protecting the homeland. We remain the best air force in 
the world. But, recent budget cuts, coupled with 24 years of 
combat operations, has taken its toll.
    Our airmen, your airmen, have always been, and will always 
be, the cornerstone of the Air Force. Combatant commanders tell 
us that our airmen continue to perform exceptionally well 
across the globe. However, we are the smallest and oldest air 
force we have ever been, while demand for air power continues 
to grow. This is not a complaint. We're happy that what we 
bring to the table is recognized as indispensable when it comes 
to meeting the Nation's objectives. But, I am concerned. In 
fact, I'm more concerned than I--today than I was when I 
testified last year.
    We have tankers that are, on average, 52 years old; bombers 
that are over 50 years old; and fourth-generation fighters that 
are, on average, 25 years old. In 1991, if we had used the B-17 
bomber to strike targets in Baghdad during the first Gulf War, 
it would have been younger than the B-52, the KC-135, and the 
U-2 are today. We have to modernize to maintain our 
technological advantage, and this is something that we've set 
aside, the last few years. Our potential adversaries have been 
watching us and now know what it takes to create the best air 
force in the world. They are investing in technologies and 
doing everything they can to reduce our current airpower 
advantage.
    Because we have the smallest and oldest air force in 
history, we need all of our airmen to be proficient in every 
aspect of their mission. Unfortunately, our high operations 
tempo has caused our airmen to only be proficient in the jobs 
they perform when they deploy. We simply do not have the time 
and the resources to train airmen across the full range of Air 
Force missions. I'm confident that, with your help, we can 
reverse this trend and regain our readiness. But, we will have 
to make some difficult choices to balance capacity, capability, 
and readiness, all of which have already been cut to the bone.
    Our fiscal year 2016 President's Budget submission aims to 
balance critical operational training and modernization 
commitments, but, even at this level, it will take years to 
recover lost readiness. We have already delayed major 
modernization efforts, cut manpower, and reduced training 
dollars.
    One final point. The capability gap that separates us from 
other air forces is narrowing. That gap will close even faster 
under BCA levels of funding. When sequestration first hit in 
2013, we saw the domino effect it had on our pilots, 
maintainers, weapons loaders, air traffic controllers, and our 
fighters and bomber squadrons. Readiness levels of those 
central to combat operations plummeted. In short, we were not 
fully ready. We cannot afford to let that happen again.
    To quote a young C-17 instructor pilot, ``I am committed to 
defending this Nation anytime and anyplace, but I need the 
training and equipment to be ready to perform at my best.'' 
This is critical to answering the Nation's call to fly, fight, 
and win.
    I'd like to thank you all for the opportunity to be here 
today, and for your continued support of your Air Force. I'm 
now happy to take your questions.
    Thank you.
    [The prepared statement of General Spencer follows:]
Prepared Statement of General Larry O. Spencer, Vice Chief of Staff of 
                             the Air Force
Introduction
    The United States Air Force has never failed to meet any threat our 
Nation has faced and establish an environment that was beyond the 
capabilities of our enemies to resist. Our capabilities of range, 
speed, and agility give our Nation an indispensable and qualitative 
advantage that is unparalleled today and we must retain them going into 
the future. Whether it's opening an aerial port to deliver humanitarian 
aid, flying a single sortie from middle-America to the Korea peninsula 
and back to send a clear message, dropping a bomb, or dropping a 
Brigade Combat Team into the conflict zone--we can reach out and touch 
anyone, anytime, at any place, in a matter of hours, not days. Since 
1947, Americans have been able to sleep soundly knowing that in every 
corner of the globe, the United States Air Force is ready.
    Through technology, ingenuity, and unparalleled training and 
expertise the Air Force provides our Nation and allies more precise and 
effective options. But readiness requires the right number of Airmen, 
with the right equipment, trained to the right level, and with the 
right amount of support and resources, to accomplish what the Nation 
asks us to do. While Airmen have performed exceptionally well in major 
combat operations such as those in Iraq, and Afghanistan, these 
operations come at a price. Today, continual demand for airpower, 
coupled with dwindling and uncertain budgets, leave the force with 
insufficient time and resources to train Airmen across the full range 
of Air Force missions. Proficiency required for highly contested, non-
permissive environments has suffered, due to our necessary engagement 
in the current counterinsurgency fights.
    We recognize that there are no quick fixes. Even at the level of 
the President's Budget it will take the Air Force years to recover lost 
readiness. Our return to full-spectrum readiness must include the 
funding of critical programs such as flying hours, weapons system 
sustainment, and infrastructure, while also balancing deployment tempo, 
training, and exercises. We must also be technologically superior and 
agile enough to evolve ahead of the myriad of future potential threats.
    However, because of the current restrictive and uncertain fiscal 
environment we have been forced to make difficult choices within an 
incredibly complex security environment. Our current Service readiness 
and capacity are degraded to the point where our core capabilities are 
at risk. To correct this, the fiscal year 2016 President's Budget (FY16 
PB) preserves the minimum capability to sustain current warfighting 
efforts, and places the Air Force on a path toward balancing readiness 
with necessary modernization in order to meet evolving threats.
Readiness Today; Readiness Tomorrow
    The 2012 Defense Strategic Guidance (as updated by the 2014 
Quadrennial Defense Review) requires healthy and sustainable Air Force 
combat readiness, modernization and recapitalization programs. Since 
passage of the Budget Control Act, the Air Force has been forced to 
trade capacity in an attempt to preserve capability. We are now at the 
point where any further reduction in size equals a reduction in 
capability--the two are inextricably linked. Combatant commanders 
require Air Force support on a 24/7 basis, and the Air Force does not 
have excess capacity to trade away. If asked to accomplish multiple 
parts of the defense strategy, we will have to make difficult decisions 
on mission priorities and dilute coverage across the board. Unless we 
improve readiness levels, our full combat power will take longer to 
apply, will pull coverage from other areas, and will increase risk to 
our Joint and coalition forces.
    The FY16 PB is a step to alleviate some of that risk. It allows us 
to preserve our future readiness, including munitions inventories; 
protect our top three acquisitions programs; and protect investments 
such as the training aircraft system, cyber mission forces and the next 
generation of space systems. Our plan is to reduce risk in high-
priority areas by accelerating the modernization of aging fleets and 
improving our installations around the country. We are focused on 
capabilities, not platforms--preserving and enhancing the agility and 
flexibility of the Air Force.
Weapons System Sustainment
    Weapons system sustainment (WSS) is a key component of full-
spectrum readiness. Years of combat demands have taken a toll across 
many weapons systems. We continue to see an increase in the costs of 
WSS requirements. These costs are driven by factors such as the 
complexity of new systems, operations tempo, force structure changes, 
and growth in required depot-level maintenance on legacy aircraft.
    If sequestration-level funding returns, it will hamper our efforts 
to improve WSS. Depot delays will result in the grounding of some 
aircraft. It will mean idle production shops, a degradation of 
workforce proficiency and productivity, and corresponding future 
volatility and operational costs. Analysis shows it can take up to 
three years to recover full restoration of depot workforce productivity 
and proficiency. Historically, WSS funding requirements for combat-
ready forces increase at a rate double that of inflation planning 
factors. WSS costs still outpace inflationary growth, and in the 
current fiscal environment, our efforts to restore weapons systems to 
required levels will be a major challenge.
    The longer we fly our legacy aircraft, the more they will break and 
require increased preventative maintenance. We have tankers that are on 
average 52 years old, bombers that are over 50 years old, and fourth 
generation fighters that are an average of 25 years old. If we had kept 
WWII's B-17 bomber, and flown it in Operation Desert Storm 1991, it 
would have been younger than the B-52, the KC-135, and the U-2 are 
today. If we are not able to perform weapons system sustainment on our 
aircraft or modernize them so we can improve upon their speed, range, 
and survivability, we will lose our technological edge and superiority.
Flying Hours and Training
    Our flying hour program is essential to full-spectrum readiness. If 
sequestration is implemented, it will affect our ability to accomplish 
flying and training requirements and our ability to meet full-spectrum 
operations. Readiness is not just influenced by funding, but also 
ongoing operations. Time and resources used to conduct current 
operations limit opportunities to train across the full-spectrum of 
missions. For example, the operational and combat demands over the last 
decade have eroded our ability to train for missions involving anti-
access/area denial scenarios. To meet combatant commander requirements, 
we have had to increase our deployment lengths and decrease time 
between deployments, which affect our reconstitution and training 
cycles. Our high operations tempo has resulted in Airmen that are only 
proficient in the jobs they do when they deploy.
    To fix this problem and be able to meet an increasing demand for 
Air Force capabilities in future operations, we need the funding and 
the latitude to balance these rotational and expeditionary requirements 
with adequate full-spectrum training. The additional funding requested 
in the FY16 PB will help us recover flying hour-related readiness due 
to the fiscal year 2013 sequester and put us on a steady path toward 
full recovery.
Operational Training Infrastructure (OTI)
    Full-spectrum training for combat against a high-end adversary 
requires specific investment and emphasis on an integrated training and 
exercise capability. This includes the availability and sustainability 
of air-to-air and air-to-ground training ranges, fully augmented by, 
and integrated with, virtual training in simulators and with 
constructive models to represent a high-end adversary. This is what we 
call our Operational Training Infrastructure (OTI). Our ability to 
effectively expose our forces to a realistic, sufficiently dense, and 
advanced threat capability cannot be accomplished without our focus on 
OTI.
    OTI becomes critical when you consider that we must expand our 5th 
generation weapon systems. These systems are so advanced that 
challenging our operators in live training environments while 
protecting the capabilities and tactics of these systems is 
problematic. Our approach to OTI will address these training shortfalls 
while maximizing the value of every training dollar.
    In addition to investments in simulators as part of OTI, our ranges 
are used for large-scale joint and coalition exercises that are 
critical to training in realistic scenarios. We intend to sustain these 
critical national assets to elevate flying training effectiveness for 
the joint team and improve unit readiness. The same is true for our 
munitions. The FY16 PB includes funding to addresses the shortfalls in 
our critical munitions programs and to accelerate production and reduce 
unit cost.
Space Readiness
    Space-based capabilities and effects are vital to US warfighting 
and the Air Force remains committed to maintaining the advantages this 
domain provides. Potential adversaries are developing and fielding 
capabilities to deny us these advantages and are also fielding their 
own space capabilities to support their terrestrial warfighting 
operations. We now recognize that space can no longer be considered a 
sanctuary. In order to deter and defeat interference and attacks on US 
space systems we must improve space domain mission assurance 
capabilities against aggressive and comprehensive space control 
programs.
Nuclear Readiness
    The FY16 PB strengthens the nuclear enterprise, the number one 
mission priority of the Air Force. The Air Force's intercontinental 
ballistic missiles and heavy bombers provide two legs of the Nation's 
nuclear triad. The FY16 PB funds additional investments across the FYDP 
to sustain and modernize the ICBM force and funds 1,120 additional 
military and civilian billets across the nuclear enterprise as part of 
the Secretary of the Air Force-directed Force Improvement Program.
                               conclusion
    A ready, strong, and agile Air Force is a critical component of the 
best, most credible military in the world. Air Force capabilities are 
indispensable to deterrence, controlled escalation, and destruction of 
an adversary's military capability . . . as well as development, 
stability, and partnership-building. Today's Air Force provides America 
an indispensable hedge against the challenges of a dangerous and 
uncertain future, providing viable foreign policy options without 
requiring a large military commitment on foreign soil.
    Such a force does not happen by accident; it must be deliberately 
planned and consistently funded in order to be successful. Continued 
investments in Air Force capabilities and readiness are essential to 
ensuring that the Air Force maintains the range, speed, and agility the 
Nation expects. Regardless of the future security environment, the Air 
Force must retain--and maintain--its unique ability to provide America 
with Global Vigilance, Global Reach, and Global Power.

    Senator Ayotte. Thank you, General Spencer.
    In light of the fact that we've had President Ghani here, I 
wanted to, in particular, ask General Allyn and General Paxton 
about what is happening on the ground in Afghanistan. In--you 
know, in particular, I was pleased to hear the President's 
announcement this week that he has decided to leave 9,800 
troops in Afghanistan until the end of the year. However, it 
seems to me that, as we look forward, having spoken to General 
Campbell and others about the situation in Afghanistan, that, 
even after this year, the most prudent course forward would be 
a ground--a conditions-based determination of what we do with 
those 9,800 troops. So, could you speak to that issue for me, 
in terms of where we are in Afghanistan and the needs we will 
have, going forward? You know, and I think one of the things 
all of us took from the President's speech today is, we 
actually have a partner that we can work with. That is 
refreshing.
    So, General Allyn?
    General Allyn. Thank you, Madam Chair.
    I was fortunate to be in Afghanistan with General Campbell 
the first week of February, and I had an opportunity to deploy 
down to be with both of our divisions that are forward, 
providing mission command--one from Kandahar, at Regional 
Command South, Tactical Air Command South (TAC-South), and the 
other one in TAC-East, from the 3rd Infantry Division stationed 
at Bagram. What was very clear to me as they were posturing for 
the potential to have to draw down to the directed numbers by 
the end of the year was that we had increased the ratio of our 
soldiers to contractors to a level that was what I would call 
the ``razor's edge of risk.'' We had contractors doing that 
which soldiers need to do to assure the security of our forces. 
It was really driven by the force manning levels that General 
Campbell was posturing for to accomplish the mission.
    I also had an opportunity to meet with two of the senior 
commanders from the Afghan Security Forces that I had served 
with in 2011 to 2012 in Regional Command East, and I asked for 
their assessment of where they thought the Afghan Security 
Forces were and what gave them concern. They were, overall, 
very optimistic, very determined, and very confident that they 
could weather the battle against the Taliban if they had the 
critical enabling capability that they required from--you know, 
from the United States--and, in specific, some of the--closing 
the gap for them, in terms of their aviation and their close 
air support capability that is not yet fully developed, and to 
continue to mature their sustainment capacity. Both efforts are 
well underway by the joint team that is there on the ground in 
Bagram under General Campbell's leadership. I concur with you 
that the ground that we have been able to regain with the 
partnership between General Campbell and President Ghani is 
very, very inspiring, certainly to us, who have not had that 
experience in the last couple of years, but it's also very 
inspiring to the Afghan Security Forces. Because President 
Ghani has personally gone down to spend time with his forces 
and communicate his intent to enable them to fight and win. So, 
I think it bodes well as we look forward, ma'am.
    General Paxton. Yeah, thank you, Madam Chair. I, too, have 
had the opportunity on many occasions to be over in Afghanistan 
and, just several months ago, with our Marine Expeditionary 
Brigade (MEB) Alpha, who was down in Helmand Province before 
they pulled out. I'd echo what General Allyn said a moment ago, 
in that the conditions for success in Afghanistan have been 
set, both at the tactical level as well as at the strategic 
level. Making events on the ground and the commitment to 
continue there be more conditions-based than time-based is 
always a good thing. I feel good for General Campbell and our 
national leadership that, by making things condition-based, we 
have set ourselves on a path for success over there, and set 
the government as well as the Afghan National Security Force on 
the conditions for success.
    President Ghani committed as much to the Department of 
Defense and the Armed Forces when he was over at the Pentagon 
the other day. So, I think we're in a good trajectory now, 
ma'am.
    Senator Ayotte. Thank you both.
    I wanted to follow up with General Spencer and Admiral 
Howard on the issue of--we're engaged with, obviously, still 
the mission against ISIS, which has involved significant use of 
our fighters that, if we had met probably a year ago, we 
wouldn't have been talking about some of the additional use of 
our fighter force in regard to this fight that we face and 
challenge that we face there. Can you help update the--both of 
you update me on where--what are our challenges, in terms of 
having enough fighters, given that this is sort of a situation 
that we're, on the air, really helping the Kurds and the Iraqis 
on the ground fight the fight? You know, where do you see that, 
in terms of extra push on the force? As we do the 
authorization, what would you like us to think about that, just 
in terms of the current situation on the ground in Iraq and 
Syria?
    Admiral Howard. Thank you, Senator.
    So, as I mentioned in my opening statement, as we maintain 
carriers about--the George Herbert Walker Bush was there, and 
first the fighter size started to fly nontraditional 
Intelligence, Surveillance and Reconnaissance (ISR), but then 
quickly went into strike missions. As we stay committed in 
these endeavors, we will most likely maintain carrier presence 
over there. What we're finding is, we're flying the aircraft at 
a higher operational tempo. So, as we move forward and we 
continue staying engaged in support to the land components, we 
end up flying these aircraft much longer, longer distances, and 
then we end up consuming their readiness. We're seeing that 
play out as we try and extend the life of these fighters, 
particularly the legacy Hornets, from 6,000 hours to 10,000 
hours.
    Then, as we go through and we do maintenance on them, we're 
finding that the additional flight time has created 
deterioration problems that we just weren't expecting. So, as 
Senator Kaine pointed out, it would have been this morning's 
testimony, the more--the higher the OPTEMPO and the more we're 
engaged, the more we're flying, and then the more hours we put 
on these aircraft, and then the longer it is to return them 
back to a flyable status. So, we're clearly committed to the--
any--the support that we're tasked to provide, but it does 
consume readiness.
    Senator Ayotte. General Spencer?
    General Spencer. Yes. Madam Chair, first of all, I echo 
everything that Admiral Howard had--Admiral Howard said. I'd 
like to--but, let me add a couple of things to give you some 
context.
    Back during Desert Storm, in the Air Force, we had 133 
combat aircraft squadrons--133. We--during Desert Storm, we 
deployed 33 forward, so we had a lot of squadrons left to do 
something else if something came up in the world. Today, we 
have 54 fighter squadrons--54 total. So, I would ask you to 
think back, if we were in Desert Storm today and we deployed 33 
forward. So, that's problem number one.
    The other issue is--and that we've--I assume we'll get 
into, here--is readiness, because a lot of folks assume you 
deploy folks to war and they are as ready as they can get. But, 
that's not the case in a counter insurgency (COIN) fight, 
because they're getting a lot of training, flying and dropping 
smart munitions, but they don't have the sophisticated surface-
to-air threat that they would have in a more--in a higher-level 
fight. So, part of our challenge is, we are continually 
deploying folks to the current war. We don't keep them back 
home long enough to go out and train on these higher-level 
threats.
    The final challenge I would mention is, we are using up a 
lot of smart munitions, and--which are expensive--and the 
interesting thing about the OCO budget is, overseas contingency 
operations (OCO) allows us to replace smart munitions that have 
already been expended. It doesn't let us project ahead.
    Senator Ayotte. Really?
    General Spencer. So, we--we're always chasing ourselves, 
getting behind in the amount of munitions we have.
    So, to add a couple with Admiral Howard's comments, I 
couldn't agree with you more.
    Senator Ayotte. Thank you.
    I'd like to turn it over to Senator Kaine.
    Senator Kaine. Thank you, Madam Chair.
    Thanks, to the witnesses, for your testimony.
    General Allyn, you said something--I tried to write it down 
fast, and I'm having a hard time reading my handwriting, during 
your testimony, but I think it was, ``We have enough readiness 
for immediate consumption, but not enough for a contingency.'' 
Is that basically the thought you were expressing?
    General Allyn. Yes, it is, Senator Kaine. We--for the past, 
you know, in--about 6 months after sequestration, our readiness 
had degraded to about 10 percent of our brigades being ready 
for a global contingency. The next 18 months, we rebuilt that 
to just above 30 percent. But, we have been holding steady at 
30 percent now for about 4 months, because, as fast as we 
generate the readiness, it's being consumed.
    As an example, when the ebola crisis hit--
    Senator Kaine. Yeah.
    General Allyn.--you know, within days, we deployed the 
101st Airborne Division, that was a force training and ready to 
go to Afghanistan, to divert in and provide essential support 
to the U.S. Agency for International Development (USAID) to 
fight and abate the Ebola crisis. We also deployed a Brigade 
Combat Team of the 82nd Airborne Division into Iraq to provide 
the plus-up and advise-and-assist capability that was required 
in Iraq. Their readiness was, you know, absolutely at the top, 
because they had just handed off the Global Response Force 
mission to the 2nd Brigade of the 82nd. We had sort of counted 
on that brigade coming off to provide some surge capacity for a 
number of months, but, instead, you know, a requirement 
emerged, and we met it, just as we always will.
    So, as we've been, you know, being good stewards of the 
resources you are giving us to generate readiness, we are also 
responding to emergent requirements.
    Senator Kaine. Right.
    General Allyn. In 2014, about 87 percent of the emergent 
requirements, we met as an Army, as we will continue to do, but 
it does speak to the--really, the twofold challenge of building 
readiness. You know, we can generate additional readiness, but 
we can't control the demand.
    Senator Kaine. Right. Right. Is that just basic, kind of, 
phraseology, ``We have readiness for immediate consumption, but 
not for a contingency"? Would that be kind of a fair statement 
that all of you from your respective branches would agree with?
    Admiral Howard. So, in particular for the Navy, we look at 
the readiness of the units that we deploy and then the forward-
deployed units, and then we've always kept a level of readiness 
for the units in order to surge, those that respond to a 
contingency, just as General Allyn described. Right now we're 
at our lowest surge capacity that we've been at in years, and--
so, we're able to have two carriers out and about, but we've 
only got one in backup. The same with the amphibious ready 
group (ARG). We've got two out and about and one in backup.
    Our goal is to--with this budget, to get us back and 
increase that readiness and meet our own goals of two--having 
two carriers deployed and three ready to surge, approximately 
half the force.
    So, yes, as time has gone on, we have literally consumed 
the readiness, and then the readiness of the forces that are 
next in the wicket.
    Senator Kaine. Great, thank you.
    General Paxton?
    General Paxton. Thank you, Senator Kaine.
    I guess the short answer is, absolutely, we generate 
readiness, but we consume it as fast as we generate it. We, as 
a Corps, are focused primarily on crisis response. As we do 
that, we are mortgaging our future for sustainment and for 
modernization, and we're also reducing the at-home or home-
station training and availability of units.
    I can give you two examples, if I may, Senator. One is in 
the Africa Command (AFRICOM) area, and one is in the Central 
Command area. In both of those geographic combatant commanders 
today, we have a Special Purpose Marine Air-Ground Task Force. 
We would like to say that is kind of like a MEU, a Marine 
Expeditionary Unit. It is not as sustainable and expeditionary 
ashore, and it certainly doesn't have the power projection and 
sovereign capability that we would like to have coming off of 
an amphibious platform, a ship. But, we generated those two 
capabilities in immediate response to combatant commander 
requests. In the case of AFRICOM, it was to help with some 
security-force arrangements at some embassies, to work some 
train, advise, and assist missions and develop partnership 
capacity. Then, in the Central Command area of responsibility 
(AOR), it was because of specific risks at two embassies, and 
then also to start working on train, advise, and assist 
missions with the Iraqi Security Forces.
    But, in both of those cases, that has now consumed what 
would have been home-station readiness, because it's now 
forward deployed. It has brought us closer to a one-to-two 
depth-to-dwell, which creates stress on the force. It further 
exacerbates the age and the maintenance of our equipment. 
Despite the good work of my shipmate and where the Navy's 
trying to go with capital investment, it highlights the fact 
that we already have a paucity of amphibious ships by 
inventory, and that's also exacerbated by the fact that they 
have maintenance challenges keeping them in the yard. So, we 
can't generate enough sovereign launch-and-recovery capability 
for the Nation that we have to do these things with a smaller 
unit and go what we call ``feet dry'' ashore. So, we consume it 
as soon as we generate it, yes, sir.
    Senator Kaine. General Spencer?
    General Spencer. Yes, sir. The--first of all, a similar 
story from--for the Air Force. The combat air forces that we 
have right now, less than 50 percent are fully spectrum ready--
less than 50 percent. Let me give you a couple of examples, 
because, again, we're--right now we're just talking about 
combat air forces. We haven't talked about nuclear, we haven't 
talked about ISR, we haven't talked about space. But, let's 
talk about ISR for a second.
    I mean, right now we have been in a position of surge in 
our ISR caps since 2007. That does not define a surge. So, we 
are essentially--
    Senator Kaine. Because nobody ever asks for less ISR.
    General Spencer. That's exactly right.
    Senator Kaine. It just continue--it continues to--
    General Spencer. It continues--
    Senator Kaine. Yeah.
    General Spencer.--it has exploded--the demand has exploded. 
So, we have been staffed, if you will, for 55 cap since 2007, 
flying 65. We've--we surged, that entire time. So, we have 
essentially at our wits' end at the--where we are now, because 
we've got--remotely piloted aircraft (RPA) pilots are that we 
have just worked to the point where we are worried that we--
whether we can retain them, or not, and whether they will stay.
    Now--so, when we first started ISR, as you know, we did a 
combination of things. We brought in pilots from other 
airplanes, other weapon systems, brought them in, taught them 
how to fly RPAs, and we also created a schoolhouse to train new 
RPA pilots.
    We've now reached the point where the new RPA pilots are 
coming up to the point where they can separate. We have asked 
them all, in a survey, ``Are you going to take the bonus and 
stay?'' Roughly 30 percent say they'll stay. We've already 
reached a point where our pilots can go back and fly other 
weapon systems, and we're telling them they can't go back. So, 
we're asking for volunteers to come back in, we're increasing 
their bonuses. We're asking for Guard, you know, to volunteer. 
We're--we have a series of things we're doing to try to make 
that enterprise healthier, but it's just an indication of what 
the current Ops Tempo has done. I can't--I want to footstop 
that, because General Paxton mentioned it. The Ops Tempo that 
we're under now has now allowed us to bring the--where we are 
down low enough so we can--
    Senator Kaine. Yeah.
    General Spencer.--train and get ready to go again.
    Senator Kaine. Right. Well, I'm over time, but just to say, 
you know, if we have, essentially, a force that's ready for 
immediate consumption, but we don't really have the contingency 
ability, you've just got to look at the world and say, ``So, 
are we in a world without contingencies, or are we in a world 
that is likely to throw some contingencies?'' The answer to 
that is just as plain as everyday's front page. We are in a 
contingency-rich world right now.
    So, thank you, Madam Chair.
    Senator Ayotte. Senator Rounds.
    Senator Rounds. Thank you, Madam Chair.
    Thank you for your service.
    Admiral Howard, a week ago today we had a group of South 
Dakotans in for a meet-and-greet. One of the guys was about my 
age, brought in and was very proud of the fact that in his 
wallet he was carrying a picture that his son had taken at his 
first solo flight in an F/A-18. In doing so, we could see the 
pride. But, he said something that was concerning to me, and 
that was that it was just unfortunate that it was taking 
approximately 18 months for them to reach a certain level of 
readiness, where, if they would have had the parts to keep the 
aircraft in the air, it would have taken normally about 12 
months. It seems to me that, if that anecdotal information 
being shared is accurate, that you're going to have a tough 
time coming up with the pilots, in a regular order of 
operation, just to replace and keep up with the readiness 
necessary for the folks that are working right now in combat 
areas.
    Could you visit a little bit about--number one, is my 
estimate--or is my information accurate, in terms of the 
challenges you've got right now with keeping aircraft in the 
air and operational? Second of all, with OCO funding the way 
that it's set up right now--and I'm going to ask this of all of 
the members here--is there something that we can do, with 
regards to the limitations that we've got, to where we can 
modify OCO somehow so that you can access funds that might 
otherwise be there, but not available for what your immediate 
needs are?
    Admiral Howard. Thank you, Senator.
    Perhaps a slightly different perspective. This gets down to 
that 2013, when we sequestered, we furloughed some of our 
artisans and engineers, and then we created a backlog in our 
aviation depots. So, when we're looking at the throughput of 
those aviation depots, coupled with the aging aircraft, and 
then as we open up those older F/A-18s and discover that, by 
flying them longer, there's more corrosion, that backlog just 
increased. So, we already had the--have and are living with the 
impact of that short period of sequester. We now are in the 
timeframe where we are hiring the artisans as quickly as we 
can, several hundred this year, to help get us to being able to 
assess those aircraft quickly and then repair them as quickly 
as we can.
    This is where OCO has been very helpful. So, we have our 
fundamental aviation maintenance account, and then we've 
plussed-up that maintenance account to help get that throughput 
up to where it needs to be, and to decrease that backlog.
    So, for us, right now the limitations for the depot is not 
the money. The limitation is literally getting the people hired 
and in place; for the people who are new, getting them trained. 
But, there's also another piece to it. I think there's a trust 
factor there, that, when we want to bring people--proud 
civilians in to do all the support for our aircraft, or whether 
it's ships, they have to trust that the work's going to be 
there, that they can live their lives, pay their mortgages, and 
not worry about being furloughed, so that they want to have a 
job with the government.
    So, we know we have a backlog, and we expect to be able to 
clear that up in 18 months. But, all bets will be off if we 
sequester again. Then, you're right, then it gets down to, not 
just, ``Do we have the aircraft for our pilots to train in?"--
but, when we sequestered last time, I was the Deputy Commander 
of Fleet, and I had the very unhappy job of going down and 
talking to a cruiser community officer (CO) and his chiefs and 
his crew, because we weren't going to be able to get that ship 
underway. We talked about what it meant for their 
qualifications, what it meant for the--their ability to serve 
at sea. If people can't do their jobs, it's an immense 
dissatisfier.
    Thank you.
    General Allyn. Senator Rounds, in terms of the OCO 
flexibility that's required, clearly OCO has been critical for 
us to meet the readiness and the equipment recovery, 
replenishment for our forces that have been deployed in support 
of the countless operational requirements, both emerging and 
known. We've been thankful for that funding. But, as you talk 
about a wider application of OCO in the future, it needs to be 
more flexible. It must be more flexible. Because, otherwise, we 
cannot use it for all the readiness requirements that we have, 
and certainly the year-to-year application of it--
    Senator Rounds. Sir, if I could, would you get us a list of 
what you need the flexibility on that we may be able to look 
at, in terms of OCO funding available?
    General Allyn. Yes, sir, we will.
    [The information referred to follows:]

    General Allyn. The Army, like each of the other services, needs the 
fiscal flexibility to address the uncertainty of funding we are dealing 
with, in a world were instability is creating increased overseas 
requirements. What we really need is sufficient base funding, but where 
feasible, we need broader discretion on the use of already appropriated 
Overseas Contingency Operations (OCO) funds in order to maintain the 
readiness of our formations and to respond to new missions. An example 
is what has occurred in Europe due to the Russian annexation of Crimea. 
This created a demand for the Army to defer sending an active component 
Brigade Combat Team to Kosovo, and instead, we sent it to Eastern 
Europe to deter and assure. To backfill that brigade, which was 
responding to a named operation, we mobilized a National Guard unit to 
go to Kosovo. Current OCO rules do not allow us to use OCO to pay the 
mobilization costs of the National Guard unit, instead we used base 
funding and had to reduce the readiness of other units to pay for those 
costs. Allowing for more flexible use of OCO, for direct and indirect 
impacts to named operations that may not occur in the geographic area 
of the named operation, would greatly improve our readiness.
    Admiral Howard. I have nothing further to add to my response.
    General Spencer. Senator Rounds' question was directed to General 
Allyn, not General Spencer.
    General Paxton. The largest issue concerning flexibility in OCO 
funding is timing. The Marine Corps begins to plan its requirements for 
the OCO budget approximately 18 months before the funding would likely 
be made available. Even with our best forecasting, requirements will 
change during the year of execution, requiring transfers between 
accounts, many of which require Congressional approval.
    Additionally, the planning process for long-term modernization, 
sustainment and upgrade programs requires a lengthy, multi-year 
timeline. Since the OCO budget is developed outside the normal 
Planning, Programming, Budgeting and Execution process, it is difficult 
to use on critical shortfall procurement items in the current year.

    Senator Rounds. Thank you.
    General Paxton. Yeah, thank you, Senator Rounds.
    If I may, two things. Number one, to follow up on Vice 
Chief of Naval Operations' (CNO) comments, when we have a 
challenge with our maintenance and the dollars for 
maintenance--and you used F-18s as an example. We call it RBA, 
Ready Basic Aircraft. Those are the ones that are through the 
upgrades, modernization, and they're ready on the flight line 
to take off. When those aircraft are delayed, either because we 
don't have money for parts, money for engineers, or money to 
actually move the aircraft to the depot, we still have pilots 
who are waiting to fly. So, now we have more pilots than we 
have aircraft. Sometimes, if we have a higher demand signal, 
those pilots may actually go forward. So, the time they have 
available to train to them when they get back is shorter. So, 
you can see the downward spiral that happens, because then you 
have more pilots with a shorter-term time, with less aircraft 
to train on, and then you get in this training readiness spiral 
that goes down.
    If you exacerbate that by the fact that some of those 
flight requirements actually have to come from the deck of the 
ship that you need bounces on carrier calls or that you need 
night vision goggle ops, the minute you perturb the 
availability of a ship or an aircraft, the spiral starts, and 
it's really hard to regain.
    To your second question, on OCO dollars, always helpful. 
We'll all work together to get you examples of how that would 
help. But, I'd just like to be on the record, sir, that the OCO 
dollars are insufficient to the problem we have right now. I 
mean, they are single-year dollars. It's a short planning 
horizon. It's actually the BCA caps and it's the ability to 
forecast across the Future Years Defense Program (FYDP) to 
start long-term modernization programs and sustainment and 
upgrade programs that will eventually allow us to not only 
handle the crisis, but to handle the contingency we need 
because we have enough readiness at home station.
    Thank you, sir.
    General Spencer. Senator, in terms of OCO specifically, 
flexibilities of where you may--might be able to help, I 
already mentioned one. So, there are certain things, like 
munitions, that are after-the-fact. So, we put, in our OCO 
submission, munitions that we used last year, but we can't put 
in OCO submission what we plan to use this year. So, again, 
we're always a year behind.
    Timing is really critical, because if the OCO budget comes 
late in the year, that does a lot of things to us. One, we are 
trying to plan, hoping on the come, not exactly sure what we'll 
get passed. There is actually a law that says you have to 
obligate 80 percent of our own end money by July. So, if the 
money comes late, we've got a problem there that we have to 
work through.
    We're all afraid to death one of these days, if OCO goes 
away, and a lot of the things that are being funded in OCO, 
quite frankly, will end up in our base. How is that going to 
work? You know, in the Air Force, for example, we have several 
bases in the theater right now that we've been told are going 
to be, quote/unquote, ``enduring,'' which means we'll probably 
hang onto those bases. They're being funded by OCO. What 
happens when OCO goes away? How do we get that money into the 
base?
    Finally, as General Paxton mentioned, planning is a really 
big deal, because--particularly in a procurement account. So, 
if we're going to buy a weapon system, if we're going to pay 
for F-35s or do a multiyear for C-130s, it--that's really 
difficult to do if you're trying to do that one year at a time, 
because you don't know what's going to come in the next few 
years. So, to the extent that those type of purchases can--you 
know, I've been told that there's a--there is--that we have had 
a multiyear OCO in the past, or a supplemental. I don't know if 
that's under consideration. But, the real answer for us is if 
we can get that money in the base, that would really be 
helpful.
    Senator Rounds. Thank you, Madam Chair.
    Senator Ayotte. Thank you.
    It would be really helpful to us, especially those of us 
that serve jointly on the Budget and Armed Services Committee, 
if all of you could submit to us what you think, in terms of 
flexibility for OCO, because we don't know how this story ends, 
this year, and just--you know, you're, I'm sure, aware of 
things that happen on the floor on the budget and all that. It 
would be helpful for us to understand that. If the plus-up ends 
up being in the OCO line versus the base budget, what do you 
really need, to do what needs to be done? I know it's not 
ideal. Frankly, there are many of us that want to deal with the 
overall BCA in solving it. I'm still committed to doing that. 
But, you know, we've got to do what we've got to do around 
here. So, just--if you can get that to us, it would be 
helpful--all of the branches--to understand what you really 
need.
    [The information referred to follows:]

    General Allyn. Receiving OCO funding instead of base funding for 
fiscal year 2016 would allow the Army to conduct its missions and 
achieve readiness targets provided that appropriation language and OMB 
interpretation fully allowed OCO dollars to be spent on base 
requirements. However, in the long term, using OCO to circumvent Budget 
Control Act caps would put Army readiness at risk, because steady, 
predictable base funding is the key to long term, enduring readiness.
    Admiral Howard. What we really need is what we have included in the 
fiscal year 2016 Navy budget submission. As we look to the future, the 
Navy will continue to be globally deployed to provide a credible and 
survivable strategic deterrent and to support the mission requirements 
of the regional Combatant Commanders. Global operations continue to 
assume an increasingly maritime focus, and our Navy will sustain its 
forward presence, warfighting focus, and readiness preparations. We see 
no future reduction to these requirements. The fiscal year 2016 Navy 
budget submission addresses the challenges to achieving the necessary 
readiness to execute our missions.
    Overseas Contingency Operations funding is meant to fund 
incremental costs of overseas conflicts such as in Afghanistan and 
Iraq. OCO does not provide a stable, multi-year budget horizon. Our 
defense industry partners need stability and long term plans--not 
short-term fixes--to be efficient and cutting-edge. OCO is dispiriting 
to our force. Our personnel, active, reserve and civilian and their 
families deserve to know their future more than just one year at a 
time.
    The Navy appreciates Congress' continued action to explore 
alternative paths that do not lock in sequestration. Any funding below 
our Navy budget submission requires a revision of America's defense 
strategy. Sequestration would outright damage the national security of 
this country.
    General Spencer. Question. It would be really helpful to us, 
especially those of us that serve jointly on the Budget and Armed 
Services Committee, if all of you could submit to us what you think, in 
terms of flexibility for OCO, because we don't know how this story 
ends, this year, and just--you know, you're, I'm sure, aware of things 
that happen on the floor on the budget and all that. It would be 
helpful for us to understand that. If the plus-up ends up being in the 
OCO line versus the base budget, what do you really need, to do what 
needs to be done? I know it's not ideal. Frankly, there are many of us 
that want to deal with the overall BCA in solving it. I'm still 
committed to doing that. But, you know, we've got to do what we've got 
to do around here. So, just--if you can get that to us, it would be 
helpful--all of the branches--to understand what you really need.
    Answer. The fiscal year 2016 President's Budget supports our 
critical needs to execute the defense strategy, but we made tough 
choices in capacity and capability / modernization. The Air Force does 
not support any reductions to the President's Budget and the short term 
solution of using OCO does not address the long term budgeting 
challenges created by the Budget Control Act (BCA). Further, this short 
term solution does not provide the necessary BCA relief for the other 
Federal Agencies that the Air Force works with such as Homeland 
Security and Department of Energy. Without relief for the other Federal 
Agencies, our partner missions will be at risk. Most importantly, this 
solution does not move us towards a more stable budget environment that 
is critical to long term strategic planning to meet the Defense 
Strategic Guidance and protect the Homeland.
    General Paxton. The largest issue concerning flexibility in OCO 
funding is timing. The Marine Corps begins to plan its requirements for 
the OCO budget approximately 18 months before the funding would likely 
be made available. Even with our best forecasting, requirements will 
change during the year of execution, requiring transfers between 
accounts, many of which require Congressional approval.
    Additionally, the planning process for long-term modernization, 
sustainment and upgrade programs requires a lengthy, multi-year 
timeline. Since the OCO budget is developed outside the normal 
Planning, Programming, Budgeting and Execution process, it is difficult 
to use on critical shortfall procurement items in the current year.

    Senator Ayotte. I wanted to ask, General Allyn, can you 
give us an update on end strength and where we are, in terms of 
numbers, on end strength? How many people have we had to use 
involuntary terminations for in 2014? What's been the status of 
those individuals? You know, are they--are there people that we 
have in combat that we're giving involuntary terminations to? 
Then, you know, one thing I think that's fairly powerful as we 
look at--if we go to sequester, where does that put our end 
strength? I know we've talked about it in the larger committee. 
But, also, what does that mean, in terms of involuntary 
terminations?
    I really want people to understand. I think this committee 
understands very well. In some ways, when we talk about 
sequester, when you talk to the Armed Services Committee, a 
little bit like preaching to the choir, but we want to get this 
word out also to the broader Senate. So, if you could comment 
on the involuntary termination issue, end-strength numbers. I 
would also then ask General Paxton to follow up the same with 
the Marine Corps.
    General Allyn. Yes, Madam Chair. The bottom line is, we are 
at about 498,000 today in the United States Army, headed toward 
a end-of-fiscal-year number of 490,000 and budgeted in the, 
Program Objective Memorandum (POM) to go down to 450,000. To 
give you the broader answer first, to get to 450,000 soldiers, 
as has been directed by our current budget, that will require 
the involuntary separation of 14,000 soldiers. On average--
that's officers and noncommissioned officers--on average, it's 
about 2,000 per year. Okay? So, fiscal year 2014 was about 
2,100 soldiers. Just over 50 percent of those soldiers served 
over two or more combat tours. So, these are soldiers that 
answered the call multiple times to meet the requirements that 
the Nation had. They were--
    Senator Ayotte. Two or more combat tours.
    General Allyn. Two or more combat tours for 50 percent of 
that--those that we were asking to leave involuntarily. Now, 
first and foremost, this is not a choice the United States Army 
took. This is a budget-driven requirement. So--
    Senator Ayotte. I assume that, if you've done two tours, 
you're not terminating these people because they aren't capable 
of fighting.
    General Allyn. You are absolutely accurate. You asked a 
question, were we really having to separate some soldiers that 
were forward deployed? The answer is yes.
    Let me first let you understand that treating those 
veterans of multiple combat tours with dignity and respect is 
our absolute number-one commitment. Every single officer or 
noncommissioned officer that we asked to involuntarily separate 
was briefed, before the board was held, by a general officer--
first general officer in the chain of command, and then, when 
the board completed its process and identified those for 
separation, they were briefed again, face to face, as much as 
possible. In a couple of cases, they had to have the general 
officer contact by phone or video teleconference (VTC) with the 
immediate commander present to ensure that we treated these, 
you know, people who had served so courageously with the 
absolute utmost dignity and respect.
    Our objective in notifying people that were forward 
deployed was to give them the maximum time possible to 
transition effectively to the next phase of their life. The 
minimum that we wanted to provide them was 10 months, at least, 
so that they would have an opportunity to take the benefit of 
all of the transition, education, plug them into employment 
advisors through programs like our Soldier for Life Initiative, 
and ensure that we set them up for success, to include 
providing opportunities for mentors from industries around 
their communities that they intend to go back to.
    So, not a choice that we took willingly or voluntarily, but 
we have taken it on, we have ensured the appropriate care of 
every one of our soldiers, and are committed to do so as we go 
forward.
    Senator Ayotte. General Paxton?
    General Paxton. Yeah, thank you, Senator Ayotte.
    Your Marine Corps today is 184,000. We had grown to 202,000 
by some special appropriations and authorizations. That was 
temporary. We knew we were not going to be able to sustain 
that. So, we had started our downward growth, if you will, 
before BCA kicked in.
    Under BCA, we have to be at 182,000 by the end of fiscal 
year 2017. We expect, if full BCA continues, we could very well 
have to go to 175,000.
    To date, we have deliberately not broken faith with 
marines. Almost all of our separations have been voluntary. We 
have had low double digits of majors who were not selected to 
lieutenant colonel, and staff sergeants who were not selected 
to gunnery sergeant, who we did not continue. But, they were 
afforded other venues for separation at that time.
    We do have a concern that if the BCA caps come back and we 
have to go to 175,000, that at some point we could be forced to 
do larger numbers of involuntary termination.
    Senator Ayotte. I don't know if--you know, Admiral Howard, 
I'm not trying to exclude the Navy and the Air Force on this. 
Anything you want to report on this end?
    General Spencer. I would only add that we've--we were on a 
steady decline in manpower, and finally have--we've drawn a red 
line at around 317,000 for active duty, because we just can't 
go any lower. Based on our--the levels of maintenance folks we 
have on our flight lines, fixing our airplanes, launching 
satellites, we've sort drawn a red line and said we can't go 
any further.
    Admiral Howard. So, along with General Spencer, I think the 
Navy and Air Force were on a different journey these last 15 
years. I recall, in December of 2000, when I reported to the 
Joint Staff and then 9/11 happened the following year, 
literally I--we were a Navy of about 14 carriers, 383,000 
people, and I think it was close to 312 ships. We're--we've 
downsized about 67,000 people, and we're about 279 ships today
    The budget we've submitted continues to acquire ships, 
build ships, and we would be looking at being back to 304 ships 
in 2020. But, because we're a capital-intensive force, our 
manning is matched to those ships. So, we would expect to be at 
329,000, and about 57,000 Reserve. But, we took--we reduced our 
force over the last 14 years. So, along with the Air Force, 
we're not trying to get any smaller.
    Senator Ayotte. Thank you.
    Senator Kaine?
    Senator Kaine. On the issue of OCO and flexibility, I'm 
maybe a little bit like a former Governor. We're all into 
flexibility. I like giving folks flexibility.
    But, I would guess that, as long as we're talking about 
readiness, even putting flexibility doesn't necessarily--I 
think, General, you said, it's the caps, not the flexibility. 
Flexibility would be helpful. But, won't there always be a 
tendency, if you have to choose between priorities, to kind of 
short readiness? I mean, you're always going to--you're always 
going to do the day's mission and try to have people as well 
deployed as you can for doing a deployed mission. If you don't 
have enough to choose from, you'll always pick that, and 
probably try to save on the readiness side. It seems like 
that's one of the challenges. So, even if you allow for 
flexibility, it would seem that readiness is always going to be 
somewhat at risk in a capped environment when there aren't 
sufficient resources, ``Well, we can't--we don't want to short 
the folks who are forward deployed during these missions, so 
we'll probably--you know, if we have to save it somewhere, 
we're going to save on the readiness side.''
    So, flexibility, I don't view that as the real solution. I 
mean, it could be helpful, but it's not really going to solve 
the readiness challenge we have, in my view. Am I wrong to look 
at it that way?
    General Paxton. Senator, if I may, I'll start, only because 
we've just had this discussion this morning in the building. 
Although there are some common terminologies and lexicon, each 
of the services has to look--
    Senator Kaine. Yeah.
    General Paxton.--at this in a little different way.
    So, on the part of the Marine Corps, we truly envision 
ourselves as the 9-1-1 force that you--that the American 
public, the American Congress, the taxpayer, they expect us to 
be most ready when everybody else is least ready. We don't have 
a big role or mission in the nuclear triad and things like 
that. We're a rather conventional force, we're a rather small-
unit force, and we're supposed to be forward deployed, forward 
engaged. So, we fully expect that we're going to generate 
readiness and consume readiness, and, at some point, we will 
take risk in some modernization and we'll take risk in some 
home-station readiness. We think we're at that ragged edge 
right now.
    For example, our aircraft are old, too, anywhere from 22 to 
29 years, and growing. Our amphibious vehicle capability is 42 
years old. So, we're at the point, as General Spencer said 
earlier, that we have to modernize. We, early on, after 
Operation Iraqi Freedom (OIF) and Operation Enduring Freedom 
(OEF), went into this bathtub, and we had to go all in to 
modernize, because the gear was too old.
    So, we feel at risk now for modernization and sustainment. 
But, we're going to continue to give you fight-tonight forces, 
ready forces for the crisis that's at hand, even if we know, 
later on, we may eventually get to the point of, ``Yes, but,'' 
that we'll give you several companies, but not a whole 
battalion, we'll give you a squadron with 8 aircraft instead of 
12 aircraft.
    But, each of the other services, at some point, looks at it 
just a little differently. So, that's where the Marine Corps 
is, sir.
    General Spencer. Yes, Senator. You put your finger on 
really what our challenge is, quite frankly, because you said, 
in most cases, we would go to readiness if we had a budget 
issue, a budget concern. The reason we do that is because we 
don't have a lot of choice. We've only got three pots of money. 
We have people, procurement, and readiness. People, you can't 
just send people home. I mean, you know, you--even if--people--
actually, our military folks were exempt from sequestration, 
but, even if they weren't, that's a long process to reduce. 
Quite frankly, we can't reduce any more. Similarly with 
procurement, those are multiyear purchases that are stretched 
out over many years, involve a lot of money. If you start 
cutting those, your unit cost goes up.
    Senator Kaine. Yeah, you can slow down the next one, but 
you can't--
    General Spencer. That's--
    Senator Kaine.--break the one that you're--
    General Spencer. That's exactly right.
    Senator Kaine.--in the middle of. Right.
    General Spencer. So, then--so, a lot of times, we don't 
have any choice, if we have to find fast money, but to go to 
readiness, because it's essentially Operations and Maintenance 
(O&M) money. But, that's the dilemma, because we--that's where 
our readiness is. So, that's the box we're put in.
    Senator Kaine. Yeah.
    General Spencer. We don't want to do that. We're--all the 
services are obviously a little bit different, but, at least in 
the Air Force's case, as you know, you know, if we get called 
upon, I mean, we've got to be there in hours, not days, weeks, 
or months. So, it's--we have to--readiness is critical for us, 
yet readiness is the only account we can go reach out and take 
money quickly. So, that's the sort of dichotomy we're in.
    Senator Kaine. Indeed.
    Other comments? General Allyn, Admiral Howard?
    General Allyn. I was just going to just reinforce my 
teammates' points, here. But, it really does come down to 
trying to balance concurrent priorities. As has been stated, 
the Army's budget, over 50 percent of it is committed to our 
national treasure, our people, you know, both the military and 
civilian. So, we've got 50 percent of the budget with which we 
wrestle with the dual priorities of readiness and 
modernization. We, in the Army, have actually erred on the side 
of delivering the readiness that's required for the known and 
emerging missions, and taking risk in the mid- to long-term 
with modernization. But, that is a--that's a hard choice, and 
it's a choice that our Chief and our Secretary take, fully 
analyzing, you know, the opportunity costs of doing that.
    It's just a very, very difficult position to be in, and 
one--with the capacity that this Nation has, we shouldn't be in 
that position.
    Senator Kaine. Yeah.
    General Allyn. You know, our soldiers should expect that, 
when they go up against an adversary, that adversary faces an 
unfair fight whenever they come up against the United States of 
America. We are putting that at risk.
    Senator Kaine. Admiral Howard?
    Admiral Howard. Senator, thank you. I just wanted to share 
that, when I was at fleet, when we sequestered last time, as 
General Spencer pointed out, that was the only intermediate 
choices we had.
    Senator Kaine. Yeah.
    Admiral Howard. When you talk about readiness, we had to 
cancel deployments of ships. Now you're not where you need to 
be, and you're not giving the COCOM any forces, let alone ready 
forces.
    Then we had to reduce steaming hours and flying hours, 
which is the training of the piece Senator Rounds brought up. 
We had to take some of the air wings down to tactical hard deck 
to generate the savings to hit that lower target budget--budget 
target. So, there is, in the immediate aftermath of 
sequestration, an impact on the forces and--in the Operations 
and Maintenance (O&M) account and in operations and in training 
dollars.
    Thank you.
    Senator Kaine. Last--just a comment. You had--you mentioned 
the COCOM, and that reminded me of one other thought. We have 
the hearings with the COCOMs, you know, the status hearings, 
during the spring. One of the things I'm really always 
impressed by, and most recently a conversation with General 
Kelly at SOUTHCOM, is the degree to which the COCOMs really 
approach their mission with kind of a whole-of-government 
approach. They're relying on the intelligence community, 
they're relying on the State Department, they're relying on 
Department of Justice, they're relying on the Department of 
Homeland Security (DHS)--especially in the SOUTHCOM, that's 
really important. All these agencies are affected by sequester, 
too, the partners that our COCOMs rely on. They may not be--you 
know, it may not be defense sequester, but they're sequestered 
on the nondefense side, and they have a direct impact on the 
security mission. So, again, there's a lot of compounding 
effects here, and your testimony is good tribute to that.
    Thank you, Madam Chair.
    Senator Ayotte. Senator Rounds.
    Senator Rounds. Thank you, Madam Chair.
    I think it's becoming obvious in the discussion that, as 
you listen to us, we talk about trying to make it--we're trying 
to set it up so that there is a way to skin this cat that's out 
there right now with BCA basically there and in front of us. 
Part of it is to give you as many options as possible in order 
to be able to utilize the funds that we are able to allocate, 
either through the budget and then through the appropriations 
process. I want to make sure that, if we do take a particular 
approach, that it is as readily available to you as possible 
without other strings attached to it. So, you know, we're not 
exactly sure how we skin this cat that's in front of us, but we 
want your help in doing so, and that's the reason for the 
discussion.
    I just wanted to go directly to General Spencer with 
something that you said earlier that I think is just so 
impactful, and that is that, if we would have been going to war 
in 1991, we would have been in the same position as we are 
today with the age of our aircraft; we'd be flying B-17s. You 
know, in fact, if my information is correct, the Department of 
Defense (DOD) currently operates a bomber force that is half 
the size of the Cold War force recommended by its 1993 bottom-
up review.
    Now, if it's true that advances in sensor technologies and 
precision-guided weapons have helped to offset cuts driven by 
budget reductions, but--in other words, they have the effect, 
though, of acting as a force multiplier--but, that being said, 
reduced readiness levels--and that's what we've been talking 
about here, are the readiness levels--the readiness levels have 
an opposite effect.
    I'd just like to talk a little bit, and I want to give you 
an opportunity to visit a little bit, about the--what happens 
with the--has the combination of reduced readiness and smaller 
force size eroded our global strike advantage? Right now we're 
talking about aircraft that are very, very old, and you've got 
an F-35 that's available right now that you're still trying to 
procure, you've got a tanker that's necessary to be set up and 
operational, but you also have a need to replace, or at least 
to supplement, the B-1 and the B-2. Right now you've got B-52s 
that are doing some of that work, but the Long Range Strike 
Bomber (LRSB) has clearly got to be maintained, as well, or at 
least you've got to be able to procure that in the future. Can 
you talk a little bit about what that is and what's going on 
right now within the Air Force to try to maintain all of those 
goals, and procure and still maintain readiness?
    General Spencer. No, thank you, Senator.
    Again, you've put your finger right on the issues, here. 
You know, the--we've only got 20 B-2s, and if--so, if we have 
to have a long-range penetrating bomber that can get through a 
lot of the--you know, back when the B-52 and the B-1 was built, 
they aren't stealthy, they don't--they won't penetrate some of 
the systems that are out there now, so we have to have that 
capability. Similarly, for our other platforms, as well. The F-
35, for example, along with the F-22, you know, some of--there 
are other fighters being introduced into the market now, so-
called 4.5 generation, if you will, that would beat our--I 
mean, the advantage that we have always had, and I think we 
still have, is, our pilots are better trained. But, if you give 
the adversary a better airplane, then that's a real problem.
    So, the faster and the more efficiently we can get to fifth 
generation, the better.
    Senator Rounds. Do you want to talk just a little bit in--
you made the remark, and then you moved on rather quickly, but 
you're talking about a 4.5, which is out there, which is going 
to, basically, be in a position to where--we don't ever want to 
be in a fair fight, but we want to the advantage to be on our 
side all the time. Do you want to talk about that just a little 
bit?
    General Spencer. Sure, yes. So, the--they are being 
produced, as we speak, developed and produced, a fighter that 
is ahead of our fourth-generation--the F-15, F-16s--it is 
ahead. So, based on the systems they have, we--they would--as 
our Chief said, 4.5 kills a fourth-generation airplane. So, 
that's why it's--and the sense of--we have to modernize our 
fleet, is what I'm saying. The age of our fleet that we have 
now won't--is not sufficient for us in the high-end threats and 
the high-end fights that we are--that we could be involved in. 
So, we--so, if nothing else, to maintain, first, deterrence, 
but then to be able to win if deterrence fails. We want to go 
in--as General Allyn said, we don't want a fair fight. We want 
the best equipment, with the best technology, with the best-
trained both--maintenance folks, pilots, you name it, space 
operators--we need the absolute best that we can have. So, 
that's really imperative for us to stay on track with our 
modernization.
    Senator Rounds. Thank you, Madam Chair.
    Unless one of the other--
    Sir?
    General Paxton. Thank you, Senator Rounds.
    If I may--I had made the point earlier about how we all 
need a planning horizon. We had aging aircraft in both our F-
18s, our AV-8Bs and our EA-6s. We knew we were going to have to 
replace them, so we put--we went all in on the F-35, and we're 
in that bathtub right now. So, the monies and the planning that 
is available to us to bring the F-35 to fruition are critical 
for the fight in the future. If we don't--if the BCA kicks in 
and we buy fewer, then you lose the economies of scale, you 
delay the production line, and then our fight-tonight force and 
our fight-tomorrow force are both jeopardized.
    Thank you.
    Senator Rounds. Thank you.
    General Allyn. I would just add, for the Army, the same 
application that General Paxton just talked about for our--
modernization of our aviation fleet is absolutely the exact 
same dynamic. So, we will not procure the more modern UH-60 
aircraft that our total force needs, we will not modernize the 
AH-64 to the level that it needs to, and our CH-47 
modernization will stop after fiscal year `16. So, it is 
absolutely critical that we stay on this path.
    Admiral Howard. So, we have often used a technological edge 
as a warfighting edge. So, as we've had to meet budget targets, 
we've had to slow modernization down. But, really what that 
gets to is our ability to win in a anti-access aerial-denial 
fight. So, as we slow down our ability to modernize weapon 
systems on ships or on aircraft or the physical platforms 
themselves, it's given potential adversaries an opportunity to 
get closer to us and to start--and that gap in the 
technological edge is starting to diminish.
    Senator Rounds. Thank you.
    Thank you, Madam Chair.
    Senator Ayotte. So, I wanted to--we have--Senator Shaheen 
is on her way for some questions--but when--Admiral Howard, 
when we met in my office, one of the issues that you raised, we 
saw, recently, the attempt by ISIS to expose our men and women 
in uniform in the cyber domain. So, I wanted to get your 
thoughts on, you know, What are the cyber challenges that our 
forces face, and how does all this relate to readiness and our 
posture?
    Admiral Howard, I'd start with you.
    Admiral Howard. Thank you. So, there's two issues. All of 
us--one is the force, writ large--our civilians, our Active, 
and our Reserve. We all actually live and operate in this 
domain. We're in it for our workday, and then, for our sailors 
and Reserve, they're in it when they're off duty. So, for us, 
we have to continue to develop and train our workforce to 
understand that as much innovation and excitement and fun as 
you can have on liberty in this domain, there's vulnerabilities 
in this domain. Because of the robustness of knowledge exchange 
in this domain, the vulnerabilities translate to potential 
operational security issues, which is some of what we saw this 
week.
    So, as--whether they're sailors, Reserves, or civilian, if 
they are out and about on social networks, and identify 
themselves or identify units, that they have to be trained to 
understand operational security in this virtual domain, just as 
they understand operational security in the physical domain.
    The next piece is, there is a more professional cohort when 
you look at the--for us, the information dominance community, 
you look at our enlisted, our IT, and then, for officer, 
informational professionals, cryptologists, intelligence 
officers, and then they are really the heart of our cyber 
warriors and the workforce that we're developing to not only 
defend our networks, but also develop both offensive cyber 
capability, as well. Then, that's--for us, those are the 
components, those are the folks we put together, and then they 
are the ones that work underneath U.S. Cyber Command in 
whatever mission sets they're required to provide.
    General Allyn. Madam Chair, I would just add that, you 
know, in 2013, we had no Army cyber mission teams. Today we 
have 24 that are supporting combatant commanders at the initial 
operating capability, building to over 40, you know, by the end 
of next year. Their training and development is absolutely 
critical.
    But, you highlighted a very critical point, and that is, we 
should be trying to accelerate the elimination of our 
vulnerabilities. Unfortunately, all of us are faced with the 
reality of having to take a multiyear approach to this, because 
of funding limitations. My belief is, this cyber risk is 
accelerating very, very fast.
    General Paxton. Senator, if I may, the--it also shows--to 
General Allyn's point, it shows the dynamic here--I'm sorry--it 
shows the dynamic of the pressure we're under. As the money 
gets tighter--BCA cap, if you will--and as the pressure on end 
strength goes down, we're--we all spend over 50 cents of our 
dollar on our people, the most important weapon system that we 
have. In the Marine Corps, it happens to be about 61 cents on 
the dollar. We have also stood up cyber mission teams and cyber 
support teams, both for the service and for some of the 
geographic combatant commanders--in our particular case, 
Special Operations Command. So, then you get into the tension 
about providing conventional force capability and providing 
cyber capability. It really shouldn't be a tension. You should 
provide both. But, when you're under an end-strength reduction 
and a fiscal reduction, that's hard to do.
    General Spencer. Yes, Senator, and we're similar. We've got 
20 cyber teams, growing to 40, as General Allyn mentioned. 
Because of funding, we've had to stretch that out longer than 
we would--we're comfortable with.
    You know, I was raised, you know, to keep my personal 
business to myself. You know, my daughter puts all of her 
business out on Facebook. I don't really get that.
    [Laughter.]
    General Spencer. But, that's kind of the generation of 
folks that are coming in the military now, that everything they 
do and everywhere they go and everything they eat and everybody 
they talk to is on Facebook. You know, we're realizing now, 
that's a vulnerability. So, all of us have--you know, all of 
the names that were listed by ISIL on their list, we've 
contacted them all and talked to them specifically about these 
sort of social networks, if you will, that they put your--you 
know, your access out there. Unfortunately for us, I mean, you 
can Google any of us, and our whole life history is out there, 
whether we like it or not. But, for a lot of our troops that 
deploy, again, those, you know, Twitter or Facebook, all 
those--they're great social tools, but they also make us all 
vulnerable, and they expose our personal--some of our personal 
information.
    Senator Ayotte. Thank you, I think all three of us can 
relate to that, certainly.
    I wanted to call on Senator Rounds for a brief follow-up 
question, and then I'm going to turn it over to Senator 
Shaheen.
    Senator Rounds. Thank you, and I'll try to make this brief. 
It's just a followup to what the Chairman was asking about a 
little bit.
    In terms of your overseas operation or your downrange 
operations, particularly with regard to ISR, have you seen any 
kind of a degradation with either regard to the cyber 
capabilities or your space capabilities? Anything, in terms of 
the items there that you would like to address or that you see 
as threats to our capabilities, that we should be aware of, in 
terms of things that impact your ability to deliver?
    General Allyn. Well, I think we have to be careful, in 
terms of, you know, just how much we can talk about, there is--
    Senator Rounds. If a simple ``yes'' is there, then--
    General Allyn. There is risk out there in that domain.
    Admiral Howard. Senator, I'm sure you're aware, for the 
Navy, we had, a year and a half ago, multiple simultaneous 
intrusions into our network. So, that really, I think, raised 
our awareness and our focus on defending our networks and 
making sure we mitigate risk in this domain.
    Senator Rounds. Impacted you overseas.
    Admiral Howard. It was simultaneous, and several different 
organizations.
    Senator Rounds. Thank you.
    General Paxton. Yes, sir, there is risk. There has been 
intrusion and threat. We need both the policies and the monies 
to do the training to combat that, sir.
    Senator Rounds. Thank you.
    General Spencer. Senator, I agree, and would offer that we 
could--any of us, certainly the Air Force, would like to come 
and brief you, sort of, one on one, if we could.
    Senator Rounds. Thank you.
    Senator Ayotte. Senator Shaheen.
    Senator Shaheen. Thank you, Madam Chair.
    Thank you all very much for your service and for being here 
today.
    I know this--I don't think the Chair has asked this 
question, though I know she's very interested in it, as well. 
One of the things that I have heard from folks at the 
Portsmouth Naval Shipyard, which, of course, is one of the 
shipyards that we're very interested in, is that if 
sequestration returns, the ability to attract the workers that 
we need for the shipyard is going to be compromised. Right now, 
they're in the process of hiring 700 people. We're seeing a 
whole generation of engineers, technicians, people who have 
real expertise at the shipyard who are retiring. If--can you 
just talk about what the potential challenges are, if 
sequestration returns in 2016, to being able to attract the 
workforce we need to fill our public shipyards?
    Admiral Howard. Yes, ma'am. So, when I was down at fleet--
this is anecdotal, but--as we sequestered and then we had a 
hiring freeze, and then we ended up furloughing different 
folks, we found, in some areas, that folks who had sufficient 
years decided to retire early, that the potential of not having 
a full year of employment, year to year, was enough for them to 
rethink.
    So, for us, if that happens again and then we have to 
reduce maintenance contracts or make similar tough choices, in 
particular for our shipyards, we have that--a demographic, 
where we have an older cohort that's a substantial part of the 
workforce that might make that decision.
    The next thing is, for the folks who stay, there becomes 
doubt as to--and a lack of trust as to whether they are going 
to have a full year's worth of employment. It's not just the 
pay. There is that component, because they have to support 
their families.
    Senator Shaheen. Right.
    Admiral Howard. But, it's also, they take a lot of pride in 
who they are and what they do as helping generate forces for 
our Navy or as public servants in other areas.
    Senator Shaheen. Is this something that the rest of you are 
seeing in a different way as you're trying to recruit folks?
    General Allyn. Well, I think, ma'am, the impact of the 
furlough across our civilian workers was devastating. It gets 
at this issue of erosion of trust. We've got incredibly 
dedicated workforce, in uniform and in civilian workforce. But, 
there is a limit to, you know, how many times we can keep going 
back and asking them to hang in there with us. We have seen a 
similar case, where some of them that were retirement-eligible 
or could take an early retirement option decided, ``You know, 
this has been a great run. I love serving in the Army, but I'm 
not sure the Army loves me as much as I love it.'' That's a 
terrible feeling for us, who take this on as a profession.
    General Paxton. Senator Shaheen, if I may, just as a 
overview of our civilian workforce, most of us are pretty lean 
in the civilian workforce. Between mil-to-civ conversions and 
then outsourcing and contractors, our civilian workforce has 
been getting smaller and smaller. The furlough and the BCA caps 
had a disproportionate effect on our civilian workforce. So, 
there is a sense of an erosion of trust and confidence, and 
they're really valuable members of the team. When the 
Commandant testified in front of the full committee several 
weeks ago, he said that, in the Marine Corps' case, only 1 in 
10 in civilian workers, civilian in military is the workforce--
over 90 percent of them work outside of the national capital 
region. So, there's this perception there that maybe the 
headquarters are bloated and there's a lot in Washington. Now, 
they're actually tooth and not tail, and they're actually out 
there doing important things for the service and for the 
Nation.
    The anecdotal story that I bring up is, I went down our 
depot in Albany, Georgia, about a year ago, and this was in the 
aftermath of the furlough. We had worked very hard to keep 
folks there. Some of these folks are working in a very small 
county, a very rural county. The other two or three industries 
in the county, a rubber and tire plant and a golf plant, had 
left. So, the only viable workforce in--major in the area now, 
is--there's one health system and then there's the Marine 
Logistics Depot. When we started to furlough people, there was 
no other place for them to go. Many of them were working on 
equipment where they needed a security clearance. As they went 
from payday to payday without a security clearance, they were 
deathly worried that the creditors would come after them; and 
then, the minute the creditor came after them, even if it was a 
delayed payment in a home mortgage, that would affect their 
clearance, so that, even when the furlough was relieved, we 
couldn't hire them back because then they'd be flagged as a 
security risk. So, there's this horrible downward spiral when 
that happens.
    Thank you.
    Senator Shaheen. Thank you.
    General Spencer. Senator, we have a similar story. We also 
have 96 percent of our civilians that work outside of the 
national capital region, so at our training bases, for example, 
where we train pilots to fly, the entire flight-line 
maintenance operation are civilians, the whole unit. So, if you 
think about the Air Force--as an example, when we sequestered, 
last--or a year and a half or so ago, we stopped flying 
airplanes, we actually put airplanes down, which meant now 
pilots can't train, so they lose their certification over time, 
maintenance folks have nothing to work on, and airplanes--I 
happen to have a '72 Monte Carlo at home, and if you don't 
start that thing about once a week and drive it, it's not any 
good. Airplane--you have to fly airplanes to have them 
efficient.
    So, we had airplanes sitting down. Now they're not going to 
the depot. Now you've got this stackup. You've got--don't have 
airplanes available. As you know, it's going to take X number 
of days to get an airplane through the depot. So, now they back 
up. So, it's not like if sequestration is suddenly lifted, you 
know, everything works well. No. You've got this backlog that 
you have to now push through a funnel.
    The final thing I'll mentioned, that General Paxton touched 
on, is my son, who works for the government--he's a computer 
science guy--he--when we furloughed him, he--and this is 
similar to what I heard from a lot of other civilians--he was 
really frustrated, because--he said, ``I can go work somewhere 
else and make more money. I want to be a part of the 
government.'' But, he said, ``If they're going to--I've got a 
family. And I''--you know, two of my grandkids--``and if every 
time there's budget dispute, they lay me off,'' he said, ``I 
don't know if I could do that for the long term.'' So, it had--
it took a real toll.
    Senator Shaheen. I very much appreciate what you all are 
saying. I think it's an important reminder for those who say, 
``Well, you know, we exempted uniformed personnel, and so it 
didn't have the kind of impact,'' that all of you are pointing 
out that it really did. Hopefully, we will act with more sanity 
in this budget cycle.
    Thank you all very much.
    Senator Ayotte. I just have a couple of follow-ups, but, 
since I have my colleague, Senator Shaheen, here, I know she'd 
want me to follow this one up with General Spencer.
    Just wanted to check in on the KC-46As delivery to Pease in 
2018. I know there were a couple of testing delays, but are 
things looking pretty good, on track?
    General Spencer. Yes, Madam Chair. We're on track. As you 
know, we had a couple of concerns, but we are still on track. 
We had some slack built in. Some of--a lot of that slack's been 
taken up now. But, as we stand today, we're still on track. We 
still feel good about the schedule.
    Senator Ayotte. Excellent. Appreciate that. We appreciated 
General Welsh's recent visit to Pease, as well. That was 
terrific, and I know it meant a lot to those in our Guard and 
those that are part of the 157th Air Refueling Wing. So, please 
pass our gratitude on.
    Senator Shaheen. Thank you, Madam Chair. We like to tag 
team on this issue whenever possible.
    [Laughter.]
    Senator Ayotte. I just have a couple of follow-up 
questions.
    One, General Spencer, I had a question about the joint 
terminal attack controller (JTAC) training, because recently it 
was brought to our attention, a memo that was dated February 
25th, 2014, signed by the Commander of the 18th Air Support 
Operations Group, ASOG, Commander. The memo relates to JTAC 
training. The issue raised in the memo are problems with ground 
force commander coordination, airspace deconfliction, and nine 
line errors. The Commander also writes that an increasing lack 
of live-fly close air support (CAS) training opportunities and 
funds for temporary duties (TDYs) have eroded overall JTAC 
proficiency across the 18 ASOG. The Commander notes that 
continued decrease in the amount of live-fly CAS controls 
available to unit JTACs; and to the credit of the Commander, he 
intends to offset that decline with using simulators. So, can 
you give me a sense of what's happening with the JTAC training, 
and especially live-fly CAS training, and where we are with 
that, and just an update on how the JTAC training is going?
    General Spencer. Yeah. First, Madam Chair, I have to 
apologize. I haven't seen that letter, so I would like to go 
back and take a look at it and give you a more--give you a 
better response--
    Senator Ayotte. Sure.
    General Spencer.--so I can get the specifics. I'm actually 
going down to Pope Air Force Base on Monday to talk to some of 
our--
    Senator Ayotte. Okay. Well--
    General Spencer.--JTACs--
    Senator Ayotte.--we're happy to get it for you, and we'll 
be happy--
    General Spencer. Okay. So, if--
    Senator Ayotte.--if you want to take it for the record and 
get back--
    General Spencer. So, if I could, I would like to give you--
    Senator Ayotte. Absolutely.
    General Spencer.--make sure I give you a good response on 
that.
    [The information referred to follows:]

            joint terminal attack controller (jtac) training
    Question. I just have a couple of follow-up questions. One, General 
Spencer, I had a question about JTAC training because recently, it was 
brought to our attention a memo that was dated February 25, 2014, 
signed by the commander of the 18th Air Support Operations Group, ASOG 
Commander, and the memo relates to JTAC training. The issues raised in 
the memo are problems with ground force commander coordination airspace 
deconfliction and nine line errors, and the commander also writes that 
an increasing lack of live fly CAS training opportunities and funds for 
T.D.Y. have eroded overall JTAC proficiency across the 18 ASOG. The 
commander notes that continued decrease in the amount of live fly CAS 
controls (available unit) JTAC, and to the credit of the commander, he 
intends to offset that decline with using simulators. So can you give 
me a sense of what's happening with the JTAC training especially live 
fly CAS training and where we are with that and just an update on how 
the JTAC training is going.
    Answer. The 18th Air Support Operations Group (18 ASOG) is trained, 
combat mission ready and has certified personnel deployed down range. 
Regarding JTAC training, while we anticipate simulation to become a 
more significant element of our overall training program, we recognize 
that live-fly training will remain an essential tool for our overall 
combat readiness. By design, the actual amount of live-fly close air 
support controls for JTACs is planned to steadily decline over the 
years and transition to a more balanced combination of live-fly events 
and simulators. The Air Force is a contributing member of the Joint 
Staff J6 led Joint Fire Support Executive Steering Committee (JFS ESC). 
The JFS ESC produces an Action Plan which focuses analytical efforts 
and solution recommendations to assist Services and Combatant Commands 
in providing enhanced, jointly integrated, interoperable and cost 
efficient JFS capabilities to the warfighter. We collaborated with the 
JFS ESC to develop and field a Joint Terminal Control Training and 
Rehearsal System that provides a realistic, modular, upgradeable and 
scalable Joint Combat Air Support training / rehearsal simulation 
system. Simulation is already becoming a fundamental part of JTAC 
training. In fact, simulation is better than live-fly training in many 
areas. For example, simulation can permit more complex mission 
scenarios with more simulated aircraft involved resulting in a 
significant cost savings. The 18 ASOG is scheduled to receive a JTAC 
Dome simulator in the summer of 2015.

    Senator Ayotte. No problem. Appreciate that very much.
    The other question that I had for you was, you know, about 
what's happening at Nellis. Can you confirm for me whether the 
Air Force has made a decision to close the A-10 Division at 422 
Test and Evaluation Squadron at Nellis? If so--I mean, yes or 
no. I don't know if you're making that decision or where things 
are.
    General Spencer. Yeah, that--again, I'm a deer in the 
headlights on that one, as well. You--close the squadron?
    Senator Ayotte. Yes.
    General Spencer. No, I--again, I'll have to follow up with 
that, because I--
    Senator Ayotte. Then why don't I give you a follow-up 
question--
    General Spencer. Okay.
    Senator Ayotte.--on that one, too.
    General Spencer. Okay.
    Senator Ayotte. That's pretty specific.
    [The information referred to follows:]

                      a-10 squadron at nellis afb
    Question. The other question that I had for you was you know about 
what's happening at Nellis, can you confirm for me whether the Air 
Force has made a decision to close the A-10 division at 422nd Tests and 
Evaluation Squadron at Nellis. If so, it would be yes or no, I don't 
know, if you're making that decision or where things are.
    Answer. Yes. The FY16 PB divests the A-10 division at the 422nd 
Tests and Evaluation Squadron in fiscal year 2016. However, because of 
the prohibition on the divestiture of A-10s contained in the fiscal 
year 2015 NDAA, the Air Force will not be divesting A-10s at Nellis AFB 
at this time.

    Senator Ayotte. I wanted to thank you, Admiral Howard. You 
and I talked about this when we met in person, and that is on 
the maintenance projects at the Portsmouth Naval Shipyard. 
Frankly, you know, I want to commend the Navy for meeting and 
exceeding its capital investment requirements across all the 
shipyards. The thing that you and I talked about was the P-266 
project at Portsmouth. I know I was very happy with your 
answer, and you're very focused on seeing that go forward. So, 
thank you for that.
    Admiral Howard. Yes, ma'am. Thank you.
    Senator Ayotte. Terrific.
    Not to keep you all too much longer, but there was one 
question that I just wanted to follow up since I had you all 
here, because I think it's important. You know, we spent a lot 
of last year talking about how are we going to address sexual 
assaults in the military. Having all of you here today, I think 
I'd be remiss if I didn't ask you how things were going, where 
is the status of--what's the status of the legislation that we 
passed, and how do you perceive the implementation of that 
legislation in your branches, and--give us an update on how 
things are going and where you see we can help some more.
    General Allyn. I'll start, Madam Chair.
    First of all, we have made significant headway in 
eliminating the threat and the presence of sexual assault and 
sexual harassment in the military. Most promising is that 
reporting is up. Our soldiers are reporting over 90-percent 
confidence that, if they report an incident, that the chain of 
command is going to take the right actions, both to protect the 
person that is--has been assaulted, as well as to ensure 
accountability of those who perpetrate the alleged assault.
    So, we are continuing a rising level of reporting. We are 
seeing a reduction in the incidences of assaults. Both 
promising. But, we still have work to do, particularly in 
eliminating the risk and the perception of retaliation by our 
soldiers inside our formations. So, our sergeant major of the 
Army has initiated an effort called ``Not in My Squad,'' 
because the confidence level that we see at the battalion level 
and above is very high, but the incidents are occurring at the 
company level and below. So, he is bringing forward a group of 
staff sergeants from across our total force to get their input 
on how do we improve both ownership of resolving this threat to 
our trust and our dignity and respect in our formation, and 
accountability to ensure that every soldier, every leader, is 
doing everything they can, not only to prevent these acts, but 
to prevent even the perception of any--retaliation of any type.
    We talked a bit ago about social media and the impact that 
that has. What we're seeing is, the most significant level, and 
the hardest to defeat, is the retaliation--the social 
retaliation by peers and others that's occurring in social 
media. So, we are arming our leaders with the tools that they 
need and the training to understand how to attack this part of 
the spectrum that is somewhat new to most of us, but, 
unfortunately, not new to our soldiers.
    Admiral Howard. Thank you, Senator.
    I'd like to, if I may, refer some of this to the report, 
but some of it to the conversations I've had with our sailors 
as I've traveled as Vice Chief. So, when I do my all-hands 
calls, I talk about this issue, about the RAND survey, and then 
ask them for their thoughts. Then, in particular, in San Diego, 
I was able to sit down with a group of 40 women who represent 
all the different communities on our ships, from commanding 
officers to the medical officers to engineers.
    The--from the RAND survey, we understand that prevalence 
has decreased for both men and women. But, you asked, more 
specifically, what changes have we made, some of it based on 
law, that really has made a difference. The feedback I'm 
getting, which seems to be buttressed by the results of the 
survey, is, first of all, having Naval Criminal Investigative 
Service (NCIS) be the first one on scene to investigate sexual 
assault seems to be bring an objectivity to the whole process. 
So, that is an important change that--you know, I think all of 
the services are committed to professional investigation when 
there's an incident.
    The--in our case, bringing in victim legal counsel--this is 
the person who's the--who helps the victim through the 
process--that person is making a big difference for our sailors 
and their trust in the--
    Senator Ayotte. That's music to my ears, because that was 
my piece, and I'm glad to hear that.
    Admiral Howard. I actually just sat down with one of our 
first Victim's Legal Counsels. She's in Rota, Spain. She talked 
a lot about both her and the Sexual Assault Response 
Coordinator (SARC) and what their presence meant to the Victims 
throughout the process.
    The other is, for the--for us--for the training, the 
bystander intervention. I've heard from our sailors, both men 
and women, and then it bears out in the metrics, that this 
training that we put together, the scenario-based training, 
really felt--empowered them to be able to take care of their 
shipmates. Then, when you look at the results of the RAND 
survey, that when our sailors saw something, nine out of ten of 
them took action. The training works. They understand the 
importance of taking care of shipmates, whether, when you see 
something, you go to help your shipmate, you help your shipmate 
make a report through another process, or you report it 
yourself. When I've spoken, particularly to the women, they say 
the training is very effective, but that the results are even 
more impressive. So, thank you for all of that.
    General Paxton. Thank you, Madam Chair.
    I would echo--and I think the Secretary of Defense was on 
record as saying--in the subject of Sexual Assault Prevention 
and Response (SAPR), we have had almost unprecedented focus and 
significant success and accomplishments. We're not, as General 
Allyn said, anywhere near where we want to be, need to be, 
should be, but we're going to continue the focus. In the case 
of the Marine Corps, we've had almost 1,000 fewer documented 
cases of unwanted sexual contact. That's about a 30-percent 
reduction, so pretty significant.
    The two pieces to your specific question that I'd like to 
highlight, if I may, Senator--number one is, there's over 70 
pieces of legislation that have either been enacted or 
proposed, and it's going to take us a while to work with them. 
I would echo what the VCNO said. We have several documented 
cases where the victim's legal counsel office--or officer was a 
big help, both in comfort to the potential victim and then in 
the adjudication and the defense. But, we have also had cases, 
too, where we have now introduced a fourth lawyer into what was 
a three-lawyer equation, where you had a prosecutor, a 
defender, and a judge. You know much better than I, ma'am. But, 
we're going to have to work through that, because some of these 
cases will be challenged, and you would hate for the one out or 
the one each to perturb the goodness of the whole system.
    The last piece, if I may, Senator, is just to highlight the 
centrality and the criticality of the commander in all this. 
We're very appreciative of the work by the committee to keep 
the commander involved. Because whether it comes to bystander 
intervention, NCO leadership, legal accountability, you have to 
have the commander there.
    So, thank you.
    General Spencer. Madam Chair, similarly, we--because we all 
work together on this problem to share lessons learned, and 
working together to try to solve this problem. It's similar, 
the Air Force. Our prevalence is down by 25 percent, our 
reporting is up by 61 percent. So, we think that's all in the 
right direction. We've done a lot of work, as you know, through 
special victim's counsel, things to make sure victims are taken 
care of, make sure that commanders have the tools they need to 
prosecute if someone is found guilty.
    Our big push right now is on prevention, preventing this 
from happening in the first place. So, we've done several 
things. About a month ago, we had a Sexual Assault Prevention 
Summit. We brought in everyone from E1 all the way up to wing 
commanders. We brought in experts around the country, brought 
in the Center for Disease Control. We spent a whole week diving 
into this issue. The good news was, the answer was yes, you can 
prevent it, but it takes a lot of study, a lot of understanding 
the crime and to have things that specifically get at it.
    Just two weeks ago, I was down in North Carolina, in the 
Research Triangle. I met with folks from University of North 
Carolina and from Duke who are also working on this crime in 
their colleges--local colleges--have a lot of great ideas. 
We're partnering with them. In fact, they're on their way now 
to Sheppard Air Force Base to work with some of our trainees 
there. So, we're--this is something--I can promise you, this is 
something I--we all work on. I know I work on it every day. 
We're not going to stop until this is fixed.
    Senator Ayotte. Thank you. We're not going to stop, either. 
So, you know, I think this is something we--we did tremendous 
pieces of legislation and worked on this collectively in a 
bipartisan fashion in the last Congress. Now you've got, as 
General Paxton really pointed out, a lot of implementation of--
you know, to get this right. I really appreciate what I hear 
most from all four of you, which is understanding the 
importance of this and the commitment that we need, you know, 
every day to get this right, and to work together on it. So, I 
appreciate your giving me an update on that. I look forward to 
continuing to work with you, all of you, on this issue.
    Thank you all for being here today and for what you do for 
the country.

    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Kelly Ayotte
                              hollow army
    1. Senator Ayotte. General Allyn, what does a hollow Army look 
like?
    General Allyn. A hollow Army is characterized by prolonged and 
disproportionate investments across manpower, operations and 
maintenance, modernization, and procurement without corresponding 
adjustments to strategy. If we have too little of anyone of these, the 
Army won't be ready when called upon.
    Specifically, a hollow Army is one that appears capable on the 
surface, but is unable to adequately meet national objectives without 
assuming an extremely high amount of risk. We accept a greater 
likelihood of forfeiting the decisive edge we expect our Soldiers to 
retain when we face an adversary in combat . . . we create an 
opportunity for adversaries to experience a ``fair fight,'' which we 
should never permit given our National capacity.
    2. Senator Ayotte. General Allyn, what warning signs should we look 
for when we are coming dangerously close to a hollow Army?
    General Allyn. A hollow Army is characterized by prolonged and 
disproportionate investments across manpower, operations and 
maintenance, modernization, and procurement without corresponding 
adjustments to strategy.
    By this measure, the Army is not hollow. However, we are beginning 
to see the warning signs. The Army today is able to produce only enough 
readiness to meet requirements--and we can only achieve this because of 
the extra funding made available by the Bipartisan Budget Act (BBA). 
The result has been a steady erosion of readiness across the force. 
Underfunding readiness not only reduces training, but the maintenance 
of our equipment as well. This is evidenced by a gradual decrease in 
equipment readiness. Because we are underfunding modernization, we risk 
our qualitative edge. Our equipment has continued to age, becoming less 
reliable and less survivable as the technological sophistication of our 
adversaries is increased. Finally, the underfunding of our 
installations impacts Soldier and Family quality of life and 
ultimately, retention. We've consistently deferred critical 
sustainment, restoration, and modernization projects, creating 
substandard living conditions on many of our bases. If sequestration 
levels of funding continue, we will have a hard time maintaining the 
balance between manpower, readiness, and modernization. That is a 
template for a hollow force.
    3. Senator Ayotte. General Allyn, would a return of defense 
sequestration in fiscal year 2016 result in a hollow Army?
    General Allyn. Not immediately, but the necessary actions to meet 
sequestration level funding requirements would keep the Army out of 
balance in terms of manpower, operations and maintenance, 
modernization, and procurement for several years--until at least fiscal 
year 2023. Without a major change in national strategy to account for a 
smaller force with reduced capability, the Army will likely experience 
a period where it is indeed hollow.
                         marine corps readiness
    4. Senator Ayotte. General Paxton, in your prepared statement, you 
writes that ``approximately half of the Marine Corps' home station 
units are at an unacceptable level of readiness in their ability to 
execute wartime missions, respond to unexpected crises, and surge for 
major contingencies.'' What are the primary reasons for this reduced 
readiness?
    General Paxton. Resource shortfalls in available personnel and 
needed equipment at the unit level remain the principal detractors to 
achieving the level of readiness home station units need to execute 
wartime missions, respond to unexpected crises, and surge for major 
contingencies. The Marine Corps' principal concern going forward is the 
recovery of full spectrum readiness of our home station units and the 
reconstitution of the whole-of-force after over a decade of 
unprecedented sustained conflict.
    The Marine Corps excels at meeting current operational requirements 
in support of the geographic combatant commanders. To maintain the high 
readiness of our forward deployed and forward engaged units, we 
globally source personnel and equipment from our home station units--
the ready force. Ultimately, readiness comes at a cost and the high 
readiness of our forward deployed and forward engaged forces comes at 
the expense of our home station units' readiness.
    Further compounding the recovery of full spectrum readiness for 
home station units is the paucity of available amphibious shipping 
essential to unit level training. Although Service-level training is 
protected through the future years defense plan, home station training 
enablers (primarily simulation systems and ranges, and operationally 
available amphibious ships) will steadily degrade due to inadequate 
sustainment, recapitalization, and modernization. Without appropriate 
funding, lower equipment maintenance levels will begin to quickly 
degrade those essential equipment pools, leading to degradation in 
training and readiness. Any reduction in amphibious ship maintenance 
will directly limit operationally available amphibious warships and 
erode readiness. Eventually, the equipment needed at home station will 
wear out; when it does, our Marines will lose associated training and 
therefore the proficiency necessary to keep these units ready to 
respond. Budget Control Act funding levels may force the Marine Corps 
to choose between having its home station units being either well-
equipped or well-trained. Training home station units to standard is 
necessary since these units constitute the ready force that would 
immediately respond to unforeseen crises or major contingencies.
    5. Senator Ayotte. General Paxton, which type of Marine units are 
having the most readiness challenges?
    General Paxton. Approximately half of Marine Corps' home station 
units are insufficiently resourced to achieve those readiness levels 
needed to execute wartime missions, respond to unexpected crises, and 
surge for major contingencies. Using Marine aviation as an example in 
this era of fiscal austerity, Marine Corps operational requirements 
have increased while the overall number of Marine aircraft for tasking 
and training has decreased. Approximately 80 percent of Marine aviation 
lack the minimum required Ready Basic Aircraft to train to the minimum 
readiness levels. Lack of procurement (future readiness) and aging 
legacy aircraft negatively impact aircraft availability for training 
and meeting operational demands. A significant training and warfighting 
requirement gap of RBA exists. Shallow procurement ramps (not buying 
aircraft fast enough) directly increase both the cost and complexity of 
maintaining legacy systems beyond their projected life. Marine aviation 
is 106 aircraft short of the training requirement or 158 aircraft (10-
squadron equivalent) short of the wartime formations. Out of 52 fully 
operational capable squadrons, 13 are deployed and 8 are preparing to 
deploy. Of the remaining 31 squadrons, 22 are below the minimum 
training level required to go to combat in the event of a contingency. 
The majority of the aircraft deficit is caused by insufficient aviation 
depot repair capacity and throughput. Our aviation depots have not 
fully recovered from the turmoil caused by the last sequester. Marine 
aviation is not sufficiently ready now; another sequester would prevent 
any opportunity to recover readiness.
    6. Senator Ayotte. General Paxton, how can Congress best help with 
these readiness challenges?
    General Paxton. The Marine Corps' current resource level represents 
the bare minimum at which it can meet the current Defense Strategic 
Guidance. This budget allows the Marine Corps to protect near-term 
readiness, but does so at the expense of long-term modernization and 
infrastructure, threatening an imbalance across the five Pillars of 
Readiness--high quality people, unit readiness, capacity to meet 
commanders' requirements, infrastructure sustainment, and equipment 
modernization. An extended imbalance among the Pillars leads to 
conditions that could hollow the force and create unacceptable risk for 
our national defense.
    Congress' continued support, and specifically support of the fiscal 
year 2016 President's Budget request, will be critical to ensuring our 
ability to fulfill our commitments as outlined in the Defense Strategic 
Guidance. Further, an end to both the threat of a sequester and to the 
caps imposed by the Budget Control Act would allow the Marine Corps to 
begin to address some of the readiness imbalances and would introduce 
much-needed budget stability to allow for effective long range 
planning.
                           optimal army size
    7. Senator Ayotte. General Allyn, setting aside the budget-driven 
Army endstrength reduction currently being implemented, based on 
combatant commander requirements, what size of an Army do we really 
need? Active Component? Guard? Reserve?
    General Allyn. Assuming our planning assumptions are correct, the 
minimum end strength the Army requires to fully execute the 2012 
Defense Strategic Guidance (DSG), and answer the current demands of the 
Combatant Commanders is 980,000 Soldiers, including 450,000 in the 
Active Army, 335,000 in the Army National Guard, and 195,000 in the 
Army Reserve. At these levels, all three components will be smaller 
than the pre-2001 force.
    However, much like the Chief of Staff and the Secretary, I am 
concerned that our 2012 DSG assumptions may prove to be incorrect. The 
2012 DSG makes a number of optimistic assumptions regarding the number, 
duration, location, and size of future conflicts. Today, we see 
requirements and operational environments that were not forecasted in 
the 2012 DSG. These include Russian aggression in Europe, the rise of 
ISIL, and the rapidly changing security environment in Eastern Asia. 
All of these developments challenge our assumptions and elevate our 
strategic risk. It is my military judgment that, based on increasing 
world instability, we should reconsider currently programmed reductions 
in Army endstrength.
                         impacts of budget cuts
    8. Senator Ayotte. General Allyn, Admiral Howard, General Paxton, 
and General Spencer, please describe how defense sequestration, 
combined with continuing resolutions, have had a lasting and negative 
impact on your Service's readiness.
    General Allyn. The readiness of the Army today is insufficient to 
support the national security objectives outlined in the guiding 
strategic documents and specified within Combatant Commander 
operational plans. Reduced funding coupled with sustained demand for 
Army forces results in fewer Army units available for contingency 
response and at lower levels of readiness. The specific readiness 
levels of units and the ability of the Army to execute its Title 10 
requirements are classified; however, the causes and implications of 
the Army's degraded readiness are clear--over a decade of focus on 
counterinsurgency operations jeopardizes the Army's assured dominance 
to conduct Decisive Action in support of Unified Land Operations (DA/
ULO). This degraded ability to provide sufficient ready forces to 
achieve those objectives outlined by the President has resulted in 
increased risk for the Nation.
    Army readiness is approaching a tipping point. The combined effects 
of the Budget Control Act of 2011 (BCA), fiscal and end-strength 
reductions, and over a decade of conflict have suppressed the Army's 
ability to build readiness across our formations. While the Bipartisan 
Budget Act of 2013 (BBA) provided additional readiness funding, 
continued improvement requires multi-year consistent and predictable 
funding designed to build Army readiness beyond counter-insurgency 
towards decisive action in support of unified land operations. 
Sequestration will not provide sufficient funding to man, equip, 
sustain, and train units to the appropriate readiness levels and places 
our Soldiers at risk when responding to unforecasted contingency 
operations. The use of continuing resolutions wreak havoc on Army 
readiness, modernization, and manpower. It makes long term planning 
difficult. As a result, we are forced to train sporadically, and the 
materiel and equipment we buy costs more and takes longer to acquire.
    Admiral Howard. Sequestration, the Continuing Resolution in fiscal 
year 2013, and a decade of combat operations have created maintenance 
backlogs that have prevented us from getting ships back to the Fleet on 
time and aircraft back on the flight line. We continue our efforts to 
rebuild the workforce in our public depots--both at shipyards and 
aviation Fleet Readiness Centers--and reduce the number of lost 
operational days, but it will take years to fully recover our 
readiness.
    General Paxton. For the last few years the Department of Defense, 
along with all other federal departments and agencies, has had to 
operate in an uncertain fiscal environment shaped by sequestration 
threats, BCA caps, and the near certainty of starting every fiscal year 
under a continuing resolution. Against this chaotic background the 
Marine Corps has been forced to make extremely difficult fiscal 
decisions that directly impact day-to-day operations. The recent budget 
cuts and the looming threat of sequestration have been particularly 
difficult to absorb. Today, approximately half of the Marine Corps' 
home station units are at an unacceptable level of readiness. 
Investment in the future is less than what is required, and 
infrastructure sustainment is budgeted below the Department of Defense 
standard. The Marine Corps has significantly reduced many of the 
programs that have helped to maintain morale and family readiness 
through over a decade of war. Additionally, the deployment-to-dwell 
ratio is being maintained at a very challenging level. The operating 
forces are deploying for up to 7 months and returning home for 14 or 
less months before redeploying. These are some of the damages to date 
caused by sequestration and lower funding levels.
    The fiscal year 2016 President's Budget is the bare bones budget 
for the Marine Corps that can meet the current Defense Strategic 
Guidance. The budget prioritizes near-term readiness at the expense of 
modernization and facilities. Another round of sequestration would 
force the Marine Corps to significantly degrade the readiness of our 
home station units, which is the Marine Corps' ready force to respond 
to crises or major combat operations. The fiscal challenges we face 
today will be further exacerbated by assuming even more risk in long-
term modernization and infrastructure in order to maintain ready forces 
forward. This is not sustainable and degrades our capacity as the 
Nation's force-in-readiness.
    Annual continuing resolutions, some lasting several months, will 
further complicate these concerns. The delay in receipt of funds, 
combined with the uncertainty over when and how much will finally be 
appropriated, can wreak havoc on contract award timelines and our 
participation in training exercises, and put us at risk of accruing 
additional costs in the long run. Furthermore, because CRs only fund 
agencies at prior year levels, critical programs may not be sustained.
    General Spencer. The Air Force has sought to protect readiness 
accounts under sequestration. Despite that, fiscal year 2013 
sequestration has had a long-lasting negative impact on Air Force 
readiness. Prior to April of 2013, readiness levels were already low, 
predominantly due to constant global demand combined with a 20+ year 
steady decline in force structure. In 2013, as a result of 
sequestration, we were forced to ground 31 flying squadrons, cancel 8 
exercises, and significantly curtail 8 more. Additionally, maintenance, 
repair, and upgrades to operational training ranges had to be deferred, 
degrading our ability to support high-end combat training. 
Individually, the training and professional development lost as a 
result of sequestration can never be recovered. Institutionally, it has 
taken 2 years to recover readiness to a point where still less than 
half of our fighter and bomber squadrons are full-spectrum ready. This 
is well short of Defense Strategic Guidance requirements. Restored 
funding will assist in re-building readiness, but the Air Force will 
also need relief from the current ops tempo and time to regain 
capabilities lost as a result of sequestration.
    9. Senator Ayotte. General Allyn, Admiral Howard, General Paxton, 
and General Spencer, if defense sequestration returns in fiscal year 
2016, can we expect the negative readiness effects to last for many 
years?
    General Allyn. Yes. If sequestration levels of funding continue, 
the Army will be out of balance until at least fiscal year 2023 and 
will require at least 3 years thereafter to return to a state of full 
readiness, albeit with a much smaller Army.
    Admiral Howard. Yes. Under sequestration there is no path to full 
readiness recovery to execute the required missions of the Defense 
Strategic Guidance (DSG). A return to sequestration in fiscal year 2016 
would necessitate a revisit and revision of the defense strategy. The 
required cuts would force us to further delay critical warfighting 
capabilities, reduce readiness of forces needed for contingency 
responses, further downsize weapons capacity, and forego or stretch 
procurement of force structure as a last resort. While sequestration 
has caused significant near-term impacts, a return to sequestration in 
fiscal year 2016 would create further serious problems that would 
manifest across the years and be difficult from which to recover.
    Assuming a stable budget and no major contingencies for the 
foreseeable future, I estimate that we will not recover from the 
maintenance backlogs until 2018 for Carrier Strike Groups and 
approximately 2020 for Amphibious Ready Groups. Sequestration would 
derail these readiness goals.
    General Paxton. Yes, the deleterious effects of another sequester 
would further compound the turmoil caused by the last sequester from 
which we still are trying to recover. We have yet to fully appreciate 
the cuts that have been made to date; however, sequestration has a 
chaotic effect on the force during a time of extraordinary challenges. 
Sequestration does not fund the optimally designed force of 186,800 
active component required to meet the strategy. Sequestration prevents 
the Marine Corps from generating ready forces to meet operational 
requirements now and into the future. Sequestration equates to less 
force capacity; we would not have what is needed to fight in a major 
war. Essentially, all operational units would be committed for the 
war's duration with no relief and we would have very little left for 
crises that would occur in other parts of the world. Home station unit 
readiness and investments in infrastructure and modernization will 
continue to suffer as limited resources are prioritized to protect the 
near-term readiness of deployed units in harm's way. A return to 
sequestration-level funding with a force of 175,000 active component 
would equate to high risk. At this lower resource level, our units that 
deploy to combat would not be as well trained and would be slower 
arriving. This means that it will take longer to achieve our objectives 
and the human cost would be higher. This is what we mean when we say 
high risk.
    General Spencer. Yes. Individually, the training and professional 
development that would be lost as a result of sequestration can never 
be recovered. Readiness growth takes time and resources, readiness 
develops momentum slowly. Additionally, readiness in a small force can 
be lost very quickly when time and resources are not available. 
Institutionally, under the Balanced Budget Act, it took 2 years to 
recover readiness to a point somewhere near the pre-sequester level. 
Even so, still less than half of our fighter and bomber squadrons are 
currently full-spectrum ready. We can expect the same or worse for the 
foreseeable future if sequestration returns.
    10. Senator Ayotte. General Allyn, Admiral Howard, General Paxton, 
and General Spencer, how long will it take to recover?
    General Allyn. Under sequestration, the Army will not be able to 
bring its manpower, operations and maintenance, modernization, and 
procurement expenditures into balance until at least fiscal year 2023 
and will require at least an additional 3 years thereafter to return to 
full readiness. Meeting Combatant Commander requirements will force 
tough decisions about how much ``surge capacity'' we retain, and how 
little dwell time between deployments our units continue to absorb. 
Increased demands from Combatant Commanders will elevate stress on the 
force and the risk to meet contingency response requirements.
    Admiral Howard. The fiscal year 2016 Navy budget submission is 
designed to continue our readiness recovery, reset the force and 
restore our required contingency operations capacity by 2020 while 
continuing to provide a sustainable forward presence. However, under a 
return to sequestration in fiscal year 2016 and beyond, there is no 
path to full readiness recovery to execute the required missions of the 
Defense Strategic Guidance (DSG). A revision of the defense strategy 
will be necessary.
    General Paxton. We have yet to fully appreciate the cuts that have 
been made to date by sequestration. A return to BCA-level spending 
would further delay readiness recovery. Another sequester would 
exacerbate the fiscal challenges we already face today and force 
significant challenges upon the Marine Corps. The months-long sequester 
of 2013 adversely impacted the aviation depots leading to the release 
of artisans whose skills have not been replicated, leading to 
maintenance backlogs and today's degraded operational readiness. The 
specter of another sequester, especially one that is more than just 
months-long, would only lead to compounding the deleterious effects 
brought about by the 2013 sequester. The time needed to recover 
readiness would exponentially exceed the duration of sequestration, for 
an experienced and proficient generation does not grow overnight. 
Today, approximately half of Marine Corps' home station units are 
insufficiently resourced to achieve those readiness levels needed to 
execute wartime missions, respond to unexpected crises, and surge for 
major contingencies. There is no recovery under sequestration. It would 
take many years to recover readiness once sequestration ends.
    General Spencer. The Air Force's current plan calls for a recovery 
to 80 percent readiness by the end of 2023. However, this plan was 
contingent on full Presidential Budget (PB) 2016 funding, Overseas 
Contingency Operations funding moved to baseline, and a reduction of 
operations tempo to allow for a 1:4 deployment-to-dwell level. Recovery 
is likely to be delayed at least 5 years if sequestration returns in 
fiscal year 2016.
                             unfunded needs
    11. Senator Ayotte. General Allyn, Admiral Howard, General Paxton, 
and General Spencer, what is the greatest need for your Services in 
respect to rebuilding readiness?
    General Allyn. The Army's greatest need is budget certainty. 
Building proficient and ready units requires a well-synchronized 
training plan supported by available manpower and ready equipment. 
Without certainty in funding, it is impossible to fully develop and 
source a training plan beyond the short term. Further, a lack of budget 
certainty prevents the Army from developing a modernization plan 
because we are uncertain how much or how long funding will continue to 
enable fielding of modernized capability.
    Admiral Howard. Time and stable budgets are the most critical 
elements of Navy readiness recovery. A decade of combat operations and 
the resulting high operational tempo require a period of time for 
reset. With the additional impact of the Continuing Resolution and 
sequestration in fiscal year 2013, we have experienced significant 
delays. Further budget uncertainty will create additional setbacks to 
restoring our readiness.
    The fiscal year 2016 Navy budget submission is balanced to continue 
on a path towards readiness recovery while sustaining the most critical 
procurement and modernization necessary to achieve a ready Navy in the 
future. The Navy unfunded priority list forwarded by the Secretary of 
Defense reflects the additional procurement and modernization funding 
that would improve future readiness with respect to Navy's ability to 
execute the Defense Strategic Guidance. However, none of those 
requirements are a higher priority than the balanced approach offered 
in our fiscal year 2016 budget submission.
    General Paxton. The Marine Corps views rebuilding readiness through 
the lens of institutional readiness. Institutional readiness consists 
of five pillars: (1) Capability and Capacity to Meet Combatant 
Commander Requirements, (2) Unit Readiness, (3) High Quality People, 
(4) Infrastructure Sustainment, and (5) Equipment Modernization. 
Currently, institutional readiness is out of balance. Achieving and 
sustaining balance across these pillars now and into the future is 
essential to rebuilding readiness. Balanced institutional readiness 
leads to the whole-of-force reconstitution after over a decade of 
unprecedented sustain conflict to meet current and future requirements. 
A budget that supports required end strength and equipment 
recapitalization and modernization is an essential component leading to 
balanced institutional readiness.
    General Spencer. The Air Force needs both time and resources to 
rebuild readiness. Currently, time is our greatest need to recover 
readiness. However, time available to train (generate readiness) is 
severely limited by ongoing rotational deployments. The next 
significant limitation to readiness growth is skilled manpower for 
maintenance and operations. In short, after years of force reductions, 
we have a supply-demand mismatch. Two possible solutions exist: reduce 
the number/length of deployments to sustainable levels or increase the 
Air Force capacity to meet rotational demand to permit readiness 
growth. On the resource side, any defense authorization below PB levels 
will prevent full recovery of readiness.
    12. Senator Ayotte. General Allyn, Admiral Howard, General Paxton, 
and General Spencer, what additional necessary capability are you 
lacking in the fiscal year 2016 budget?
    General Allyn. The Army's unfunded priorities list was provided 
directly to Congress by the Department of Defense on March 27, 2015.
    Admiral Howard. PB-16 provides the minimum funding required to meet 
the missions articulated in the Defense Strategic Guidance and 
Quadrennial Defense Review. However, Navy had to accept risk in naval 
warfare systems' modernization, aircraft procurement, and air and 
missile defense capabilities to meet fiscal constraints. There are 
three warfare areas that could benefit from additional resources: 1) 
improve sensors and systems to defeat current and emerging air-to-air 
warfare and anti-ship cruise missile threats; 2) increase strike 
fighter, intelligence, surveillance and reconnaissance (ISR), and 
logistic aircraft capacity; and 3) improve undersea warfare sensors and 
fire control systems. A summary follows:
    <bullet>  Air-to-air Radio Frequency (RF) Kill Chain kits provide 
our aircraft the ability to counter sophisticated digital weapons and 
combat systems proliferated around the world today.
    <bullet>  Destroyer (DDG) combat system modernization will increase 
our capacity to meet Combatant Commander Ballistic Missile Defense 
(BMD) and Naval Integrated Fire Control-Counter Air (NIFC-CA) warfare 
needs (to defeat advanced missiles and strike/fighter aircraft).
    <bullet>  Surface Electronic Warfare Improvement Program (SEWIP 
Block II) will provide radar and communications signal intercept, and 
defeat anti-ship cruise missiles, enabling surface ships to operate in 
an anti-access environment.
    <bullet>  Submarine towed arrays are the most important sensors in 
our undersea warfare enterprise. Current inventory is inadequate to 
reliably meet global demand.
    <bullet>  Our legacy strike fighters (F/A-18A-D) are reaching end 
of life faster than planned due to use and wear. Improving the 
inventory of F/A-18F and F-35C aircraft will help reconcile a near term 
(2018-2020) strike fighter inventory capacity challenge, and longer 
term (2020-2035) strike fighter model balance within the carrier air 
wing.
    <bullet>  An additional MQ-4C (TRITON) would increase our capacity 
to respond to projected worldwide Combatant Commander ISR demand.
    <bullet>  C-40A aircraft fulfill a maritime logistics requirement, 
and provide short-notice high-priority cargo and passenger missions 
globally. Two additional aircraft will bring the fleet to the minimum 
wartime requirement of 17 aircraft to support execution of Combatant 
Commander operational plans.
    General Paxton. In addition to the fiscal year 2016 President's 
Budget request, the Department of Defense has submitted to Congress a 
consolidated list of the Services' unfunded priorities. The Marine 
Corps portion of this list totals $2.1 billion. Additional requirements 
include funding to enhance aviation readiness ($1.5 billion), funding 
for additional investments in critical training and weapon systems such 
as Networking on the Move, Javelin, and the Infantry Immersion Trainer 
($412 million), and for high-priority construction projects ($167 
million). These requirements do not supersede those laid out in the 
fiscal year 2016 President's Budget request.
    General Spencer. In the event congressional funding exceeds the 
level requested in the FY16 PB, the capabilities the Air Force would 
seek to acquire using the additional resources are identified in our 
fiscal year 2016 Unfunded Priorities List (UPL). Readiness is the 
highest priority on the UPL; this includes munitions, training, 
simulators, ranges, vehicle support, and equipment. The next priority 
is modifications for legacy fleets and programs supporting Combatant 
Commander requirements.
                       army brigade combat teams
    13. Senator Ayotte. General Allyn, if sequestration returns, what 
will specifically happen to the readiness of our Army Brigade Combat 
Teams?
    General Allyn. Sequestration will reduce the resources available 
for training and maintenance of units thereby reducing the readiness 
levels of our Brigade Combat Teams (BCTs). Under sequestration, the 
Army will struggle to maintain sufficient readiness to meet all of its 
current known requirements. The lack of funding and the need to 
dedicate resources to units filling current requirements will result in 
a degradation of readiness in every other unit, eliminating the Army's 
ability to rapidly respond to a contingency or other crisis. We will 
have fewer BCTs ready to respond to emerging crises and unforecasted 
demands.
    14. Senator Ayotte. General Allyn, General Odierno recently 
testified that ``The unrelenting budget impasse has also compelled us 
to degrade readiness to historically low levels. Today, only 33 percent 
of our brigades are ready, when our sustained readiness rate should be 
closer to 70 percent.'' What is the primary reason for this degraded 
readiness: insufficient training, manning, or poorly maintained 
equipment?
    General Allyn. Generally, four factors drive unit readiness: 
availability of Soldiers, availability of equipment; equipment 
serviceability; and unit training. Currently, Soldier availability and 
training are the leading factors of degraded readiness. The combined 
effects of sustained demand for Army capabilities, fiscal reductions, 
and the friction associated with re-organizing of Brigade Combat Teams 
(BCT) and the associated downsizing of the force, impact Soldier 
availability and the training time needed to restore proficiency. 
Unpredictable funding creates an additional, preventable level of risk 
to deliver ready forces.
    15. Senator Ayotte. General Allyn, if sequestration continues, what 
percent of units would have degraded readiness?
    General Allyn. If sequestration continues, the Army will only be 
able to build sufficient readiness to meet current known requirements. 
All other units will experience varying levels of degradation in 
readiness, ranging from significant to severe.
                    combat training center rotations
    16. Senator Ayotte. General Allyn, can you elaborate on how many 
Combat Training Center (CTC) rotations would be cut if sequester were 
to occur in fiscal year 2016?
    General Allyn. The Combat Training Centers (CTCs) continue to be 
our Army's premier training venue. If sequester occurs in fiscal year 
2016, the Army does not plan on cutting any of the scheduled rotations. 
The Army recognizes the value of a CTC rotation to a Brigade Combat 
Team not only in terms of maneuver training, but training in processes 
such as deployment, field maintenance, mission command, and leader 
development--training that cannot be accomplished at home station. As a 
result, the Army has elected to accept risk in home station training 
and readiness in order to preserve the ability to train these complex 
skills. However, the cuts imposed on home station training (HST) as a 
result of the sequester will result in many units arriving at the CTC 
in a degraded state of readiness--which means they will depart the CTC-
experience less ready than a fully resourced HST model delivers.
                        public shipyard workers
    17. Senator Ayotte. Admiral Howard, Admiral Greenert has testified 
that to address the workload to be completed in our public shipyards, 
the Navy will need to fund an additional workforce up to 33,500 Full 
Time Equivalent (FTEs) workers by fiscal year 2017. Secretary Sean 
Stackley stated that shipbuilding is critical to our security. If 
sequestration were to occur, how would that impact this Navy plan?
    Admiral Howard. If sequestration returns in fiscal year 2016, it 
will force deep cuts to the Navy Operation and Maintenance account, 
impacting our ability to hire the public shipyard workforce needed to 
properly maintain and modernize our existing fleet of nuclear powered 
aircraft carriers and submarines. The resulting shortfall in shipyard 
capacity would drive delays in maintenance completion, negatively 
impacting the readiness of our forces, particularly those needed for 
contingency response, and diminish the ability to achieve platform 
expected service life. Ultimately, this puts our ability to provide the 
forces to support Combatant Commander requirements at risk.
    It is also likely that continued sequestration would force us to 
forego or stretch procurement of ships and submarines. This would slow 
our progress toward achieving the 306-ship force required by the 2012 
Force Structure Assessment and driven by the Defense Strategic 
Guidance. In addition, the resulting disruptions in the ship design and 
construction phases would have significant consequences for the health 
and sustainment of the shipbuilding industrial base, which relies on 
stability and predictability to cost effectively build the future 
fleet.
    18. Senator Ayotte. Admiral Howard, how crucial are these new hires 
to the Navy's readiness recovery?
    Admiral Howard. Increasing the size of the workforce to meet the 
workload demand in the public shipyards is critical to ensure our ships 
and submarines receive required maintenance after many years of high 
operational tempo, achieve expected service life, and are modernized to 
keep pace with the evolving threat. Most of the work in the public 
shipyards involves nuclear-powered submarines and aircraft carriers, 
and there is very limited private sector capacity for this type of 
highly technical work. As a result, any shortfall in the public sector 
workforce capacity results in maintenance delays and deferrals, 
ultimately impacting Navy's ability to provide ready forces.
    19. Senator Ayotte. Admiral Howard, what is the work that will 
drive this demand?
    Admiral Howard. The increasing workload in the public shipyards on 
our nuclear-powered ships is driven by a combination of midlife 
availabilities on our legacy ship classes and the first docking 
availabilities on our newer ship classes. Those include Engineered 
Overhauls on Los Angeles Class submarines, Engineering Refueling 
Overhauls on Ohio Class submarines, Extended Docking Selected 
Restricted Availabilities on Virginia Class submarines, and Planned 
Incremental Availabilities (PIA) and Docking PIAs on Nimitz Class 
aircraft carriers. The volume of this anticipated work is a function of 
these regularly scheduled yard periods and the growth work that has 
accumulated as a function of a decade of high tempo combat operations.
    20. Senator Ayotte. Admiral Howard, which shipyards will require 
this additional workforce?
    Admiral Howard. All four public shipyards (Portsmouth, Norfolk, 
Puget Sound, and Pearl Harbor Naval Shipyards) require additional 
personnel to meet the projected workload in fiscal year 2016 and beyond
    21. Senator Ayotte. Admiral Howard, how will the increased need 
affect each of the four public shipyards?
    Admiral Howard. Each public shipyard has unique requirements, based 
on their projected workload in fiscal year 2016 and beyond. The 
President's Budget for fiscal year 2016 supports these important 
increases, which began in fiscal year 2015. The total manpower levels 
by shipyard in fiscal years 2014-16, including both Direct and 
Reimbursable funded Full-Time Equivalents (FTEs), are as follows:

 
----------------------------------------------------------------------------------------------------------------
                                                                                                FY14 to FY16 FTE
              Shipyard                  FY14 FTE Total     FY15 FTE Total     FY16 FTE Total       Difference
----------------------------------------------------------------------------------------------------------------
Norfolk.............................              8,917              9,433              9,732               +815
Pearl Harbor........................              4,341              4,628              4,765               +424
Portsmouth..........................              4,601              4,855              5,023               +422
Puget Sound.........................             11,122             12,560             13,283             +2,161
----------------------------------------------------------------------------------------------------------------
    TOTAL...........................             28,981             31,476             32,803             +3,822
----------------------------------------------------------------------------------------------------------------

                     amphibious warships shortfall
    22. Senator Ayotte. Admiral Howard, of the current inventory of 31 
amphibious warships, how many are prepared to embark marines and deploy 
right now?
    Admiral Howard. We currently have two Amphibious Ready Groups 
deployed with assigned Marine Expeditionary Units. We maintain at least 
one additional Amphibious Ready Group for contingency response. 
Additional ships are capable of embarking Marines and/or their 
equipment and deploying as Amphibious Task Force (ATF) Lift. While 
specific numbers vary based on operational cycles, the total number of 
ships available for ATF Lift do not meet the full requirement of the 
Combatant Commanders.
    23. Senator Ayotte. General Paxton, what is the Marine Corps' 
requirement for amphibious warships?
    General Paxton. The Chief of Naval Operations and the Commandant of 
the Marine Corps have determined the force structure to support the 
deployment and employment of 2 MEBs simultaneously is 38 amphibious 
warfare ships. Understanding this requirement, in light of fiscal 
constraints faced by the nation, the Department of the Navy has agreed 
to sustain a minimum of 33 amphibious warfare ships. However, COCOM 
demand is more realistically defined at about 54.
    It should be noted that, the 33 ship force accepts risk in the 
arrival of combat support and combat service support elements of the 
MEB, but has been determined to be adequate in meeting the needs of the 
naval force within today's fiscal limitations. This inventory level 
also provides the needed capacity for a forward presence and a MEB/
Expeditionary Strike Group (ESG) to respond to a crisis or contingency 
within 25 days.
    24. Senator Ayotte. General Paxton, what is the impact of the 
shortfall?
    General Paxton. The Chief of Naval Operations and the Commandant of 
the Marine Corps have determined the force structure to support the 
deployment and employment of 2 MEBs simultaneously is 38 amphibious 
warfare ships. Understanding this requirement, in light of fiscal 
constraints faced by the nation, the Department of the Navy has agreed 
to sustain a minimum of 33 amphibious warfare ships. However, COCOM 
demands are more realistically defined at about 54.
    Shortfalls in amphibious warship inventory have multiple negative 
effects. The 33 ship force accepts risk in the arrival of combat 
support and combat service support elements of the MEB, but has been 
determined to be adequate in meeting the needs of the naval force 
within today's fiscal limitations. This inventory level also provides 
the needed capacity for a forward presence and a MEB/Expeditionary 
Strike Group (ESG) to respond to a crisis or contingency within 25 
days. Shortfalls also negatively affect our ability to train. 
Conducting amphibious operations with our joint services is not just a 
matter of putting Marines on Navy ships. Those units must have the 
opportunity to operate with each other during their workup to establish 
relationships, tactics, techniques, procedures, and build 
interoperability.
                    air force mobilization authority
    25. Senator Ayotte. General Spencer, Congress recently provided a 
new mobilization authority to give increased access to the Reserve 
components. To date, how many times has the Air Force made use of this 
new authority and what, if any, impact has this had on the readiness of 
Active component units?
    General Spencer. The Air Force has utilized 12304b to mobilize 
approximately 1350 airmen across a variety of mission sets in support 
of fiscal year 2015 Combatant Commander requirements. 12304b has 
primarily been used by the Air Force for pre-planned missions in 
support of a Combatant Commander when there is no other authorized 
mobilization authority (12302) available. The impact on the readiness 
of the Active Component is unknown at this time as the requirements 
filled by these mobilized reservists would have otherwise gone unfilled 
if the Reserve Component was not made available by mobilization. In 
other words, the Air Force did not have sufficient capacity in its 
Active Component force to fill all requirements levied upon it by the 
Combatant Commanders.
    If the Air Force could change one aspect of the new authority it 
would be to relieve the Service of the requirement to provide prior 
notification of the use of 12304b in the ``J-Books'', and allow the 
service submission of the Program Objective Memorandum (POM) to OSD as 
sufficient notification. Due to the timing of the ``supplemental'' J-
Book submission, the Air Force is not able to utilize the new authority 
for pre-planned Combatant Commander missions paid for out of the 
supplemental budget and still allow sufficient notification to the 
Reserve Component members to manage their employer and personal lives 
with enough time to deploy.
    26. Senator Ayotte. General Spencer, please provide deployment-to-
dwell figures for Active and Reserve component units for each mission 
design series (MDS), i.e. type of aircraft, for 2012, 2013, and 2014.
    General Spencer. With a view towards regaining readiness by 2023, 
the Air Force manages our Combat Air Forces (CAF) fighter/bomber fleet 
at a 1:4 Deploy-to-Dwell (1:5 Mob-to-Dwell). All other MDS' are managed 
at 1:2 Deploy-to-Dwell (1:5 Mob-to-Dwell). Specific MDS' are listed 
below.

 
----------------------------------------------------------------------------------------------------------------
        Combat Air Forces MDS             Component             FY12               FY13               FY14
----------------------------------------------------------------------------------------------------------------
B-1.................................             Active              1:2.0              1:2.0              1:1.5
B-2.................................             Active                N/A                N/A                N/A
B-52................................             Active              1:2.5              1:3.7              1:3.6
A-10C...............................             Active              1:2.2              1:2.3              1:2.0
A-10C...............................                ANG             1:20.0                N/A                N/A
A-10C...............................               AFRC             1:30.0                N/A              1:7.5
F-15C...............................             Active             1:17.6              1:7.3              1:4.4
F-15C...............................                ANG             1:39.6                N/A                N/A
F-15E...............................             Active              1:3.4              1:2.9              1:3.3
F-16C+/CM...........................             Active              1:8.3              1:2.8              1:5.6
F-16C+/CM...........................                ANG             1:14.6             1:22.7             1:21.5
F-16C+/CM...........................               AFRC                N/A                N/A              1:8.6
F-16CJ..............................             Active              1:4.2              1:2.9              1:2.8
F-16CJ..............................                ANG              1:8.2                N/A              1:4.3
F-22................................             Active              1:6.4              1:7.0              1:1.6
HC-130..............................             Active              1:1.1              1:2.8              1:2.0
HC-130..............................                ANG                N/A             1:18.1                N/A
HC-130..............................               AFRC             1:12.3                N/A              1:6.4
HH-60...............................             Active              1:1.5              1:2.6              1:2.5
HH-60...............................                ANG              1:7.9             1:10.3                N/A
HH-60...............................               AFRC              1:7.1                N/A              1:7.0
----------------------------------------------------------------------------------------------------------------

CAF NOTES:

    1.  N/A means no contingency deployment for that MDS during that 
time frame.
    2.  CAF Deploy-to-Dwell ratio based on deployment of lead UTCs for 
each MDS.
    3.  Dwell is average for each CAF MDS deployment during specified 
fiscal year.
    4.  We do not track dwell for Low Supply/High Demand weapon systems 
such as E-3, E-8, EC-130H, RC-135, U-2, and SOF aircraft (includes 
Battlefield Airmen). Dwell is managed by individual crew position and 
can vary widely within a single unit.

 
----------------------------------------------------------------------------------------------------------------
       Mobility Air Forces MDS            Component             CY12               CY13               CY14
----------------------------------------------------------------------------------------------------------------
C-17................................             Active              1:1.7              1:2.1              1:2.2
C-17................................                ANG              1:6.3              1:6.9              1:7.5
C-17................................               AFRC              1:7.5             1:10.3             1:11.4
C-5A/B/C............................             Active              1:2.3              1:4.7              1:5.3
C-5A/B/C............................                ANG              1:3.8              1:4.5              1:5.2
C-5A/B/C............................               AFRC              1:5.4              1:6.2              1:6.7
C-5M................................             Active              1:5.1              1:4.5              1:4.2
C-5M................................               AFRC              1:5.6             1:13.2             1:11.0
KC-135..............................             Active              1:2.4              1:3.2              1:2.6
KC-135..............................                ANG              1:5.7              1:6.0              1:6.5
KC-135..............................               AFRC              1:5.2              1:5.3              1:6.8
KC-10...............................             Active              1:2.2              1:2.6              1:2.3
KC-10...............................               AFRC              1:5.9             1:10.0             1:13.1
C-130H..............................             Active              1:3.3              1:2.7              1:3.3
C-130H..............................                ANG              1:7.1             1:11.8             1:10.1
C-130H..............................               AFRC              1:8.1             1:12.5             1:11.1
C-130J..............................             Active              1:2.0              1:2.1              1:2.2
C-130J..............................                ANG              1:57*             1:18.7              1:7.6
C-130J..............................               AFRC              1:6.9              1:5.1              1:6.9
----------------------------------------------------------------------------------------------------------------

MAF NOTES:

    1.  * ANG units in transition from C-130H to C-130J.
    2.  MAF Deploy-to-Dwell: Ratio of time aircrews are on missions 
away from home supporting SECDEF-directed contingency taskings and 
TRANSCOM/HHQ-validated taskings vs. time at home station.
    3.  MAF Deploy-to-Dwell Calculation: Line qualified available 
aircrews divided by taskings minus one.
                            Equipment Reset
    27. Senator Ayotte. General Allyn, Admiral Howard, General Paxton, 
and General Spencer, what is the current status of our retrograde and 
reset efforts from Iraq and Afghanistan, and what equipment shortfalls 
would we face if we were forced to surge in the next 12 months?
    General Allyn.
Afghanistan Retrograde:
    United States Forces-Afghanistan reported that as of 28 March 2015, 
there were 86,900 pieces of Rolling Stock (RS) and 810,000 Twenty-Foot 
Equivalent Units (TEU) of Non-Rolling Stock (NRS) in Afghanistan that 
includes both supply and ammunition stocks. Of this equipment, about 
3,700 pieces of RS and roughly 1,250 TEUs of NRS belong to the Army. By 
the end of 2015, the current plan is to reduce these totals by 
approximately 25 percent from their current values through either 
retrograde, redeployment or divesture efforts. The vast majority of 
non-Army equipment is Contractor Managed, Government Owned (CMGO) 
equipment that will be divested of in Afghanistan. The Army currently 
plans to retrograde a total of about 2,900 pieces of RS and 1,000 TEUs 
of NRS and divest all remaining equipment.
    Equipment shortfalls due to a surge would be contingent on the size 
and scope of the operation. The Army has Army Prepositioned Stocks 
(APS) and equipment strategically located in or near the theater of 
operation to support several contingency plans that may potentially 
mitigate equipment shortfalls and reduce strategic deployment of unit 
equipment.
Iraq Retrograde:
    There are currently no major retrograde operations on going in 
Iraq. We are utilizing our Kuwait based APS equipment to support 
CENTCOM operations in Iraq.
Reset:
    The Army programmed to reset 841,000 major end items returning from 
Afghanistan in fiscal year 2015. However, 84,600 of those items are 
still required to support the Resolute Support Mission (RSM) and will 
be reset once they are no longer required for operations.
    Depending on the type of units and equipment required for a surge, 
the Army's programmed equipment Reset schedule may be delayed until the 
equipment is no longer required for operations and is again available 
for Reset.
    Admiral Howard. Navy is resetting both ships and our ground Navy 
Expeditionary Combat Command (NECC) forces.
    Reset of material readiness in carriers, surface combatants and 
amphibious ships, after over a decade of high tempo combat operations, 
requires $2.6B across the FYDP. The majority of the work should be 
completed by the end of fiscal year 2018. Some reset work will continue 
at lower levels through fiscal year 2020 because some of these 
platforms require the availability of a drydock to conduct lifecycle 
maintenance to achieve their expected service life (drydock maintenance 
is normally on an eight year cycle). The Navy OCO request for fiscal 
year 2016 includes $557M for this work.
    Navy capacity to surge ships for contingency response remains 
constrained until this work is completed.
    Retrograde for NECC equipment has been successfully executed with 
only a small percentage remaining (currently in transit). With OCO 
($62M), Navy's fiscal year 2016 budget request supports reset 
requirements for all NECC Mine Resistant Ambush Protected (MRAP) and 
Medium Tactical Vehicle Replacement (MTVR) vehicles, including 
communications gear and improvised explosive device defeat system 
installations.
    NECC forces could support a surge if required, but would be 
accepting risk related to the inventory of tactical vehicles until 
reset is completed in the beginning of fiscal year 2017. Upon 
completion of remaining equipment reset, NECC will be fully postured to 
support contingency response requirements when necessary.
    General Paxton. As a result of the continued support of Congress 
via OCO appropriations, the Marine Corps has been executing an 
aggressive ground equipment reset strategy to repair and return our OEF 
equipment to the Operating Forces as rapidly as possible. All Marine 
Corps equipment was withdrawn from Afghanistan in December 2014, and as 
of April 2015, all equipment has been returned to CONUS. To date, the 
Marine Corps is approximately 60 percent reset-complete and anticipates 
reset completion in fiscal year 2017.
    Our reset effort is helping in two key ways; (1) Providing an 
opportunity to repair, replace or recapitalize war-torn equipment 
slated to remain in our inventory; and (2) producing positive readiness 
impacts for some of our key high-demand/low-density equipment items. 
For example, we expect to see measureable readiness increase in many of 
our radar, satellite communications and motor transport systems.
    The Marine Corps is optimized and resourced for global crisis 
response, and we give priority to the equipping needs of deployed 
forces. To address equipping shortfalls in non-deployed units, the 
Marine Corps is undertaking a deliberate effort to right-size and 
balance our ground equipment inventory to support our future force 
structure and ensure equipment is optimally aligned to requirements. 
This ``ground equipment optimization effort'' will support 
reconstitution to properly scaled and balance force by fiscal year 
2017.
    General Spencer. After years of effort, major Air Force retrograde 
actions are nearing completion. Still engaged in combat, the Air Force 
has leaned its footprint and is positioned to support its Afghanistan 
enduring commitment equipment levels. Regarding reset actions, we still 
face significant work ahead to realize a complete reset of equipment 
after years of sustained combat operations. Major Air Force weapon 
systems do not have typical one-time ``reset'' requirements. Our major 
aircraft and engines are sustained on an ongoing basis. Sustainment 
requirements are driven by various timing criteria including aircraft/
engine cycles, life-limited parts, flying hours, etc. Such on-going 
sustainment activities underpin readiness. Our major reset areas such 
as aircraft procurement, ammunition and missile procurement, aerospace 
ground equipment, support equipment, basic expeditionary airfield 
resources, and vehicles continue to remain a high priority for the Air 
Force. However, depending on the nature of a surge, we would most 
likely exacerbate existing munitions shortfalls Air Force wide. Cross 
leveling between combatant commands would be required and could create 
risk to other operational plans. If the committee would like 
additional, more finite detail, we would be happy to provide a 
classified briefing upon your request.
                            Naval Readiness
    28. Senator Ayotte. Admiral Howard, in your written statement, you 
note that the Navy has only been able to keep one Carrier Strike Group 
and one Amphibious Readiness Group in the heightened readiness 
posture--just one third of the requirement. What have been the 
consequences of that shortfall?
    Admiral Howard. CSGs and ARGs deliver a significant portion of our 
striking power, and we are committed to keeping, on average, three 
additional CSGs and three additional ARGs in a contingency response 
status, ready to deploy within 30 days to meet operation plans 
(OPLANs). However, if sequestered, we will prioritize the readiness of 
forces forward deployed at the expense of those in a contingency 
response status. We cannot do both. We will only be able to provide a 
response force of one CSG and one ARG. Our current OPLANs require a 
significantly more ready force than this reduced surge capacity can 
provide. Less contingency response capacity would mean higher 
casualties as wars are prolonged by the slow arrival of naval forces 
into a combat zone. Without the ability to respond rapidly enough, our 
forces possibly could arrive too late to affect the outcome of a fight.
    29. Senator Ayotte. Admiral Howard, is the Navy considering forward 
deploying any additional carriers to make up for the lost presence 
under the Optimized Fleet Response Plan?
    Admiral Howard. The Navy continuously evaluates how best to 
position our naval forces overseas to meet evolving security 
environments, but we have no plans to forward deploy additional 
carriers at this time.
    While carrier presence varies slightly from year to year, our 
overall carrier presence will increase from fiscal year 2015 to fiscal 
year 2016. Seven month deployments under OFRP are a sustainable goal 
that balances our requirement to generate ready forces, provides 
forward presence, gets us to stable maintenance cycles, and enables us 
to respond to contingencies.
    30. Senator Ayotte. Admiral Howard, how, if at all, is the Navy 
used to meet NATO missions?
    Admiral Howard. The Navy provides support to a wide range of NATO 
missions. Specific rotational requirements are identified through the 
Global Force Management Allocation Plan (GFMAP). Additionally, other 
forces are offered in a ``Notice to Move'' (NTM) status. These forces 
are offered formally to NATO to be available within 30 days of an 
incident.
    Specific examples of Navy support to NATO include:
    <bullet>  Surface combatants support to Operation Atlantic Sentry, 
which provides for the Ballistic Missile Defense (BMD) of Europe. This 
persistent presence is a gateway for future endeavors, including Aegis 
Ashore, and establishing an organic NATO BMD capability.
    <bullet>  We provide surface combatant and Maritime Patrol Aircraft 
support to Operation ACTIVE ENDEAVOR, the U.S.-NATO counter-terrorism 
operation.
    <bullet>  Surface combatants provide presence in the Black Sea 
under NATO auspices. For example, USS VICKSBURG is currently the 
command ship for Standing NATO Maritime Group 2 (SNMG-2) which provided 
presence in the Black Sea for nearly the whole month of March. SNMG-2 
began operations in January, 2015, and will conclude this June.
    <bullet>  Commander, Naval Forces Europe is dual-hatted as a NATO 
Joint Force Command, Naples, coordinating NATO operations in Kosovo. 
Commander, SIXTH Fleet is also dual-hatted as Commander, Naval Striking 
and Support Forces NATO, in Lisbon, Portugal.
    <bullet>  We actively participate in NATO exercises: BALTOPS, 
TRIDENT JUNCTURE, MARINER, and MANTA. Additionally, we conduct bi-
lateral exercises such as Joint Warrior, to strengthen our 
interoperability and tactics with our NATO partners.
    Port visits and Distinguished Visitor embarks, such as USS THEODORE 
ROOSEVELT's recent visit to the United Kingdom and embarks of senior 
government officials from UK, Finland, Sweden, France, and Greece, also 
deepen ties with our NATO partners.
    31. Senator Ayotte. Admiral Howard, how does that affect the 
carrier presence that is required for combatant commander missions?
    Admiral Howard. NATO has not requested carrier presence in fiscal 
year 2016, and Navy is not sourcing any NATO carrier presence in the 
SECDEF-approved fiscal year 2016 Global Force Management Allocation 
Plan.
                        Training and Simulation
    32. Senator Ayotte. General Allyn, Admiral Howard, General Paxton, 
and General Spencer, in 2013, training simulation accounts were 
severely cut due to sequestration, yet they can provide significant 
cost savings where trainees and long-term servicemembers can learn 
lessons that don't cost thousands of dollars each time a mistake is 
made. How do each of your Services plan to integrate simulators into 
your readiness and training agenda?
    General Allyn. Live, Virtual, Constructive, and Gaming capabilities 
are integral components of the Army Training Strategy. Use of 
simulations is integrated into Army training in two ways. First, 
simulations are specified in our Unit Training Models and units use 
virtual, gaming, or constructive simulations to execute building-block 
training events. Units move progressively from simulations based events 
to ``live'' events. Similarly, in Army schools, specific simulations 
are required in executing Programs of Instruction. Second, Commanders 
routinely use simulations to enhance their training. For example, units 
train Mission Command using simulations to reduce lower-echelon unit 
participation to save on operations and maintenance dollars. Further, 
aviation units use the Aviation Combined Arms Tactical Trainer (AVCATT) 
to practice aviation missions in a virtual environment prior to 
expending flying hours.
    Admiral Howard. Navy has long recognized the criticality of 
integrating Modeling and Simulation (M&S) technology into Navy's 
training and readiness plans. M&S technology is a ``readiness 
enabler'', and supports Navy's mission to man, train and equip our 
forces.
    As a result, Navy formally established the OPNAV Simulator Training 
Requirements Group (OSTRG), which reviews investment plans for 
simulator, Fleet Synthetic Training (FST) and Live, Virtual, and 
Constructive (LVC) Training, Joint National Training Capability (JNTC) 
programs, and assesses current capabilities and limitations. OSTRG 
leverages the Fleet Training Integration Panel (FTIP), and meets bi-
annually to achieve cross-community, multi-mission synthetic training 
integration, and proposes live training events for simulator-based 
training. Individual platform and integrated simulator/training 
requirements are codified in Naval Training System Plans. Furthermore, 
Warfare Area Simulator Master Plans, updated during bi-annual FTIP 
symposiums, formulate capability-based requirements and acquisition 
strategies to expand simulator training. These plans consider legacy 
systems as candidates for modernization and reflect the development of 
a full range of simulators to support synthetic training. The OSTRG and 
its members focus on cost-effective solutions and leverage new 
technologies to meet readiness performance standards.
    Since PB-14, OSTRG and FTIP members worked to develop the first 
OPNAV Simulator Master Plan (OSMP). The goal of the OSMP is to provide 
ready, responsive, and adaptive forces at tactical and operational 
levels, through a training continuum that balances simulated and live 
training events to improve warfighting readiness while reducing Total 
Ownership Cost. The OSMP translates validated and Fleet-approved 
integrated training requirements into integrated simulator training 
roadmaps; and prioritizes and recommends sourcing solutions for Navy's 
simulator, FST and LVC training requirements in support of both 
platform and warfare area readiness.
    General Paxton. There is no doubt that simulators provide a unique 
opportunity to provide realistic training opportunities that offset 
some of the costs associated with real-world training. These systems 
allow for varied training experiences, can minimize ammunition usage, 
and decrease logistical costs. In fact, the Commandant's Planning 
Guidance for 2015 specifically states that development and use of 
simulators remains a high priority for the service.

        ``We will continue to support the fielding of systems that 
        enhance our proficiency and safety in operating weapons and 
        equipment. Our investment in training systems will reflect the 
        priority we place on preparing for combat and be fully 
        integrated with training and readiness standards. I expect all 
        elements of the MAGTF to make extensive use of simulators where 
        appropriate.''
                                    -Gen. Joseph Dunford

    However, as with other modernization efforts, we have had to defer 
some simulator development initiatives in order to prioritize near term 
readiness. We are currently funding simulator development and testing 
through individual system programs and supporting contracts. Due to the 
programming cycle, Fiscal Year 2018 will be the first opportunity to 
fund enduring integrated simulator capability.
    Specifically, the Marine Corps Training and Education Command's 
(TECOM) Modeling and Simulation (M&S) Master Plan, Squad Immersive 
Training Environment (SITE), as well as the Live, Virtual, 
Constructive-Training Environment (LVC-TE) identify service 
requirements for simulators and simulations. These requirements are 
being addressed by TECOM. In conjunction with this we are continuing 
our efforts to integrate aviation systems with ground simulations to 
provide opportunities to conduct training that tests the full structure 
and capabilities of the Marine Air Ground Task Force (MAGTF).
    General Spencer. The Air Force uses aircrew simulators in most 
cases to augment or supplement live fly training as simulators cannot 
replace all live fly training. We focus most of our simulator effort on 
providing training in emergency procedures, contested and degraded ops, 
mission rehearsal and area denial, all items that are best suited for 
training in a controlled and secure virtual training environment. 
Simulators are an integral part of the Air Force readiness training 
objectives. Without high fidelity aircrew simulators readiness would 
quickly be reduced to unacceptable levels.
    33. Senator Ayotte. General Allyn, Admiral Howard, General Paxton, 
and General Spencer, what cost savings can the Services leverage from 
using simulation technology when preparing our Armed Forces?
    General Allyn. The Army maintains a large variety of training 
simulators allowing units to train at basic skills such as 
marksmanship, driving, tank gunnery, and aviation. Some are networked 
to several others allowing battalion task forces to simulate large 
scale maneuvers at reduced cost and equipment OPTEMPO.
    These training simulators save the Army money when compared to live 
training as they require less operations and maintenance funds (e.g. 
tank track, ammunition, etc.). However, the cost of acquiring and then 
maintaining simulators offsets a considerable amount of these savings--
these systems are costly. Simulators are used to provide baseline and 
some sustainment skills, and to rehearse complex actions in order to 
reduce risk to Soldiers. Ultimately, however, Soldiers must execute 
their training in a ``real-world'' environment--such as with live-fire 
exercises. While simulations are vital in building Soldier, Leader, and 
unit proficiency, they cannot replicate the complexity and critical 
human factors that arise in live, combined arms maneuver exercises 
against a thinking adversary.
    Admiral Howard. The Navy continues to explore simulation technology 
opportunities to ultimately reduce operations and maintenance costs 
while sustaining, or improving, force readiness. Simulators are 
integrated into individual and team training, both as part of formal 
courses of instruction and crew preparation for at-sea operations. 
Simulator investments play a pivotal role in improving training 
proficiency and delivery. Life cycle costs of simulation are less than 
the overhaul, and preventive/corrective maintenance of the tactical 
equipment. Simulation can prevent personal injury as well as weapons 
damage, saving thousands of dollars as well as damage to personnel 
readiness.
    Simulators normally operate at a fraction of the cost of 
operational equipment (e.g. operation of aviation simulators are 
normally 1/10 or less the cost of actual aircraft flying cost). In 
addition, simulators do not wear out or break high-valued equipment 
during routine training. This applies to all levels of training where 
simulators can be used. In some cases, lower fidelity devices can 
perform a large percentage of training tasks lowering total procurement 
cost of a training system.
    General Paxton. There is no doubt that simulators provide a unique 
opportunity to provide realistic training opportunities that offset 
some of the costs associated with real-world training. These systems 
allow for varied training experiences, can minimize ammunition usage, 
and decrease logistical costs. In fact, the Commandant's Planning 
Guidance for 2015 specifically states that development and use of 
simulators remains a high priority for the service.

        ``We will continue to support the fielding of systems that 
        enhance our proficiency and safety in operating weapons and 
        equipment. Our investment in training systems will reflect the 
        priority we place on preparing for combat and be fully 
        integrated with training and readiness standards. I expect all 
        elements of the MAGTF to make extensive use of simulators where 
        appropriate.''
                                    -Gen. Joseph Dunford

    However, as with other modernization efforts, we have had to defer 
some simulator development initiatives in order to prioritize near term 
readiness. We are currently funding simulator development and testing 
through individual system programs and supporting contracts. Due to the 
programming cycle, Fiscal Year 2018 will be the first opportunity to 
fund enduring integrated simulator capability.
    Specifically, the Marine Corps Training and Education Command's 
(TECOM) Modeling and Simulation (M&S) Master Plan, Squad Immersive 
Training Environment (SITE), as well as the Live, Virtual, 
Constructive-Training Environment (LVC-TE) identify service 
requirements for simulators and simulations. These requirements are 
being addressed by TECOM. In conjunction with this we are continuing 
our efforts to integrate aviation systems with ground simulations to 
provide opportunities to conduct training that tests the full structure 
and capabilities of the Marine Air Ground Task Force (MAGTF).
    General Spencer. First and foremost, our number one priority is to 
sustain and enhance force readiness. We use simulation technology to 
maintain, sustain, enhance, supplement, and in some cases, replace 
training conducted in a live environment. The use of simulation 
technology may or may not result in direct cost savings, but should 
result in a more ready force. Therefore, we do not have an additional 
cost savings estimate beyond those that have already been programmed 
and budgeted.
    Training is a key to force readiness and training for combat and 
other operational missions is an extremely complex endeavor. 
Sophisticated threat systems and advanced operational capabilities are 
driving an increased emphasis on the use of simulation technologies 
(Live, Virtual, and Constructive-Operational Training (LVC-OT) 
capabilities). As threat environments become more dense and more highly 
contested, our ability to simulate them in the live training 
environment is becoming increasingly difficult. Additionally, our fifth 
generation weapon systems are so advanced that challenging them in the 
live training environment while protecting their capabilities and 
tactics from exploitation is likewise becoming more and more 
problematic.
    LVC-OT capabilities address these issues by providing solutions for 
increasing the value of live operational training, and simulating the 
live environment using concurrent, high-fidelity, networked training 
systems. Leveraging simulation technology significantly improves our 
readiness at a cost that would be otherwise unaffordable. We are 
working diligently to maximize the value of every training dollar by 
optimizing our LVC-OT capabilities.
    34. Senator Ayotte. General Allyn, Admiral Howard, General Paxton, 
and General Allyn, if sequestration does occur, will training 
simulators be cut similarly to the 2013 sequestration?
    General Allyn. The Army will seek to optimize its investments in 
training by balancing operational training investments, institutional 
investments, and simulations investments. All three areas will be 
impacted significantly by sequestration much as they were in 2013.
    Admiral Howard. A return to sequestration in fiscal year 2016 would 
necessitate a revisit and revision of the Defense Strategic Guidance. 
Required cuts will force us to further delay critical warfighting 
capabilities, reduce readiness of forces needed for contingency 
response, further downsize weapons capacity, and forego or stretch 
procurement of ships and submarines as a last resort. We will be unable 
to mitigate the shortfalls like we did in fiscal year 2013 because we 
are still recovering from operating account shortfalls that were 
deferred to later years in the fiscal year 2013 FYDP. Our PB-16 budget 
represents the minimum funding necessary to execute the defense 
strategy. Sequestration impact to training simulators would come if we 
had to stretch or eliminate building new facilities or reduce training 
associated with generating ready forces in order to husband dollars.
    General Paxton. Despite the unique training opportunities afforded 
by simulation systems, such opportunities would, as with all training 
efforts across the Marine Corps, be affected by a sequester in fiscal 
year 2016. The fiscal year 2016 President's Budget request represents 
the bare minimum at which the Marine Corps can meet the current Defense 
Strategic Guidance. The Marine Corps would be forced to reduce or delay 
home station operations and maintenance activities in order to protect 
near-term readiness, forward deployed forces, and our capacity to meet 
COCOM demands under sequestration. Though no decisions have been made 
regarding specific reductions under an fiscal year 2016 sequester, 
advanced skills training and service level exercises would likely be 
scaled back accordingly, along with advanced training technologies, 
simulation systems training, and related activities. We would also 
assume additional risk in our modernization accounts, reducing the 
amount of investment funding available to develop and procure new 
systems.
    General Spencer. In 2013 due to sequestration, the Air Force was 
required to make several reductions in simulator operations and 
support. While we did not remove simulators or completely shut down 
simulator operations, the Air Force cancelled large virtual exercises, 
reduced travel funding for units not co-located with a simulator, and 
curtailed simulator sustainment funding. We don't yet know the specific 
training areas that will be impacted by any future sequestration 
actions. During any sequestration, the Air Force will balance training 
resources to meet fiscal constraints.
                       Combatant Commander Demand
    35. Senator Ayotte. General Allyn, Admiral Howard, General Paxton, 
and General Spencer, what are the current mitigation plans and 
strategies to meet combatant commander demand until full readiness is 
recovered?
    General Allyn. The Army currently meets the majority of combatant 
commander requirements for forces. The Army has identified a ceiling to 
the Joint Staff that identifies an upper limit for overall demand that 
still permits Service readiness recovery. Above this ceiling, 
additional requirements would put service readiness recovery at risk. 
In the Global Force Management process, the Army identifies which 
additional requirements would be above the ceiling, the risks to 
sourcing those requirements, and risk mitigation plans. For planned 
requirements, these mitigation options include cancelling or delaying 
modernization programs and taking risk in services and infrastructure. 
For unplanned or contingency requirements, mitigation requires 
balancing between repurposing units from other missions, meeting 
deployment timelines, and the overall readiness of deploying units.
    Admiral Howard. While we continue to source to capacity, the 
reality is we do not have sufficient force structure to meet all 
Combatant Commander (CCDR) demand. CCDRs must mitigate risk through 
judicious employment of allocated forces.
    Risk is mitigated through the Global Force Management Allocation 
Plan (GFMAP), by allocating forces to the highest priority missions, 
and in coordination with the CCDRs, Joint Staff, and other Services, to 
ensure global mission requirements are executed at an acceptable level 
of risk.
    General Paxton.
    <bullet>  For the Marine Corps to create dwell time necessary to 
build the institutional readiness our nation requires from its 911 
force both now and in the future, we will have to change how we provide 
forces to meet Geographic Combatant Commander (GCC) requirements.
    <bullet>  In the near term, your Marine Corps will be ready to 
respond to the nation's call; however, our capacity to respond may be 
severely diminished.
    <bullet>  By reducing the capacity, but not the capabilities of our 
forward deployed MAGTFs, we can create some trade space in personnel 
and resources necessary to improve institutional readiness.
    <bullet>  Reductions in unit capacity alone may be insufficient to 
improve D2D significantly and more importantly to optimize unit 
readiness. While requiring further study, anticipate each element of 
the MAGTF will require uniquely tailored solutions.
    <bullet>  By tailoring the MAGTF to the specific capabilities 
required by the Combatant Commanders, we can create the opportunity for 
the Marine Corps as a Service to regain readiness from over a decade of 
conflict. These readiness and recovery efforts will further allow the 
Marine Corps to provide a ``ready force'' to support the operations 
across ROMO.
    General Spencer. The Air Force is currently meeting combatant 
commander rotational demand with ready forces, and they are performing 
exceptionally well in Operations RESOLUTE SUPPORT and INHERENT RESOLVE. 
Unfortunately, this has come at the cost of likely sourcing the demands 
of the Defense Strategic Guidance with unready forces. We have 
successfully mitigated risk to rotational requirements at the expense 
of our broader National Military Strategy. We simply cannot mitigate 
all of the risk at our current capacity.
    36. Senator Ayotte. General Allyn, Admiral Howard, General Paxton, 
and General Spencer, have you established milestones or metrics to 
track the rebuilding of the readiness?
    General Allyn. Yes. The Army has developed a combination of metrics 
to evaluate our readiness recovery and force generation efforts. Those 
metrics consist of, but are not limited to, deploy-to-dwell ratios; 
aggregate demand for Army forces, including deploy-to-dwell, theater 
committed, or prepare to deploy units; combat training center unit 
preparedness results (or other major training event); and minimum 
floors of full spectrum readiness. By examining these and other 
variables, the Army accurately tracks readiness progress toward 
healthy, sustainable force generation levels.
    Admiral Howard. Yes. Navy measures our current and projected 
operational output through the Fleet Response Plan Operational 
Availability (FRP Ao) metric. This measures ``presence delivered'' and 
``contingency response capacity'' against a standard of sustainable 
levels of presence and the most demanding Combatant Commander 
Operational Plan for contingency response capacity. The CNO recently 
discussed the FRP metric of 2+3 Carrier Strike Groups (CSGs) as our 
goal which reflects a sustained global presence of 2 CSGs and 3 ``ready 
to respond'' within about 30 days. Across most of the Fleet, Navy will 
continue to be challenged through this year, particularly for 
contingency response capacity, and then slowly begin to recover FRP Ao 
levels through FY 2020 across the force.
    Because our depot maintenance challenges are among the most 
critical aspects underpinning our readiness recovery, we are monitoring 
the hiring plans and output of both aviation depots and shipyards 
closely, adjusting as needed. We are investing not only in staffing, 
but also in workforce development, to achieve these goals.
    General Paxton. Yes. Service-level readiness systems and processes 
are informed by, and inform, the Chairman's Readiness System that 
codifies readiness reporting and assessment used to track the degree to 
which readiness is recovering or decaying.
    Our metrics to monitor manning, equipment, and training levels, and 
assessment process provides near-term analysis of readiness of the 
Marine Corps' ability to execute operational plans and portend 
readiness to resourcing linkages.
    The full weight of the Budget Control Act would preclude the Marine 
Corps from meeting its full statutory and regulatory obligations, and 
adequately prepare for the future. Under sustained sequestration for 
forces not deploying, the fuel, ammunition, and other support necessary 
for training would be reduced thus inhibiting our ability to provide 
fully-trained Marines and ready units to meet emerging crises or 
unexpected contingencies. We would see real impacts to all home station 
units, then our next-to-deploy and some deploy forces . . . this 
constitutes the internal decay, the beginnings of the hollow force we 
have fought so hard to avoid.
    Prior to the onset of sequestration and operational requirements 
supporting the New Normal, the Marine Corps was on a trajectory to 
reconstitute to a ready force by 2017. Regrettably, this is no longer 
the case. We have not fully recovered from the turmoil caused by the 
last sequester. Full recovery is frustrated by the specter of another. 
Another sequester would prevent any opportunity to further recover 
readiness.
    General Spencer. The Air Force has employed a readiness recovery 
model that assesses the five key ``levers'' of Air Force Readiness 
(deploy-to-dwell ratio, and four resource levers--flying hour program, 
critical skills availability, access to training resources, and weapons 
system sustainment). Additionally, the model provides an analytical 
assessment of 20 leading indicators of readiness to provide a detailed 
understanding of the range of possibilities for resourcing and ops 
tempo over the planning horizon. This methodology helps quantify two 
key readiness realities; the readiness generation process takes 
resources and time. While one lever cannot fix the problem 
independently, a shortfall in any single lever can create a severe 
readiness problem. Our readiness metrics are tracked through the Joint 
Service system called Defense Readiness Reporting System. This system 
communicates commanders' observations, concerns, metrics, and 
approaches to their combat readiness, from the field back to the 
headquarters staff. The aggregate findings from the field are shared 
with our legislators through the Quarterly Readiness Report to 
Congress. With that understanding, our requirements to achieve 80 
percent readiness by the end of 2023 are PB-level funding of programs 
that support the four resource levers, in combination with improved 
deploy-to-dwell ratios for our force; through 2023.
    37. Senator Ayotte. General Allyn, Admiral Howard, General Paxton, 
and General Spencer, if sequester does happen, how many years would 
full readiness recovery be delayed, and how would you respond to the 
needs of combatant command?
    General Allyn. Under sequestration, the Army will not be able to 
bring its manpower, operations and maintenance, modernization, and 
procurement expenditures into balance until at least FY23 and will 
require at least an additional 3 years thereafter to return to full 
readiness. In short, the nation would be accepting considerable risk 
for no less than 7 years.
    In order to meet the priority needs of combatant commands, the Army 
would focus resources on deploying units and decrement training 
resources for units not deploying. This will increase the risk for 
contingency operations and weaken overall leadership experience across 
the Army, but will ensure we can meet Combatant Commander near term 
requirements.
    Admiral Howard. Under sequestration there is no path to full 
readiness recovery to execute the required missions of the Defense 
Strategic Guidance (DSG). Our PB16 budget submission represents the 
bare minimum necessary to execute the DSG in the world we face. A 
return to sequestration in fiscal year 2016 would necessitate a revisit 
and revision of the defense strategy.
    In the short term, the required cuts would force us to further 
delay critical warfighting capabilities, reduce readiness of forces 
needed for contingency responses, further downsize weapons capacity, 
and forego or stretch procurement of force structure as a last resort. 
While sequestration causes significant near-term impacts, it would also 
create serious problems that would manifest themselves after 2020 and 
would be difficult to recover from. For example, even assuming a stable 
budget at PB-16 levels and no major contingencies for the foreseeable 
future, we estimate that Navy will not recover from the maintenance 
backlogs that have accumulated from the high operational tempo over the 
last decade of war and the additional effects of the fiscal year 2013 
sequestration until approximately fiscal year 2018 for Carrier Strike 
Groups and approximately fiscal year 2020 for Amphibious Ready Groups, 
more than five years after sequestration in fiscal year 2013.
    As we did in fiscal year 2013, if sequestered in 2016 and beyond, 
Navy will deliver ready forces forward to meet the highest priorities 
of the Combatant Commanders. Some lower priority deployments may have 
to be cancelled and contingency response capacity will continue at 
reduced levels.
    General Paxton. We are not able to fully assess the impact of a 
sequester or BCA funding levels. One of the greatest challenges with 
this current environment is the constant change and resultant 
uncertainty. We are providing our best estimates for all aspects of our 
Title X responsibilities, but we do know that we will have fewer units 
resulting in less capacity and high deployment to dwell ratios 
(Organize).
    There will be reduced time to train, as well as reduced assets 
available for training (such as fuel, ammunition, and equipment 
readiness) (Train).
    Reduced equipment availability and legacy equipment not on par with 
the modern battlefield (AAVs, 4th generation aircraft, outmoded radars 
and C4I) (Equip).
    Over time, sequestered budgets will prevent the Marine Corps from 
meeting Combatant Commanders' requirements at an acceptable deployment 
to dwell ratio and prioritize training resources toward next to deploy 
units, leading to a less-ready force.
    With respect to our response to a major contingency, all of the 
Marine Corps' operational units would be fully committed with no 
capacity for rotation of forces. Bottom line, those units directed to 
the operation would remain until the mission is complete regardless of 
the duration.
    In the near term, your Marine Corps will be ready to respond to the 
nation's call; however, our capacity to respond will be severely 
diminished.
    By tailoring the MAGTF to the specific capabilities required by the 
Combatant Commanders, we can create the opportunity for the Marine 
Corps as a Service to regain readiness from over a decade of conflict. 
This readiness and recovery model would allow the Marine Corps' home 
station units to be the ready force that would respond to unforeseen 
crises and major contingencies.
    General Spencer. The Air Force is committed to meeting Combatant 
Commander requirements for all aspects of Air Power projection. To that 
end we are performing exceptionally well in Operations RESOLUTE SUPPORT 
and INHERENT RESOLVE. If sequester were to return, we would likely 
continue to perform at high levels in support of these and similar 
operations, to the further detriment of overall full-spectrum 
readiness. Under sequester funding levels, our recovery rate to achieve 
80 percent readiness by the end of 2023 would slow significantly; 
delaying this goal by at least 5 years. Finally, Combatant Commander 
requirements extend well beyond counterterrorism and counterinsurgency 
efforts and the Air Force is committed to supporting Combatant 
Commander needs were we to go to war with a near-peer adversary in a 
high-end fight. We would have insufficient ready forces to meet that 
demand and the requirements of the Defense Strategic Guidance.
              Special Purpose Marine Air-Ground Task Force
    38. Senator Ayotte. General Paxton, in December 2014 testimony, 
General Dunford testified that approximately 50 percent of Marine Corps 
units at home station were in a degraded state of readiness due to 
personnel and equipment shortfalls. He further noted that this lack of 
readiness is due, in part, to the increased requirements from the 
unexpected Special Purpose Marine Air Ground Task Force (MAGTF) crisis 
response teams in U.S. Central Command (CENTCOM) and U.S. Africa 
Command (AFRICOM). Did the Force Structure Review Group consider the 
Special Purpose MAGTF crisis response team requirements when 
determining the optimal number of forces required? If not, how will 
this new--and potentially enduring--requirement affect the Marine 
Corps' ability to meet personnel tempo goals and readiness requirements 
as the size of the force continues to decline?
    General Paxton. No, the Force Structure Review Group did not 
consider the SPMAGTFs for CENTCOM or AFRICOM when it was originally 
convened. However, the 186,800 force was designed to optimally fulfill 
a crisis response capability which these units are performing. In a 
fiscally constrained environment below 186,800, since we are committed 
to maintaining near term readiness and crisis response, the enduring 
requirement for these units will negatively affect the readiness of 
home station units which are preparing for contingency response in 
support of Major Combat Operations (MCO). If we were fully funded at 
the optimal 186,800 personnel end strength we would be able to fulfill 
our crisis response capability and improve our preparedness for 
contingency response because the increased dwell time built into this 
end strength allows sufficient time to train, equip, and man home 
station units.
    39. Senator Ayotte. General Paxton, what is the Marine Corps doing 
to ensure we're not `robbing Peter to pay Paul' when you remove 
capabilities and readiness from Marine Expeditionary Forces to stand up 
Special Purpose MAGTFs?
    General Paxton. The current construct of a three-ship Amphibious 
Ready Group (ARG) and a Marine Expeditionary Unit (MEU) remains 
America's preeminent crisis response force providing deterrence and 
decision space across the range of military operations. However, 
amphibious war ship inventory and operational tempo constrain the 
number of ARGs available to support Combatant Commanders. In a changing 
security environment, forward deployed and forward engaged Special 
Purpose MAGTFs are employed to provide crisis response, security, and 
theater cooperation capabilities as required by the Combatant 
Commanders. Special Purpose MAGTFs are intended to fill the crisis 
response gap when the paucity of operationally available amphibious 
warships precludes the allocation of ARG/MEUs to the Combatant 
Commanders.
    The Marine Corps' top resourcing priority remains those forward 
deployed and forward engaged Marines and Marine units, especially those 
in harm's way. To protect the readiness of those forward deployed and 
forward engaged units--such as Special Purpose MAGTFs and Marine 
Expeditionary Units--personnel and equipment are resourced from home 
station units subordinate to the three Marine Expeditionary Forces. 
Home station units constitute the ready force that would surge to 
unforeseen crises and major contingencies. The Marine Corps is 
committed to generating ready forces to respond to all operational 
requirements, while working to ensure all Marine Expeditionary Forces 
are capable of executing missions. However, another sequester would 
prevent any opportunity to recover the readiness our Nation deserves 
and lead to creating a hollow force we have fought so hard to avoid. In 
a major conflict, resource shortfalls resulting from sequester-level 
funding would increase the timelines needed to achieve our objectives 
thus elevating the likelihood of mission failure and greater loss of 
life.
    40. Senator Ayotte. General Paxton, with approximately 50 percent 
of home station units, which are needed to respond to major crises, 
being declared ``not ready'', what is the Marine Corps' plan to restore 
these units to readiness?
    General Paxton. Home station units constitute the ready force that 
would respond to unforeseen crises and contingencies. As the Nation's 
ready force, the Marine Corps will continue to generate ready forces to 
meet current operational requirements, work to recover full spectrum 
readiness for home station units, and protect those aspects of 
institutional readiness that allow for the reconstitution of the whole-
of-force after over a decade of unprecedented sustained conflict. 
Personnel shortfalls at the unit level are a principal detractor to 
recovering readiness. Actions taken to help restore home station unit 
readiness include manning assignment policies that improve (1) leader-
to-led ratios, especially among the Noncommissioned Officer and Staff 
Noncommissioned Office grades; (2) required unit personnel fill levels 
essential for combat effectiveness, (3) seek to employ the force at a 
1:3 deployment to dwell ratio (optimum) in the future, and(4) optimized 
readiness across the entire unit life cycle versus only the pre-
deployment training period. The Marine Corps regularly examines 
balancing the requirements to meet current operational requirements 
against operational tempo that promotes readiness restoration of home 
station units.
    41. Senator Ayotte. General Paxton, what specific risks are the 
Marine Corps taking by having a total force less than the optimal force 
of 186,000?
    General Paxton. A discussion of required force structure to meet 
U.S. national security requirements must be viewed from the lens of the 
five pillars of readiness. At PB16 funding levels, the Marine Corps 
meets current crisis and contingency response force levels, but with 
some risk. We will meet the nation's requirements, the question is, how 
well can we prepare those troops for deployment? In order to make 
continuous and long term readiness a reality, we have to be able to 
train personnel and perform maintenance on equipment. Right now, we 
have about a 1:2 deployment to dwell ratio. That is, Marines are 
deployed for 7 months and home for 14. This allows a proper unit 
rotation to ensure that each time a unit deploys they are fully ready. 
If we are forced to take further cuts, that level will decrease closer 
to 1:1.5 or 1:1. What this means is that units have less time between 
deployments to conduct the required training prior to their next 
deployment.
                      Joint Light Tactical Vehicle
    42. Senator Ayotte. General Allyn and General Paxton, how important 
is the Joint Light Tactical Vehicle (JLTV) program to the readiness of 
each of your Services?
    General Allyn. Joint Light Tactical Vehicle (JLTV) fielding will 
substantially improve Army readiness by closing capability gaps in the 
Army's light tactical vehicle fleet. Tactical mobility is a vital 
ground combat force enabler and enhances the effectiveness of combat 
and sustainment forces. The current High Mobility Multi-purpose Wheeled 
Vehicle (HMMWV) is not suitable in the current environment as armoring 
initiatives have overweighed the chassis, limiting its mobility. 
Additionally, the HMMWV lacks the requisite on-board power to support 
the current mission command systems. Current trends in military 
operations require forces to continue to develop expeditionary 
capabilities across the range of military operations. The JLTV provides 
the mobility Soldiers need, with the protection and on-board power 
needed in the future operating environment. The Mine-Resistant Ambush 
Protected (MRAP) vehicles used in Iraq and Afghanistan lacked the 
cross-country mobility JLTV will provide. MRAP's size and weight 
limited Army operations to road networks making our Soldiers' movements 
predictable and easier to target. JLTV will allow our Soldiers more 
flexibility for off-road operations, reducing their exposure to 
Improvised Explosive Devices and ambushes. This added mobility coupled 
with the increased protection integrated into the JLTV design reduces 
our Soldiers' risk. Finally, JLTV is designed to enable the integration 
of our current and future mission command. This will enable commanders 
to see the battlefield and synchronize combat power to enable mission 
success. The Army plans to prioritize early fielding to Infantry 
Brigades and Special Operations Forces.
    General Paxton. The JLTV is a central pillar of our ground combat 
and tactical vehicle modernization plan and critical to readiness of 
Marine Corps forces to deploy and to be employed in any clime and 
place. The JLTV program, and the capability it will provide, is second 
only in importance to our amphibious mobility modernization within our 
vehicle portfolio. JLTVs will replace the portion of HMMWVs that are 
most at risk; those that perform a combat function and are most likely 
to be exposed to enemy fires. Those vehicles are assigned predominately 
to Ground Combat Element and Direct Support Logistics units, and 
perform mission roles as Heavy Weapons (Machine Guns) and Anti-Armor 
(TOW and Javelin) Weapons carriers and critical command and control and 
tactical logistics functions.
    Initially, we will procure and field 5,500 JLTVs between fiscal 
years 2017 and 2022, to replace the highest risk portion of our 18,000 
vehicle HMMWV fleet. In addition to providing protection equivalent to 
the base MRAP All-Terrain Vehicle (M-ATV), the JLTV will restore off-
road performance and payload to the light vehicle fleet that was lost 
when `frag kit' armor was installed on HMMWVs during Operation Iraqi 
Freedom. Frag kit armor does not protect against the underbody IED 
threat, a major vulnerability of the HMMWV, and the reason why it could 
not be used in recent combat operations. The JLTV will support the most 
demanding missions, including Joint Forcible Entry and crisis response 
operations from the sea. The JLTV will be transportable externally by 
CH-53 helicopter and will be capable of being stored and transported in 
the spaces formerly occupied by HMMWVs aboard amphibious and maritime 
prepositioning ships and surface connectors, such as the LCAC. JLTV 
competitive prototypes have also demonstrated fuel efficiency equal to 
a similarly equipped HMMWV, while moving, and a 20 percent less fuel 
use when at idle.
    We are pleased with the performance of the JLTV program and the 
three highly competitive vendors, AM General, Lockheed Martin, and 
Oshkosh Defense, working with us during the program's Engineering, and 
Manufacturing Development (EMD) phase. We look forward to working with 
our U. S. Army partners later this summer as the JLTV program prepares 
for its Milestone C decision and the selection of one of the EMD 
vendors to produce JLTV, beginning in fiscal year 2016.
    43. Senator Ayotte. General Allyn and General Paxton, as the JLTV 
program ramps up, how will existing HMMWV (Humvee) vehicles be 
reallocated?
    General Allyn. As the four JLTV variants (Heavy Gun Carrier, Close 
Combat Weapons Carrier, General Purpose, Utility/Shelter Carrier) are 
fielded to units, the Army will reallocate the most modern HMMWVs 
across all Army Components to replace older model HMMWVs. The Army will 
then divest those older model HMMWVs.
    General Paxton. Our intent is to replace the entire HMMWV fleet. 
Between 2017 and 2022 we will procure the first of the 5,500 JLTV's to 
replace the aging and overburdened HMMWV fleet. These 5,500 will 
fulfill a portion of the overall requirement we have for roughly 
818,000 vehicles. JLTVs will replace the portion of HMMWVs that are 
most at risk; those that perform a combat function and are most likely 
to be exposed to enemy fires. Those vehicles are assigned predominately 
to Ground Combat Element and Direct Support Logistics units, and 
perform mission roles as Heavy Weapons (Machine Guns) and Anti-Armor 
(TOW and Javelin) Weapons carriers and critical command and control and 
tactical logistics functions.
    The current Ground Combat Vehicle Strategy (GCTVS) outlines our 
plan to replace the remaining HMMWV fleet with JLTV, however we will 
need to make investments in the ACV during the 2020's to ensure that 
this platform remains prepared to carry us into the future. By 
sequencing our JLTV buy around the peak years of the ACV program, and 
modernizing a portion of our AAV fleet we will be able to achieve our 
long range goals within the projected limits of future budget 
restrictions. However, if the budget is fully sequestered in fiscal 
year 2016 or beyond, it will jeopardize both the timing and resources 
required to undertake this strategy and greatly affect our ability to 
achieve our requirements in both vehicle fleets.
    44. Senator Ayotte. General Allyn and General Paxton, after JLTV is 
fully implemented, how many HMMWV's will remain in each Service's 
inventory?
    General Allyn. The JLTV begins fielding in fiscal year 2018. Based 
on Force Structure projections for that year, fielding 49,099 JLTVs 
will leave 67,301 HMMWVs distributed across the Total Army.
    General Paxton. Our intent is to replace the entire HMMWV fleet. 
Between 2017 and 2022 we will procure the first of the 5,500 JLTV's to 
replace the aging and overburdened HMMWV fleet. These 5,500 will 
fulfill a portion of the overall requirement we have for roughly 
818,000 vehicles. JLTVs will replace the portion of HMMWVs that are 
most at risk; those that perform a combat function and are most likely 
to be exposed to enemy fires. Those vehicles are assigned predominately 
to Ground Combat Element and Direct Support Logistics units, and 
perform mission roles as Heavy Weapons (Machine Guns) and Anti-Armor 
(TOW and Javelin) Weapons carriers and critical command and control and 
tactical logistics functions.
    The current Ground Combat Vehicle Strategy (GCTVS) outlines our 
plan to replace the remaining HMMWV fleet with JLTV, however we will 
need to make investments in the ACV during the 2020's to ensure that 
this platform remains prepared to carry us into the future. By 
sequencing our JLTV buy around the peak years of the ACV program, and 
modernizing a portion of our AAV fleet we will be able to achieve our 
long range goals within the projected limits of future budget 
restrictions. However, if the budget is fully sequestered in fiscal 
year 2016 or beyond, it will jeopardize both the timing and resources 
required to undertake this strategy and greatly affect our ability to 
achieve our requirements in both vehicle fleets.
                Questions Submitted by Senator Tim Kaine
             Sequestration--Second and Third Order Effects
    45. Senator Kaine. General Allyn, Admiral Howard, General Paxton, 
and General Spencer, in multiple hearings we have heard testimony from 
the Service Chiefs on some of the negative effects of sequestration-
level budget caps. In fiscal year 2013, the Services took varied 
approaches to implement sequestration cuts. The Army cancelled major 
training exercises, the Air Force grounded aircraft, and the Navy 
deferred maintenance. Deferring costs into future years can create 
second and third order negative such as creating training and readiness 
deficits and the loss of capabilities. We have not heard many details 
about these second and third order effects. Additionally, because of 
the focus on counterinsurgency (COIN) training to prepare for 
deployments to Iraq and Afghanistan, our military now has an entire 
generation of officer and enlisted personnel who have never conducted 
full-spectrum training. If sequestration remains in fiscal year 2016 
and the Services again halts training for pilots, while they will 
continue to be paid, if they cannot fly--not only will they lose 
proficiency--but their morale suffers and can either lead them to leave 
the military or lead to behavior and family problems. Can each of you 
provide examples of the inefficient use of resources, such as time 
lost, increased long-term costs, and the second and third order 
problems those conditions create for training and readiness deficits?
    General Allyn. If we return to sequestration in fiscal year 2016, 
the Army will experience increased risk through degraded readiness to 
both our organizations and our installations.
    Reductions to individual training and education will create a 
backlog that will take years to correct and create gaps at critical 
points in leader development--especially mid-career officers and NCOs. 
Unit training for approximately 80 percent of the Force will be 
curtailed, impacting basic warfighting skills and readiness posture, 
and inducing shortfalls across critical specialties such as aviation 
and intelligence. The Army will generate fewer Brigade Combat Teams 
(BCTs) to the readiness levels required to support rapid combat 
deployment as we balance the readiness levels of BCTs with other 
critical enablers such as Combat Aviation Brigades and Combat 
Sustainment Brigades. The remaining BCTs will be resourced only to 
minimum Individual/Crew/Squad levels. This will stretch the time 
required to flow forces into a war-fighting theater, allowing our 
adversary more time to prepare and inevitably leading to greater U.S. 
casualties.
    From an installation perspective, our Army is still feeling the 
effects of sequestration in fiscal year 2013 when over 3.2 billion 
dollars of requirements were deferred to fiscal year 2014, to include 
significant Military Construction (MILCON) and Sustainment, Restoration 
and Modernization (SRM) projects. As you know, sustaining facilities is 
more cost effective than restoring them and our data shows that for 
every 1 dollar we purportedly `save' on sustainment we incur 1.33 
dollars of costs in restoration. By 2013, the Army already had a total 
restoration backlog of over 15 billion dollars. At current levels of 
funding, it will take approximately twenty-six years (2039) to return 
all of our installations to standard. A return to sequestration will 
only exacerbate this delay in providing our Soldiers and their Families 
with the mission essential facilities their selfless service warrants.
    Likewise, a return to sequestration will compel the Army to defer 
vehicle maintenance. Under sequestration in fiscal year 2013, commands 
reduced OPTEMPO to make additional resources available to address the 
deferred maintenance workload. Additionally, the Army reduced the 
maintenance requirements from ``10/20 standards'' (all routine 
maintenance is executed and all deficiencies are repaired) to a Fully 
Mission Capable (FMC) plus safety standard, decreasing the quantity of 
reliable and deployable equipment.
    Admiral Howard. Ship and air depot maintenance backlogs are good 
examples of the second and third order effects of sequestration. The 
impacts of the growing ship depot maintenance backlogs may not be 
immediately apparent, but will result in greater funding needs in the 
future to make up for the shortfalls each year and potentially more 
material casualty reports, impacting operations. For aviation depot 
maintenance, the growing backlog will result in more aircraft awaiting 
maintenance and fewer operational aircraft on the flight line for 
squadrons training for deployment. This will lead to less proficient 
aircrews, decreased combat effectiveness of naval air forces, and 
increased potential for flight and ground mishaps.
    In addition, sequestration in fiscal year 2013 led to decreases in 
the workforce and overall productivity in the depots/shipyards due to 
hiring freezes at a time when the Navy should have been increasing the 
workforce to meet a growing workload and replace normal attrition. 
These outcomes were further exacerbated by workforce overtime 
restrictions which prevented recovery of production schedules. A third 
order effect was an increase in workforce attrition from accelerated 
retirements or pursuit of other employment. While difficult to measure 
motivation, the anecdotal evidence suggests that furloughs, lack of 
overtime and an uncertain future were key contributors to an increased 
loss of experienced workers. The end results were delayed and more 
costly shipyard maintenance availabilities, and aviation depots were 
unable to execute the necessary workload to keep the required numbers 
of aircraft on the flight line.
    General Paxton. A return to sequestration--or to BCA caps--would 
exacerbate current fiscal challenges and force us to assume greater 
risk in our capacity to meet long-term operational requirements. The 
Marine Corps' current resource level represents the bare minimum at 
which it can meet the current Defense Strategic Guidance. Though we are 
committed to generating ready, forward deployed forces, at BCA levels 
we will accept significantly greater risk in the next major theater 
war. This is a ``one major combat operation,'' reduced-capacity force; 
essentially, we would be all in with no rotations, no surge capacity, 
and significantly reduced pre-deployment training. There would also be 
significant reductions in aviation and ground combat units, further 
reducing our available infantry battalions. Coupled with recent 
reductions in critical combat support capabilities such as artillery, 
tanks, and amphibious assault vehicles, such reductions would result in 
wars that last longer and extract a higher human cost.
    At BCA levels we would be unable to meet our ongoing operational 
commitments and would forgo participation in many of our planned 
security cooperation exercises. Though we intend to preserve the Guam/
DPRI effort as much as possible, a sequester would lengthen the 
timeline for completion.
    In terms of lasting implications, sequestration caps would also 
require us to adopt massively inefficient business and operational 
practices that end up costing much more over the long term. For 
instance, delaying modernization in order to protect near-term 
readiness greatly risks driving up acquisition costs. Any interruptions 
during program acquisitions--schedule slips, loss of efficiencies, and 
potential Nunn-McCurdy breaches--would ultimately increase total 
program costs. Deferred modernization would have implications for our 
equipment maintenance programs as well. We would be forced to sustain 
legacy systems longer than planned, and to shift focus away from 
cheaper, more efficient green technologies, toward older, more 
inefficient and expensive technologies. We would also reduce regular, 
scheduled maintenance on ground equipment (such as depot-level vehicle 
overhauls) as a further near-term cost saving measure. However, the net 
result of this combination of obsolete technology and reduced 
maintenance will drive up operations and support costs over the long 
term.
    We would see similar effects to our facilities. Long-terms 
infrastructure standards would be reduced, resulting in a score of Q3 
or ``Poor'' on the Facility Conditions Index. Base operating functions 
such as utilities and services would be depressed to minimum levels, 
and energy efficiency projects would be eliminated. Over time the 
cumulative effects of deferred or canceled maintenance will accelerate 
the deterioration of buildings and drive up long term costs.
    Finally, the return of sequestration would have costly implications 
for our workforce, particularly personnel at our maintenance centers. 
Because our depots are required to plan around the Services' 
maintenance funding levels, cuts to their maintenance budgets require 
corresponding reductions in staffing levels at the depots. This risks 
the accumulation of a maintenance backlog that must be worked down with 
(more costly) overtime. It also jeopardizes the retention of depot 
skilled artisans, thus permanently reducing our throughput/surge 
capacity. Our aviation units are experiencing these effects firsthand. 
The fiscal year 2013 sequester forced mass layoffs at aviation depots, 
which are now struggling to meet maintenance demands for our aircraft. 
The number of aviation assets available for training and missions has 
thus been reduced, and the readiness of our aviation units has dropped 
accordingly.
    General Spencer. Meeting the current and expanding demand for 
forces against a shrinking capacity has required the Air Force to make 
extraordinary choices in order to continue to supply air power. 
Examples of this problem manifest themselves in areas like remotely 
piloted aircraft (RPA) manning, fighter pilot manning, and maintenance 
support to flight operations. RPA pilot numbers are decreasing and RPA 
pilot training has been significantly constrained since 2007 due to the 
requirement to utilize RPA instructors for surge combat operations and 
not to conduct student training. The reduction of Air Force fighter 
cockpits limits the capacity to season junior fighter pilots, delays 
matriculation, and limits the experience level of our future fighter 
pilot leaders. Finally, reductions and limits to total Air Force 
manning have resulted in a lack of experienced aircraft maintenance 
expertise needed to keep aging legacy aircraft flying and to bring new 
weapons systems to active duty. Second and third order effects include 
an RPA community that is losing operators faster than it can train 
replacements, and a 5-year decline in the acceptance of the pilot 
retention bonus. There are no short-term solutions for these 
shortfalls. Full Presidential Budget (PB) 2016 funding, Overseas 
Contingency Operations funding moved to baseline, a reduction in 
deployment requirements, and time are necessary to develop the 
experienced Airmen required to repair Air Force readiness.
    46. Senator Kaine. General Allyn, Admiral Howard, General Paxton, 
and General Spencer, what kind of impact would not only stopping basic 
training proficiency, but losing the opportunity to conduct advanced 
training, and what kind of impact that would have on our future 
generation of leaders?
    General Allyn. As codified in Title 10 US Code (Subtitle A, PART 
II, Chapter 39, Section 671), Soldiers may not be deployed without 
completing basic training. Initial Military Training (basic combat 
training and initial skills training) transforms volunteers into 
Soldiers with the requisite warfighting and technical skills to 
positively contribute to their unit. Without this foundational, 
institutional training, Soldiers would require burdensome, time-
consuming training at their first unit of assignment. Additionally, 
standardization of initial training, when conducted at first unit of 
assignment, would be extremely difficult to ensure and lead to an 
increased risk of casualties in the event of a contingency. Delaying or 
halting the various advanced training courses offered to mid-career 
leaders will create a significant gap in professional development. This 
gap will force the Army to choose between placing leaders in positions 
of increasing responsibility without the appropriate level of 
professional education or delaying their promotion until such a time as 
the training can be completed.
    Admiral Howard. Stopping basic training proficiency and pre-
deployment advanced training would gravely impact the Navy's mission. 
We continually operate in a rotational deployment cycle, and the 
Combatant Commanders expect deployed Navy units to be ready to execute 
any core mission when and where directed. Therefore, full spectrum pre-
deployment training is paramount.
    If we return to sequestration, growing numbers of future leaders 
would develop experience gaps at key stages in their careers. Although 
Navy will prioritize pre-deployment training, sequestration will slow 
the training cycle. Non-deployed units will conduct advanced training 
``just-in-time'' to complete deployment certification, and their post-
deployment training to sustain readiness may not be funded. This 
reduces the total number of training opportunities at each career 
level. Joint partner participation in our certification exercises would 
also likely be reduced, and other cancelled or down-scoped advanced 
training exercises would limit the quantity and quality of additional 
training opportunities beyond pre-deployment certification.
    General Paxton. We are able to meet our current training 
requirements. However, in order to make continuous and long term 
readiness a reality, we have to strike the right balance between 
deployment for operations and training time here at home. Right now, we 
have about a 1:2 deployment to dwell ratio. That is, Marines are 
deployed for 7 months and home for 14. This allows a proper unit 
rotation to ensure that each time a unit deploys they are fully ready. 
If we are forced to take further cuts, that level will decrease closer 
to 1:1.5 or 1:1. What this means is that units have less time between 
deployments to conduct the required training prior to their next 
deployment.
    More specifically, home station readiness is at risk when personnel 
and equipment are sourced to protect the readiness of deployed and 
next-to deploy units. This is a logical decision when validated 
operational requirements exceed resource availability. Home station 
units are expected to be in a higher state of readiness since the 
Marine Corps is charged to be the Nations' force in readiness. The way 
they preserve this readiness is through training. By way of example, 5 
of the last 6 infantry battalions assigned to Marine Expeditionary 
Units were not prepared until 30 days before deployment. This is 
sufficient for planned deployments, but becomes problematic and 
dangerous as conflicts extend or the need to respond to unexpended 
crises arises.
    To the point about our future leaders, it is essential that we have 
the ability not only to train leaders in tactical and technical skills 
at Professional Military Education (PME) courses, but also that those 
leaders have an opportunity to train with their subordinates during 
unit training. Cuts to either facet damage long term leadership 
development because leaders do not get the individual development they 
require and subordinates are not provided the opportunity to learn 
through interaction with seasoned and effective leaders. This creates a 
compounding downward spiral of competence and experience that we can 
ill afford.
    General Spencer. The loss of both basic and advanced training is 
reflected in the steady decline of overall Air Force readiness. The 
reality is that our current generations of Air Force Airmen have been 
heavily involved in low intensity or counter-insurgency conflicts for 
the past 14 years. Our Air Force, to include our leadership, is better 
than it has ever been at close air support, mobility, and special 
operations in low intensity operations. However, this has come at the 
expense of full spectrum readiness and the ability to fully support the 
Defense Strategic Guidance. For example, by 2012, 10+ years of 
cumulative skill atrophy have driven B-1 crews to routinely train for 
low-level attack missions at double the desired tactical altitude as a 
result of insufficient training proficiency and readiness. Simply put, 
the B-1 community sacrificed a distinct tactical and operational 
advantage due to fundamental aircrew safety and readiness concerns. A 
similar example exists in every Air Force community. Lost training has 
extended the matriculation of our future Air Force leaders. Lost 
opportunities to train and practice our ``high-end fight'' garner gaps 
of experience in our future leaders and insert unseen risk resulting in 
errors that will be swift and catastrophic.
                    Path to Full-Spectrum Readiness
    47. Senator Kaine. General Allyn, Admiral Howard, General Paxton, 
and General Spencer, several of the Military Services have identified 
2020 or 2023 as a target to restoring full-spectrum proficiency and 
address the degraded state of non-deployed readiness. Meanwhile, the 
Navy has an optimized fleet response plan to achieve consistent and 
long-term presence around the globe. In the event sequestration could 
be avoided--could each of you please describe in specifics how you plan 
to restore full-spectrum readiness and what the end-state looks like?
    General Allyn. The Army's readiness recovery goal is to build 
readiness for current operations and ensure enough operational depth is 
ready to sustain larger contingency operations.
    The Army's ``get-well'' date is heavily influenced by two factors: 
demand for Army forces and funding availability. Assuming no change to 
current global demand and the fiscal year 2016 President's Budget (PB) 
funding levels are sustained, the Army forecasts achieving fiscal 
balance no earlier than fiscal year 2017 and returns to proficiency no 
earlier than fiscal year 2020. However, any increase in demand or 
reduction in funding will extend this recovery period. Fundamentally, 
we deliver full spectrum readiness through a combination of fully-
resourced Home Station Training, culminating in a unit's successful 
completion of a decisive action Combat Training Center rotation. If 
fully resourced at current force levels, it would take two years to 
cycle all our active Brigade Combat Teams through this training 
regimen.
    Admiral Howard. The Optimized Fleet Response Plan (OFRP) is the 
Navy's framework for readiness recovery. It is a disciplined process 
which preserves the time necessary to conduct required maintenance and 
modernization of our capital-intensive force. It also protects the time 
to conduct full spectrum training. Multiple lines of effort are being 
aligned to deliver the full readiness impact of OFRP. Achieving the 
desired end-state first depends on restoring the capacity of our 
shipyards and aviation depots. Our success will result in completion of 
maintenance and modernization on schedule; ready units that are 
available at sustainable levels from year-to-year to support Combatant 
Commander global presence requirements; and additional operational 
availability providing full contingency response capacity that is 
routinely sustained until the next maintenance cycle begins. 
Furthermore, to sustain full-spectrum readiness over time we must 
continue on a stable path to procure new platforms and ordnance, while 
also modifying existing platforms at a pace that sustains our 
warfighting advantage.
    General Paxton. Should sequestration be avoided and its deleterious 
pecuniary effects put aside, the Marine Corps recognizes that non-
pecuniary actions and time would be required to restore full spectrum 
readiness. The Marine Corps is the Nation's ready force, a force 
capable of responding to crises and contingencies anywhere around the 
globe at a moment's notice. To fully reconstitute the whole-of-force 
after over a decade of sustained unprecedented conflict and fiscal 
challenges, the Marine Corps would continue taking actions that address 
readiness concerns across the Future Years Defense Plan. Those actions 
include: (1) Balance readiness between deployed and home station units. 
Forward deployed and engaged units will remain a priority for 
resourcing. However, to help lessen the burden of high operational 
tempo and improve overall readiness, the Marine Corps will employ 
deployment-to-dwell ratios that improve home station unit readiness. 
Personnel shortfalls at the unit level are a principal detractor to 
recovering readiness. Actions taken to help restore home station unit 
readiness include manning assignment policies that improve leader-to-
led ratios, especially among the Noncommissioned Officer and Staff 
Noncommissioned Office grades; ensuring required unit personnel fill 
levels essential for combat effectiveness are protected; and that 
readiness recovery is optimized across the entire unit life cycle 
versus only the pre-deployment training period. (2) Reconstitute the 
force to New Normal and upcoming challenges. To meet current 
requirements and preserve readiness recovery, the Marine Corps will 
continue to mature its capstone concept and vision for designing and 
developing the force now and into the future. (3) Equipment Reset. 
Ground equipment supporting Operation Enduring Freedom has retrograded 
to the U.S. Much of this equipment has completed the required post-OEF 
repairs and subsequently has been redistributed to units. The Marine 
Corps is on track to complete repair and redistribution of all OEF war-
torn equipment in fiscal year 2017.
    For the Marine Corps, full spectrum readiness equates to Service-
wide capability of operating, effectively and efficiently, across the 
range of military operations, and achieving mission objectives at any 
time or place. All Marine Corps units would be capable of responding to 
a broad spectrum of conflict scenarios. Full spectrum readiness allows 
the service to meet current and future requirements. Full spectrum 
readiness entails the ability to simultaneously meet (1) current 
operations supporting the Combatant Commands, (2) emergent crises and 
major contingencies, (3) the demands of the institution that underpins 
the ability to effectively and efficiently fulfill the Service's 
statutory and regulatory obligations.
    General Spencer. The Air Force is the smallest in its history and 
lacks the capacity to meet both the rotational Combatant Commander 
requirements and the required dwell time necessary to train in-
garrison. With FY16 PB funding and a transition to deployment cycles 
that allow sufficient time to build and maintain full-spectrum 
readiness, the Air Force will be able to build readiness in the short, 
medium, and long term. Short term improvements will be derived from 
executing a robust flying hour program that emphasizes full-spectrum 
training. Mid-term gains are expected from accomplishing delayed 
maintenance and upgrades to weapon systems and support equipment. Long-
term gains will come from investments in our Airmen. It takes time to 
recruit and train our Airmen to be journeymen, supervisors, and leaders 
who are ready to execute the full-spectrum of missions required of our 
Air Force. If 80 percent readiness is achieved by the end of 2023, the 
result will be a highly capable Air Force, able to meet the two largest 
pillars of the Defense Strategic Guidance with ready forces.
         Sequestration Relief for Other U.S. Security Agencies
    48. Senator Kaine. General Allyn, Admiral Howard, General Paxton, 
and General Spencer, the new National Security Strategy released last 
month, states that our national security relies on more than just the 
work of Department of Defense (DOD). Sequestration is having as harmful 
an impact on our diplomatic and international development tools, 
Homeland security, law enforcement, and intelligence activities as 
well. Would you agree that we should provide sequestration relief to 
DOD and all the non-DOD contributors to our national security like the 
State Department, the Intelligence Community, the Department of 
Homeland Security, and the Department of Justice to name a few?
    General Allyn. There are several instruments of national power that 
we commonly refer to as ``DIME'' which stands for diplomatic, 
information, military, and economic. We are only one component of 
this--the remaining agencies provide the bulk of the other national 
capabilities. We believe that only through a whole-of-government 
approach can our national security objectives be met.
    As such, it is our belief that even if sequestration relief were 
provided to the Department of Defense, the nation's ability to achieve 
its objectives would remain at risk without funding relief across the 
whole-of-government.
    Admiral Howard. The Navy continues to oppose sequestration for the 
entire federal budget because it implements harmful automatic cuts with 
no regard for priority. The Navy is globally deployed to provide a 
credible and survivable strategic deterrent and to support the mission 
requirements of the regional Combatant Commanders. In executing our 
operations, the Navy relies on joint and interagency support from other 
DoD and non-DoD organizations. Any negative impacts to the 
organizations we partner with can have an impact on our ability to 
execute operations and the Defense Strategic Guidance. A return to 
sequestration would jeopardize the Navy's readiness and damage our 
national security.
    General Paxton. ``While I do not dispute that national security is 
a whole-of-government effort, I cannot authoritatively comment on the 
potential impact of sequestration on any organization, other than the 
U.S. Marine Corps.''
    General Spencer. Yes. Non-DoD agencies should be similarly 
considered for relief from sequestration. Any increase in defense 
spending should be matched at some level for the non-defense 
discretionary spending that contributes to our national security.
    49. Senator Kaine. General Allyn, Admiral Howard, General Paxton, 
and General Spencer, if sequestration-level budget caps remain in 
fiscal year 2016, how would you characterize the impact of lost 
capability or capacity from these other agencies to meet the 
requirements of our Nation's security needs?
    General Allyn. The Army, and indeed the Department of Defense, 
cannot solely defend national security or meet the nation's strategic 
objectives in a way consistent with our values. The military is only 
one of the instruments available to the nation for achieving its 
objectives and securing its interests. Loss of capability and capacity 
in these other areas would certainly make our job more difficult and 
hinder the Nation's ability to meet its security objectives.
    Admiral Howard. The Navy continues to oppose sequestration for the 
entire federal budget because it implements harmful automatic cuts with 
no regard for priority. The Navy is globally deployed to provide a 
credible and survivable strategic deterrent and to support the mission 
requirements of the regional Combatant Commanders. In executing our 
operations, the Navy relies on joint and interagency support from other 
DoD and non-DoD organizations. Any negative impacts to the 
organizations we partner with can have an impact on our ability to 
execute operations and the Defense Strategic Guidance. A return to 
sequestration would jeopardize the Navy's readiness and damage our 
national security.
    General Paxton. ``While I do not dispute that national security is 
a whole-of-government effort and that sequestration could have an 
impact on the ability of other government organizations, I cannot 
authoritatively comment on the potential impact of sequestration on any 
organization, other than the U.S. Marine Corps.''
    General Spencer. The Air Force relies heavily on the support of 
both DoD and non-DoD entities and will find it difficult to complete 
its mission if our agency partners lose capability or capacity. The 
support we receive through these relationships extends to all domains 
and strengthens our ability to conduct full-spectrum operations in 
support of our national interests.
    50. Senator Kaine. General Allyn, Admiral Howard, General Paxton, 
and General Spencer, in your view, what would be the impact of 
sequestration-level budget cuts to Federal support services commonly 
used by soldiers, sailors, airmen, marines, and their families?
    General Allyn. The Army collaborates and coordinates with non-DoD 
agencies such as the Department of Agriculture, Health and Human 
Services, American Red Cross, Department of Labor and the Department of 
Veterans Affairs to achieve common Soldier and Family readiness goals. 
Non-DoD services and programs are an integral part of the Soldier and 
Family readiness system. Therefore, the readiness of Soldiers and 
Families who use non-DoD programs will inevitably be impacted by any 
reduction in outside agency programs or services.
    From a strictly Army standpoint, Soldier and Family programs would 
be unavoidably impacted if we are funded at the Budget Control Act 
levels. We can protect the highest priority programs such as 
Exceptional Family Member Program, Survivor Outreach Services, Child 
and Youth Programs, Family Advocacy, and Financial Readiness for 
Soldiers and Families. However, there will be increased risk to 
programs such as spouse employment, Army OneSource, library services, 
and Family and Morale, Welfare and Recreation programs. Reductions will 
affect staffing, operating hours, and range of services, resulting in a 
potential degradation to readiness, resiliency, and quality of life.
    Admiral Howard. Sequestration in fiscal year 2016 would have 
serious impacts to readiness overall. Because our Sailors are our most 
important asset and we must invest appropriately to keep a high-caliber 
all-volunteer force, we would try to minimize the impact to Sailor 
support, family readiness, and education programs. However, other 
support services may need to be reduced or delayed because of the 
significant funding reductions, which could negatively impact their 
morale and readiness. Furthermore, across-the-board sequestration cuts 
to non-DOD organizations such as the Consumer Financial Protection 
Bureau and the Department of Labor may also negatively impact the 
support services to our people.
    General Paxton. It is unclear how sequestration would affect the 
budgets and programs of other Federal programs. In regard to Marine 
Corps quality of life programs used by Marines and their families, 
recent budget reductions have already caused curtailment of many non-
core programs, such as Family Care, Family Readiness, and Semper Fit 
and Recreation. We are currently protecting core programs, such as 
Behavioral Health, Sexual Assault Prevention, and Wounded Warrior care, 
as well as support services for Marines returning from Afghanistan and 
transitioning out of the Marine Corps. However, under prolonged 
sequestration-level budget cuts, even these programs could be put at 
risk.
    Fundamentally, sequestration will exacerbate the challenges we have 
today including readiness of our Marines and their families including 
impacting the five pillars of readiness: high quality people, near unit 
readiness, capability and capacity to meet combatant commanders' 
requirements, infrastructure sustainment, and modernization. We have 
maintained near-term readiness at the cost of our long-term 
investments. The Budget Control Act has presented many readiness 
challenges and a sequestered budget would further exacerbate readiness 
issues.
    General Spencer. Under constrained budgets and impending 
sequestration, if not repealed, it is becoming more challenging to 
maintain diverse quality of life programs and services at adequate 
levels. The Air Force is committed to ``Taking Care of People'' and 
strives to maintain installation services and family programs to help 
build and maintain ready, resilient Airmen and their families. To help 
mitigate budget impacts, the Air Force has prioritized Airmen and 
family support programs from an enterprise-wide perspective. Our 
fitness, child and youth care, food services, and some family support 
programs (outdoor recreation, libraries, youth centers, etc.) are 
programmed to continue in the FY16 PB request. Funding below the PB 
request will force commanders to make difficult decisions to prioritize 
these support activities against operational and mission requirements.
    51. Senator Kaine. General Allyn, Admiral Howard, General Paxton, 
and General Spencer, in your view, do reductions to federal support 
services hurt education and health care in local communities and 
ultimately risk the quality of life and readiness of our servicemembers 
and their families?
    General Allyn. Through DOD funding, the Army is maintaining a 
viable Voluntary Education Program IAW DoDI 1322.25 requirements. If 
funding to non-DOD Agencies (community and state schools) were reduced, 
it could have some impact on Soldier education by increasing costs not 
covered by the DOD programs.
    Members of the Army and their families live and work in the 
communities surrounding our installations. While some members of the 
military live on installations with access to DoD schools, an 
increasing number (880 percent of dependent Servicemembers children) do 
not. Instead, they use public or private education in the local 
community. Our members have access to military healthcare facilities in 
many locations but we still rely on local private and public sector 
healthcare services to augment our capabilities. Degradation of 
healthcare or education services within a community would impact the 
quality of life and readiness of our service members and their 
families.
    Admiral Howard. Since the majority of our Sailors and their 
families live in the local communities surrounding the installations, 
if local community services are negatively impacted by reductions, our 
Sailors and families will likely share the same consequences with the 
local community. We have no data or feedback from regions or 
installations to substantiate negative impact on local community 
services.
    General Paxton. In specific regard to military and family quality 
of life support programs, we have taken cuts in areas of Family Care, 
Family Readiness, and Semper Fit and Recreation. As we move forward, we 
will evaluate our programs and develop a plan with a bias toward 
decentralizing decision-making and resource allocation. Funding will 
focus on sustainment of core readiness and higher headquarters 
requirements, such as Behavioral Health, Sexual Assault Prevention, and 
Wounded Warrior care. Marines and their families have and may be 
impacted by reductions in noncore programs due to accessibility of 
programs, establishment or increase of fees to use resources (e.g., 
youth programs, pools, etc.), and hours of operations (e.g., fitness 
facilities). However, the Marine Corps has made all efforts to find 
savings without resulting in direct impacts to our Marines and families 
and those impacts being minimal in areas of noncore programs. Funding 
reductions that impact support services do risk Marine and family 
quality of life and readiness, but it is not clear the impact on 
education and health care in local communities.
    General Spencer. Federal support services for education and health 
care, combined with Air Force programs, comprise the package of 
services that military families rely upon. Funding reductions for these 
programs result in less support to service members and their families. 
Many Air Force members and their families rely on public education and 
medical services available through local communities so reductions in 
federal support to these services adversely affect quality of life for 
service members.
                 Aircraft Maintenance Throughput Issues
    52. Senator Kaine. Admiral Howard and General Paxton, with the 
delay of the F-35, legacy aircraft like the F/A-18 Hornet A and D 
models, must undergo service-life extension programs (SLEP) to cover 
the gap in aircraft coverage. In addition to sequestration-level budget 
caps, there have been reports of obsolescent parts, a shrinking to non-
existent vendor industrial base, maintenance backlogs, and higher than 
planned failure rates as the aircraft age. Could you please explain how 
even if Congress were to give you additional funding, it may not fix 
the aircraft maintenance throughput issues, and how you either need 
relief from sequestration, decreased op-tempo, or more people?
    Admiral Howard. The Fiscal Year 2016 President's Budget request 
provides funding to align F/A-18A-F depot throughput to projected 
capacity.
    To improve F/A-18 depot capacity, the Department is attacking the 
major barriers to production--manpower and material. This includes an 
aggressive hiring and training plan for artisans and engineers, and 
improved parts availability and staging for high flight hour (HFH) 
maintenance events based on common repair requirements. Additionally, 
the Navy has collaborated with Boeing in identifying several areas to 
improve overall depot throughput, such as employing Boeing Engineering 
Support and incorporating Super Hornet modifications at its Cecil Field 
facility. The strategy is proving successful as depot production levels 
are improving, but requires time to fully mature. With the requested 
funding, and under this plan, the Department anticipates continued 
improvement in depot throughput to meet annual production requirements 
by fiscal year 2017 and full recovery by fiscal year 2019.
    A return to sequestration in fiscal year 2016 is a recurring 
concern as the Department requires a stable budget to meet these 
objectives. Sequestration and the compound effects of the 2013 
government shutdown drove manning shortfalls for both artisans and 
engineers and hampered the Navy's ability to respond to unplanned work 
found during HFH inspections. Any further reductions in the depot 
maintenance, engineering and contractor support budgets will impede the 
depot throughput improvement strategy. Moreover, a return to 
sequestration will affect recent initiatives including the F/A-18E/F 
service life assessment and extension programs (SLAP/SLEP). Current 
efforts for Super Hornet SLAP/SLEP include fatigue life analysis, 
stress predictions, and inspection and modification development. These 
analyses will inform future work and ensure material kits are developed 
to better support life extension efforts, but are required prior to the 
first aircraft reaching its 6,000 hour limit, expected in CY2017. A 
return to sequestration would have a compounding effect that will 
further increase risk in our strike fighter inventory management 
strategy and reduce the availability of warfighting assets.
    General Paxton. The Marine Corps, along with all of the other 
services, is facing with issues with our current aircraft and keeping 
them relevant and ready while transitioning to new airframes in each of 
our aviation communities. The specter of sequestration-level budget 
caps frustrates the Marine Corps movement towards recovery and will 
reintroduce many of the problems from the first round of sequestration. 
Our Aviation Depots were not protected and we experienced a loss of 
skilled artisans and personnel. We are still rebuilding the workforce 
that we lost. It is critical that we do so to improve the throughput 
issues experienced with the SLEP and other engineering challenges we 
are experiencing with all of our type/model/series of aircraft: CH-53E, 
AV-8B, MV-22, H-1, and the more widely recognized F/A-18A-D. If given 
any additional funding, we would protect and grow manpower at our 
Depots to help with our Current Readiness challenges and increase our 
throughput.
    In the near term, we are pursuing commercial alternatives as 
additions to our Depots to also increase throughput. This will directly 
translate to increased current readiness for all of our type/model/
series of aircraft. We would continue to invest in our current fleet of 
aircraft to ensure their relevance on the battlefield as we continue to 
upgrade every aviation community. Finally, we would continue to fund 
our vital transition plan by purchasing more new aircraft in our 
current programs to complete our transitions sooner and divest of our 
current fleet faster, helping our Future Readiness.
    The Marine Corps stands behind the fiscal year 2016 President's 
Budget and the Marine Corps' Unfunded Priorities List. This will help 
us keep all of our aircraft relevant and ready while continuing to 
build our F-35 fleet in addition to our other transitioning platforms. 
A return to sequestration would only exacerbate our issues with our 
aircraft, their modernization, and the SLEP programs necessary to make 
our way to aircraft like the F-35, CH-53K, and all other transitioning 
airframes.
                          Simulation Training
    53. Senator Kaine. General Allyn, Admiral Howard, General Paxton, 
and General Spencer, the Chief of Nacal Operations' (CNO) Navigation 
Plan from 2015-2019 calls for focus on critical afloat and ashore 
readiness, including the ``developing and fielding of live, virtual, 
and constructive training, to provide more realistic training at a 
reduced cost.'' For example, there is a 3-D software program called the 
Multipurpose Reconfigurable Training System ( MRTS) that enables a 
sailor to view and access all parts of an engine found aboard Virginia 
class submarines. The Marine Corps uses combat convoy simulators at 
their bases in Quantico, California, North Carolina, Hawaii, and Japan. 
If we are unable to reverse sequestration, how can the Services 
leverage simulators to maximize full-spectrum training proficiency in 
the face of fiscal constraints?
    General Allyn. The Army currently has the appropriate mix of live, 
virtual, and constructive training. The three complement each other 
allowing Soldiers to practice basic skills and in some cases to 
practice complex maneuvers prior to live execution. It is important to 
remember that virtual and constructive training cannot replace live 
training. Simulation allows for greater repetition and practice, but 
does not qualify a Soldier or unit as trained.
    While simulations do save some training dollars, they are not a low 
cost solution. Simulating training requires complex and maintenance-
intensive systems. The Army will always seek to optimize its 
investments in training resources, but there must be balance as some 
skills cannot be practiced in a simulator and units must execute live 
training to be proficient.
    Admiral Howard. There remains a fine balance between the 
requirement for live, hands-on training and the complementary training 
capability provided by simulation. But even in a fiscally constrained 
environment, Navy is making the necessary investments to effectively 
leverage the live, virtual and constructive (LVC) training continuum to 
deliver more cost effective and higher quality training than live 
training alone can provide. New platforms, such as LCS, use simulation 
as the focus of their training, saving some of the expense of underway 
training operations, while we continue to invest in the Fleet Synthetic 
Training (FST) program, linking multiple Navy units, U.S. Joint Forces, 
and partner nations across the globe to practice operationally relevant 
scenarios. Current and planned investments will support our future 
training needs while continuing to improve the overall quality of 
tactical training.
    Leveraging the successes we have achieved with FST and its 
connected tactical ship and aviation trainers, we are also applying 
simulation more frequently to maintenance training. The MRTS cited in 
your question is a good example. We are creating a virtual Virginia 
Class Submarine diesel engine room with considerable savings versus an 
alternative brick and mortar solution.
    General Paxton. There is no doubt that simulators provide a unique 
opportunity to provide realistic training opportunities that offset 
some of the costs associated with real-world training. These systems 
allow for varied training experiences, can minimize ammunition usage, 
and decrease logistical costs. In fact, the Commandant's Planning 
Guidance for 2015 specifically states that development and use of 
simulators remains a high priority for the service.

        ``We will continue to support the fielding of systems that 
        enhance our proficiency and safety in operating weapons and 
        equipment. Our investment in training systems will reflect the 
        priority we place on preparing for combat and be fully 
        integrated with training and readiness standards. I expect all 
        elements of the MAGTF to make extensive use of simulators where 
        appropriate.''
                                    -Gen. Joseph Dunford

    However, as with other modernization efforts, we have had to defer 
some simulator development initiatives in order to prioritize near term 
readiness. We are currently funding simulator development and testing 
through individual system programs and supporting contracts. Due to the 
programming cycle, Fiscal Year 2018 will be the first opportunity to 
fund enduring integrated simulator capability.
    Specifically, the Marine Corps Training and Education Command's 
(TECOM) Modeling and Simulation (M&S) Master Plan, Squad Immersive 
Training Environment (SITE), as well as the Live, Virtual, 
Constructive--Training Environment (LVC-TE) identify service 
requirements for simulators and simulations. These requirements are 
being addressed by TECOM. In conjunction with this we are continuing 
our efforts to integrate aviation systems with ground simulations to 
provide opportunities to conduct training that tests the full structure 
and capabilities of the Marine Air Ground Task Force (MAGTF).
    General Spencer. The Air Force is committed to ensuring force 
readiness in the most effective manner. Our combat and mobility 
communities, each have unique assets and therefore, different 
solutions. Some events/sorties can be replicated in the virtual world, 
while others cannot. In addition, for both communities, live training 
encompasses more participants than merely the aircrew. Maintenance, 
logistics, and airfield operations functions, to name a few, are active 
participants of the total flying activity and must be used every day to 
ensure combat power is available when and where the nation needs it. 
Current aircrew simulators do not exercise the entire logistical chain.
    Air Combat Command utilizes simulators as an integrated component 
of a daily comprehensive live and virtual training construct. In 
conjunction with a command-wide realignment of the Ready Aircrew 
Program (RAP--the annual training specification) that occurred in 2010-
2011, simulator training now constitutes 27 percent of total fighter 
RAP training, 40 percent of B-1 RAP training, and 50 percent of Command 
and Control, Intelligence, Surveillance and Reconnaissance RAP 
training. Given the quality and capacity of the combat simulators, 
there are not additional events/sorties that could be transferred to 
the virtual environment.
    Air Mobility Command (AMC) offset over $700 million in live fly 
hours in fiscal year 2014 through the employment of Live, Virtual, and 
Constructive (LVC) capabilities. AMC has established a Distributed 
Mission Operations capability with networked connectivity for C-17s 
with other MAJCOMs and Joint partners to allow for expanded training 
opportunities in more realistic environments. AMC will expand upon 
current capabilities by connecting tanker (KC-10, KC-135, and KC-46) 
and additional airlift assets (C-130s and C-5s) over the next 5 years. 
In addition, AMC is pursuing a networked, virtual air refueling 
capability for their tanker and airlift systems to allow for additional 
migration of refueling training to the simulators (initial capability 
in fiscal year 2018).

    [Whereupon, at 4:21 p.m., the hearing was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
